<html>
<title> - DEFENSE SUPPORT OF CIVIL AUTHORITIES: A VITAL RESOURCE IN THE NATION'S HOMELAND SECURITY MISSIONS</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


                 DEFENSE SUPPORT OF CIVIL AUTHORITIES: A 
                  VITAL RESOURCE IN THE NATION'S HOMELAND 
                  SECURITY MISSIONS

=======================================================================

                                HEARING

                               BEFORE THE
                               
                            SUBCOMMITTEE ON
                        EMERGENCY PREPAREDNESS,
                      RESPONSE, AND COMMUNICATIONS

                                 OF THE

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 10, 2015

                               __________

                           Serial No. 114-20

                               __________

       Printed for the use of the Committee on Homeland Security
                                     

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

                                     

      Available via the World Wide Web: http://www.gpo.gov/fdsys/

                               ___________
                               
                               
                        U.S. GOVERNMENT PUBLISHING OFFICE
95-684 PDF                     WASHINGTON : 2015                        
______________________________________________________________________________________                            
                              
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="0c6b7c634c6f797f786469607c226f636122">[email&#160;protected]</a>  

                              
                               
                               

                     COMMITTEE ON HOMELAND SECURITY

                   Michael T. McCaul, Texas, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Peter T. King, New York              Loretta Sanchez, California
Mike Rogers, Alabama                 Sheila Jackson Lee, Texas
Candice S. Miller, Michigan, Vice    James R. Langevin, Rhode Island
    Chair                            Brian Higgins, New York
Jeff Duncan, South Carolina          Cedric L. Richmond, Louisiana
Tom Marino, Pennsylvania             William R. Keating, Massachusetts
Lou Barletta, Pennsylvania           Donald M. Payne, Jr., New Jersey
Scott Perry, Pennsylvania            Filemon Vela, Texas
Curt Clawson, Florida                Bonnie Watson Coleman, New Jersey
John Katko, New York                 Kathleen M. Rice, New York
Will Hurd, Texas                     Norma J. Torres, California
Earl L. ``Buddy'' Carter, Georgia
Mark Walker, North Carolina
Barry Loudermilk, Georgia
Martha McSally, Arizona
John Ratcliffe, Texas
Daniel M. Donovan, Jr., New York
                   Brendan P. Shields, Staff Director
                    Joan V. O'Hara,  General Counsel
                    Michael S. Twinchek, Chief Clerk
                I. Lanier Avant, Minority Staff Director
                                 ------                                

  SUBCOMMITTEE ON EMERGENCY PREPAREDNESS, RESPONSE, AND COMMUNICATIONS

                   Martha McSally, Arizona, Chairman
Tom Marino, Pennsylvania             Donald M. Payne, Jr., New Jersey
Mark Walker, North Carolina          Bonnie Watson Coleman, New Jersey
Barry Loudermilk, Georgia            Kathleen M. Rice, New York
Daniel M. Donovan, Jr., New York     Bennie G. Thompson, Mississippi 
Michael T. McCaul, Texas (ex             (ex officio)
    officio)
             Kerry A. Kinirons, Subcommittee Staff Director
                   Deborah Jordan, Subcommittee Clerk
           Moira Bergin, Minority Subcommittee Staff Director
                             
                             C O N T E N T S

                              ----------                              
                                                                   Page

                               STATEMENTS

The Honorable Martha McSally, a Representative in Congress From 
  the State of Arizona, and Chairman, Subcommittee on Emergency 
  Preparedness, Response, and Communications:
  Oral Statement.................................................     1
  Prepared Statement.............................................     2
The Honorable Bonnie Watson Coleman, a Representative in Congress 
  From the State of New Jersey...................................     3
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Ranking Member, Committee on 
  Homeland Security:
  Prepared Statement.............................................     5

                               WITNESSES
                                Panel I

Mr. Robert J. Fenton, Jr., Deputy Associate Administrator, Office 
  of Response and Recovery, Federal Emergency Management Agency, 
  U.S. Department of Homeland Security:
  Oral Statement.................................................     6
  Prepared Statement.............................................     8
Mr. Robert G. Salesses, Deputy Assistant Secretary, Homeland 
  Defense Integration and Defense Support of Civil Authorities, 
  U.S. Department of Defense:
  Oral Statement.................................................    13
  Joint Prepared Statement.......................................    14
Brigadier General Joseph E. Whitlock, Deputy Director, Western 
  Hemisphere, The Joint Staff, J-5, Strategic Plans and Policy 
  Directorate, U.S. Department of Defense:
  Oral Statement.................................................    19
  Joint Prepared Statement.......................................    14
Mr. Joseph W. Kirschbaum, Ph.D., Director, Defense Capabilities 
  and Management, U.S. Government Accountability Office:
  Oral Statement.................................................    21
  Prepared Statement.............................................    22

                                Panel II

Major General Michael T. McGuire, The Adjutant General, 
  Department of Emergency and Military Affairs, State of Arizona:
  Oral Statement.................................................    42
  Prepared Statement.............................................    44
Mr. Jimmy J. Gianato, Director, Division of Homeland Security and 
  Emergency Management, State of West Virginia, Testifying on 
  Behalf of the National Emergency Management Association:
  Oral Statement.................................................    54
  Prepared Statement.............................................    56
Mr. Peter T. Gaynor, Director, Emergency Management Office, State 
  of Rhode Island:
  Oral Statement.................................................    59
  Prepared Statement.............................................    61

                                APPENDIX

California Governor's Office of Emergency Services, National 
  Emergency Management Association:
  Statement for the Record.......................................    77

 
DEFENSE SUPPORT OF CIVIL AUTHORITIES: A VITAL RESOURCE IN THE NATION'S 
                       HOMELAND SECURITY MISSIONS

                              ----------                              


                        Wednesday, June 10, 2015

             U.S. House of Representatives,
 Subcommittee on Emergency Preparedness, Response, 
                                and Communications,
                            Committee on Homeland Security,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:11 a.m., in 
Room 311, Cannon House Office Building, Hon. Martha McSally 
[Chairman of the subcommittee] presiding.
    Present: Representatives McSally, Loudermilk, Donovan, 
Watson Coleman, and Rice.
    Also present: Representative Langevin.
    Ms. McSally. The Committee on Homeland Security, 
Subcommittee on Emergency Preparedness, Response, and 
Communications will come to order. The subcommittee is meeting 
today to examine the important role played by the military in 
homeland security missions.
    Before we begin, I would like to welcome the gentleman from 
New York, Mr. Donovan, to the subcommittee. We look forward to 
working with you on this committee.
    Mr. Donovan. Thank you.
    Ms. McSally. I will now recognize myself for an opening 
statement.
    Like politics, all disasters are local. Whether it is a 
hurricane making landfall in a coastal State, a bomb exploding 
in a mass gathering, or a wildfire threatening life and 
property, State and local first responders and emergency 
managers will be the first on scene to manage the response.
    Sometimes, however, the magnitude of these emergencies will 
exceed the capabilities of the local responders. Governors may 
activate their National Guard forces, in addition to requesting 
Federal Government support. Coordinated by the Federal 
Emergency Management Agency, this assistance may also include 
assets from the Department of Defense.
    Today's hearing will examine the vital role played by the 
military in these homeland defense missions. So far this year 
we have seen record snowfalls, destructive tornados, massive 
flooding around the country. Last week marked the start of the 
2015 hurricane season, and in areas out West, including my home 
State of Arizona, we are gearing up for what is predicted to be 
an above-average wildfire season as well.
    In such emergencies, defense personnel and assets act as 
flexible force multipliers to the response. When activated by a 
Governor, a State's National Guard can provide, on short 
notice, search and rescue, logistics, firefighting, and law 
enforcement support. Federal military forces may also 
supplement State capabilities.
    We have seen this in action. National Guard forces 
responded to the massive flooding in Texas and Oklahoma by 
rescuing stranded citizens, transporting supplies, and 
providing equipment that assisted in accessing areas isolated 
by the floodwaters. Arizona National Guard personnel and 
resources have contained and suppressed wildfires, protecting 
the life and property of Arizona citizens. National Guard and 
Federal military forces deployed in response to Hurricane 
Sandy, which tested the use of the dual-status command 
structure. I am interested to hear more from our witnesses 
about the coordination and integration of defense capabilities 
during these and other responses.
    The National Guard also executes an important law 
enforcement support function. More than 400 Massachusetts 
National Guardsmen were on site during the 2013 Boston Marathon 
to supplement local law enforcement. These personnel were 
quickly able to pivot their mission to assist victims and 
secure the crime scene after the bombs detonated.
    As the threats to our Nation have evolved, so too have the 
military's homeland defense capabilities. DOD and the National 
Guard have units dedicated to responding to incidents involving 
chemical, biological, radiological, or nuclear--CBRN--agents or 
explosives.
    This subcommittee has held two hearings so far this year on 
the threat of chemical and biological terrorism. We know that 
the terrorists have long had an interest in using CBRN agents 
in their attacks. The resources and expertise provided by these 
specialized military teams are essential capabilities to meet 
this threat.
    We have two distinguished panels of witnesses before us 
today to discuss the importance of defense support to State and 
local emergency response providers and the lessons that have 
been identified in previous response collaborations. I 
mentioned lessons have been identified. We were just talking 
earlier, often in the military we call them lessons learned, 
but they are not learned until they have actually been learned. 
So I call them lessons identified until they are actually 
lessons learned.
    I look forward to learning more about the coordination of 
local, State, Federal, and military response capabilities, 
along with the areas that could be improved to make this vital 
response capability even more nimble.
    [The statement of Ms. McSally follows:]
                  Statement of Chairman Martha McSally
    Like politics, all disasters are local. Whether it is a hurricane 
making landfall in a coastal State, a bomb exploding at a mass 
gathering, or a wildfire threatening life and property, State and local 
first responders and emergency managers will be the first on the scene 
to manage the response.
    Sometimes, however, the magnitude of these emergencies will exceed 
the capabilities of these responders. Governors may activate their 
National Guard Forces, in addition to requesting Federal Government 
support. Coordinated by the Federal Emergency Management Agency, this 
assistance may also include assets from the Department of Defense.
    Today's hearing will examine the vital role played by the military 
in these homeland defense missions.
    So far this year, we have seen record snowfalls, destructive 
tornados, and massive flooding around the country. Last week marked the 
start of the 2015 hurricane season and areas out west, including in my 
home State of Arizona, are gearing up for what is predicted to be an 
above average wildfire season.
    In such emergencies, defense personnel and assets act as flexible 
force multipliers to the response.
    When activated by a Governor, a State's National Guard can provide, 
on short notice, search and rescue, logistics, firefighting, and law 
enforcement support. Federal military forces may also supplement State 
capabilities.
    We've seen this in action. National Guard forces responded to the 
massive flooding in Texas and Oklahoma by rescuing stranded citizens, 
transporting supplies, and providing equipment that assisted in 
accessing areas isolated by floodwaters.
    Arizona National Guard personnel and resources have contained and 
suppressed wildfires, protecting the life and property of Arizona's 
citizens.
    National Guard and Federal military forces were deployed in 
response to Hurricane Sandy, which tested the use of the dual-status 
command structure. I'm interested to hear more from our witnesses about 
the coordination and integration of defense capabilities during this, 
and other, responses.
    The National Guard also executes an important law enforcement 
support function. More than 400 Massachusetts National Guardsmen were 
on site during the 2013 Boston Marathon to supplement local law 
enforcement. These personnel were quickly able to pivot their mission 
to assist victims and secure the crime scene after the bombs detonated.
    As the threats to our Nation have evolved, so too have the 
military's homeland defense capabilities. DOD and the National Guard 
have units dedicated to responding to incidents involving chemical, 
biological, radiological, or nuclear (CBRN) agents or explosives.
    This subcommittee held two hearings on the threat of chemical and 
biological terrorism earlier this year. We know that terrorists have 
long had an interest in using CBRN agents in their attacks. The 
resources and expertise provided by these specialized military teams is 
an essential capability to meet this threat.
    We have two distinguished panels of witnesses before us today to 
discuss the importance of defense support to State and local emergency 
response providers and the lessons that have been identified in 
previous response collaborations.
    I look forward to learning more about the coordination of local, 
State, Federal, and military response capabilities, along with areas 
that could be improved to make this vital response capability even more 
nimble.

    Ms. McSally. The Chairman now recognizes the gentlelady, 
Mrs. Watson Coleman, for an opening statement.
    Mrs. Watson Coleman. Thank you, Madam Chair.
    Good morning. I would like to thank Chairman McSally for 
holding this important hearing on the role of defense resources 
in disaster response.
    The capabilities of our defense resources are vast and 
diverse. Though ordinarily jurisdictions may not look to 
partnering with National Guard or the Defense Department, the 
boots on the ground and the capacity that they can supply are a 
great multiplier. Just last month, units from the Texas and 
Oklahoma National Guards provided surge capacity to State and 
local responders during and after massive floods pummeled the 
region. With the upcoming 10-year anniversary of Hurricane 
Katrina and 3-year anniversary of Superstorm Sandy, we are 
reminded once again of the important role that defense 
resources play in response to recovery.
    Although many important reforms to facilitate improved 
integration of defense assets into civil response plans were 
implemented between Hurricane Katrina and Superstorm Sandy, 
every after-action report identified improvements that must be 
made. From clarifying the role of the dual-status commander, to 
improving training to ensure that command-and-control 
structures are well-exercised, there is more work to be done to 
drive efforts for better coordination on the ground, 
particularly during complex multi-State catastrophes.
    The testimony prepared by Mr. Kirschbaum underscores my 
point. Madam Chair, today's hearing could not come at a more 
appropriate time. As a subcommittee we have expended 
significant time when exploring response challenges associated 
with chemical and biological threats. In the event of a 
catastrophic chemical or biological incident, we know that 
defense resources are an integral part of an effective 
response. Today's hearing affords the subcommittee the 
opportunity to deepen our understanding of how defense 
resources support our Nation's chem-bio response capabilities.
    Another area of great interest to Members on both sides of 
the aisle is the Nation's response capability when it comes to 
another emerging threat area, and that is cybersecurity. The 
disclosure last week by the Department of Homeland Security and 
the Office of Personnel Management that the personnel files for 
possibly 4 million current and former Federal employees were 
hacked brings threat into real focus.
    The challenge of securing our Nation's cyber infrastructure 
and networks demands an all-hands approach. DHS has a dual 
cyber role. It is responsible for helping to protect Federal 
networks and partnering with critical infrastructure owners and 
others in the private sector to bolster cybersecurity. In the 
event of a major cyber incident which results in cascading 
failures of multiple independent, critical, life-sustaining 
infrastructure sectors, an effective and timely civilian 
response will necessarily depend on coordination with defense 
resources.
    Recent announcements by the National Guard Bureau of the 
creation of cyber protection teams is a welcome development and 
reflects an awareness of the likelihood that civilian 
authorities will look to the Guard for such support. These 
cyber protection teams will train and operate on a traditional 
part-time basis in support of their respective State National 
Guards. But when activated for Federal Active Duty, the teams 
will provide surge support to Army Cyber Command and support 
defense cyber space operations. I will be interested in 
learning more about how this capability will coordinate with 
and complement the civilian response capability.
    Along these lines, I would like to thank Mr. Gaynor, the 
director of Rhode Island Emergency Management, for being here 
today to talk to us about how the State leverages defense 
assets in its cyber response plans.
    Although I am encouraged to learn that cyber response 
coordination is underway, I was concerned to learn in GAO's 
written testimony that the Department of Defense has not yet 
adequately aligned its guidance on preparing for and responding 
to domestic cyber incidents with National-level guidance. I 
hope we can learn more about DOD's progress in that regard 
today.
    Once again, I thank the Chair for holding this timely 
hearing. I thank the witnesses for being here today, and I look 
forward to their testimony. With that I yield back my time.
    Ms. McSally. Thank you. The gentlelady yields back.
    Mrs. Watson Coleman. Madam Chair, I ask unanimous consent 
that Mr. Langevin be permitted to participate in today's 
subcommittee meeting.
    Ms. McSally. Okay. Without objection.
    Mrs. Watson Coleman. Thank you.
    Ms. McSally. Other Members of the subcommittee are reminded 
that opening statements may be submitted for the record.
    [The statement of Ranking Member Thompson follows:]
             Statement of Ranking Member Bennie G. Thompson
                             June 10, 2015
    Good morning. I would like to thank Ms. McSally and Mr. Payne, Jr. 
for holding this important hearing.
    Nearly 10 years ago, Hurricane Katrina slammed into the Gulf Coast 
and devastated the communities in its path.
    During the response and recovery efforts, we learned painful 
lessons about planning and training gaps that undermined successful 
response efforts.
    One of the most important lessons that emerged after Hurricane 
Katrina was the failure to coordinate Federal, State, and local assets 
to allow for rapid deployment of much-needed resources.
    In Mississippi, for example, household goods supplied by the 
Federal Government never made it into the hands of disaster survivors, 
and were given instead to State agencies.
    In the storm's aftermath, I worked with my colleagues in Congress 
to enact the Post-Katrina Emergency Management Reform Act, which 
provided a mechanism for the FEMA administrator to be elevated to the 
President's Cabinet during a disaster and directed FEMA to develop pre-
scripted mission assignments for Federal agencies, including the 
Department of Defense.
    Although Hurricane Katrina triggered many reforms to improve the 
ability to leverage defense support of civil authorities during 
emergencies, it is important to note that Hurricane Katrina was not the 
first time that defense resources were not effectively leveraged during 
a disaster response.
    Following the September 11 attacks, Federal Reservists tried to 
respond to Ground Zero, but there was no legal authority to put them to 
work--so an on-the-fly approach was employed.
    In the weeks and months that followed, Congress and the Executive 
branch began to reassess the Department of Defense's role in domestic 
responses to terrorist attacks and major disasters.
    While some progress was made to bolster DOD's role in certain civil 
response activities, Hurricane Katrina demonstrated that critical gaps 
remained.
    For example, our National Response Plan did not distinguish the 
type of defense support that might be required during a small disaster 
versus a catastrophic disaster.
    The Plan did not include detail about how defense support would be 
provided, whether resources would be supplied by Federal forces or the 
National Guard, nor how long it would take to deliver defense assets.
    Most notably, we did not conduct training exercises for 
catastrophic disasters in which DOD assets were fully deployed.
    Accordingly, Military, Federal, State, and local responders were 
determining what defense assets could be supplied and who would supply 
them while response efforts were underway.
    For example, in Mississippi, Governor Barbour initially called up 
about 1,000 National Guard troops, and put an additional 600 on stand-
by--which was consistent with the State's response to Hurricane Camille 
but did not account for the population increase.
    The military deserves credit for its response to Hurricane 
Katrina--50,000 National Guard Troops and 20,000 Federal troops were 
ultimately deployed, which undoubtedly saved lives.
    That said, the response would have been more effective had 
appropriate plans been in place before the Hurricane.
    Nearly 3 years ago, Hurricane Sandy pummeled the northeast, and it 
was the first time many of the post-Katrina reforms were utilized.
    Although efforts to bolster and clarify the role of the dual-status 
commander after Hurricane Katrina did appear to improve coordination 
between National Guard troops and Federal forces during Hurricane Sandy 
relief efforts, many involved in the response did not fully understand 
the chain-of-command.
    Additionally, Hurricane Sandy revealed challenges presented by 
multi-State disasters, in which more than one dual-status commander is 
appointed but no coordinating process exists.
    I will be interested in learning what training is underway to help 
those in the chain-of-command better understand the role of the dual-
status commander and how DOD and FEMA are working together to improve 
response capabilities for multi-State disasters.
    I will also be interested in learning how FEMA is working with DOD 
to identify capability needs and develop pre-scripted mission 
assignments at the regional level to ensure that defense assets can be 
deployed in a timely manner.
    Finally, I will be interested to understanding how defense 
resources have supported the response to the horrific flooding in Texas 
and Oklahoma.
    I look forward to the witness' testimony, and I yield back the 
balance of my time.

    Ms. McSally. We are pleased to have two panels of very 
distinguished witnesses before us today on this important 
topic. I will now introduce our first panel.
    Mr. Robert Fenton currently serves as the deputy associate 
administrator of the Federal Emergency Management Agency's 
Office of Response and Recovery. He previously served as the 
assistant administrator for response and was responsible for 
coordinating the Federal response in support of States during 
major disasters.
    Since joining FEMA in 1996, Mr. Fenton has held a number of 
positions at both headquarters and in Region IX. I understand 
Mr. Fenton will be soon departing headquarters to assume the 
role of regional administrator for Region IX. My home State is 
in Region IX, and I look forward to working with you in this 
capacity.
    Mr. Robert Salesses serves as the deputy assistant 
secretary of defense for homeland defense integration and 
defense support of civil authorities. Okay, these are long 
titles here. Mr. Salesses previously served as the deputy 
special assistant for the Homeland Security Task Force, a 
position he assumed shortly after the September 11 terrorist 
attacks. Mr. Salesses is a retired United States Marine Corps 
officer.
    Brigadier General Joseph Whitlock is the deputy director 
for political-military affairs, western hemisphere, strategic 
plans and policy directorate, at the Joint Chiefs of Staff. In 
this capacity his portfolio includes issues associated with 
homeland defense and defense support to civil authorities.
    Mr. Joseph Kirschbaum is the director in the defense 
capabilities and management team of the Government 
Accountability Office, the GAO. In this capacity he oversees 
evaluation of the Department of Defense programs in the 
homeland defense and emerging threats and capabilities 
portfolio. In 2013, Mr. Kirschbaum served as acting director in 
GAO's Homeland Security and Justice Team, overseeing 
evaluations of Federal emergency preparedness and homeland 
security programs.
    The witnesses' full written statements will appear in the 
record. The Chair now recognizes Mr. Fenton for 5 minutes.

     STATEMENT OF ROBERT J. FENTON, JR., DEPUTY ASSOCIATE 
    ADMINISTRATOR, OFFICE OF RESPONSE AND RECOVERY, FEDERAL 
   EMERGENCY MANAGEMENT AGENCY, U.S. DEPARTMENT OF HOMELAND 
                            SECURITY

    Mr. Fenton. Chairman McSally, Ranking Member Payne, and 
Members of this distinguished subcommittee, I am Robert Fenton, 
deputy associate administrator of the Office of Response and 
Recovery for FEMA. It is my pleasure to be here today to 
discuss how the Department of Defense and FEMA coordinate to 
ensure efficient, effective, and well-orchestrated response and 
recovery activities in support of States and local governments 
in response to all hazards.
    In my testimony I will highlight four areas today. First, 
integration, personnel, and collaboration. A clear example of 
the collaboration is with regard to the exchange of subject-
matter expertise between FEMA and the Department of Defense. We 
have liaison officers in FEMA from OSD Policy, Joint Staff, and 
NORTHCOM, and in each of our 10 regions we have defense 
coordinating officers assigned there. FEMA has embedded also 
FEMA officials who serve in NORTHCOM as the Deputy Plans and 
Integration for the J-5.
    The defense coordinating officer is a key position who are 
members in disasters of the Unified Coordination Group to 
ensure unity of effort in helping provide support to State and 
local governments. They participate in developing Federal-State 
plans and maintain well-established relationships with DOD 
installations of the National Guard through the region.
    Additionally, DOD has provided individuals to support our 
National IMATs. Then lastly, the employment of the dual-status 
commander during large-scale incidents improves unity of effort 
by establishing standardized procedures for the command and 
integration of State and Federal military forces for the 
contingency operations of no-notice operations.
    The second area is catastrophic preparedness and planning. 
Since the implementation of Presidential Policy Directive 8, 
FEMA has facilitated the development of the National Planning 
System and a National response Federal interagency operational 
plan for all 10 regions, as well as specific annexes for unique 
catastrophic hazards based on National and regional threat 
assessments. DOD engages as a member of the core planning team 
for every National and regional planning initiative.
    Additionally, NORTHCOM is in the process of developing 
incident-specific playbooks to execute defense roles and 
fulfill supporting capability requirements identified in the 
FEMA regional plans. NORTHCOM playbooks have already been 
developed based on FEMA plans for a southern California 
earthquake, Cascadia Subduction Zone earthquake, Alaska 
earthquake. Playbooks are in the process of being developed for 
the nuclear effort, improvised nuclear device events, in the 
Atlantic hurricane and New Madrid Seismic Zone events.
    Lastly, the National Guard is key as they assist in 
planning at the State and multi-State level and also help 
connect whole community integration, civilian and military 
emergency management concepts.
    The third area I would like to talk about is the progress 
we have made in mission assignments. Following the Post-Katrina 
Reform Act, FEMA was directed to develop prescripted mission 
assignments for all Federal departments and agencies. With 
regard to Department of Defense, we developed 28 prescripted 
mission assignments for DOD, specifically, 48 for the U.S. Army 
Corps of Engineers, and 6 for the National Geospatial 
Intelligence Agency. These allow us to further expedite the 
response.
    In addition, FEMA has recently placed the whole prescripted 
mission assignment library in our Crisis Management System, 
WebEOC, which allows Federal agencies, State, local, Tribal 
agencies to access those mission assignments during events.
    We further tested a new concept by bundling those mission 
assignments in response to a catastrophic event. What we were 
able to do is, previously it would take us about an hour to 
process a mission assignment, by bundling together in nine big 
bundles based on the plans developed for southern California, 
we were able to process about 70 prescripted mission 
assignments in 2 hours, which allows us to expedite the process 
for providing resources to State and local governments for 
life-saving measures.
    The fourth area I would like to talk about is exercise 
activities and testing capabilities. The National Exercise 
Program is the principal exercise mechanism for National 
preparedness and measuring readiness. FEMA and DOD have 
collaborated and participated in various activities, most 
recently a southern California exercise in 2015. FEMA and DOD 
have begun to synchronize these exercise schedules and aligning 
those with FEMA and NORTHCOM operational planning. FEMA and DOD 
also are joint participants in the National Exercise Capstone 
Program that allows us to better test our capabilities.
    In conclusion, as I present my testimony today we are 
collaborating, integrating, and sharing resources and 
capabilities with DOD via embedded liaisons, comprehensive 
planning, flexible mission assignment procedures, and 
overarching exercise activities. Ultimately, FEMA and DOD 
continue to take all necessary actions to maximize the utility 
and effectiveness of DSCA.
    Thank you for the opportunity to testify today. I look 
forward to and am prepared to respond to any questions you 
have.
    [The prepared statement of Mr. Fenton follows:]
              Prepared Statement of Robert J. Fenton, Jr.
                             June 10, 2015
                              introduction
    Chairman McSally, Ranking Member Payne, and Members of this 
distinguished subcommittee, I am Robert J. Fenton, deputy associate 
administrator for the Office of Response and Recovery of the Department 
of Homeland Security's (DHS) Federal Emergency Management Agency 
(FEMA). I am grateful for the opportunity to be here today.
    In this testimony, I will discuss how the Department of Defense 
(DOD) supports FEMA under Defense Support of Civil Authorities (DSCA). 
FEMA and DOD work closely together to ensure that our efforts are well-
orchestrated and that DOD capabilities are available to support States 
and Tribes as they respond to and recover from disasters. DOD is always 
in support of a lead Federal agency in providing DSCA.
        collaboration between fema and the department of defense
    Past incidents highlighted specific limitations under Federal law 
and Federal response doctrine that resulted in the slow application of 
resources during initial phases of disaster response. Over the last 
decade, FEMA has made significant strides to mitigate these limitations 
and enhance operational preparedness for future catastrophic events. 
DOD policies, processes, and procedures have evolved to incorporate 
these changes.
    By leveraging the authorities of the Post-Katrina Emergency 
Management Reform Act of 2006 (PKEMRA) and the mandates set forth in 
Presidential Policy Directive (PPD) 8 on National Preparedness, FEMA 
improved planning and coordination among State, local, Tribal, and 
Federal stakeholders to include the DOD. Moreover, both FEMA and DOD 
have been heavily involved in the exchange of subject-matter expertise 
through the use of liaison officers (LNOs) and through DOD's Defense 
Coordinating Officer (DCO) program that maintains a presence in each of 
the ten FEMA regions.
    In order to compress DOD response time lines and expedite the 
mission assignment request and approval process, FEMA and DOD developed 
28 Pre-Scripted Mission Assignments (PSMAs) that remain working drafts 
based on lessons learned from previous disasters. Although not pre-
approved, PSMAs facilitate a more rapid response by standardizing the 
process of developing Mission Assignments. They specify what type of 
assistance is required (personnel and equipment), identify a statement 
of work, and provide projected costs.
    Through PKEMRA, these mission assignments can be authorized in 
advance of known events such as hurricanes.
                  fema mission assignment authorities
Stafford Act
    The Stafford Act constitutes the statutory authority for most 
Federal disaster response activities, especially as they pertain to 
FEMA programs in support of State and Tribal governments. It vests 
responsibility for emergency preparedness jointly in the Federal 
Government, State, Tribal, and territorial governments and their 
political subdivisions. It also gives FEMA responsibility for 
coordinating Federal Government response to support State, local, 
Tribal, and territorial efforts.
Post-Katrina Emergency Management Reform Act of 2006
    PKEMRA gives FEMA the authority needed to lean forward and leverage 
the entire emergency management team in response and recovery efforts. 
This team includes not only Government, but also private, non-profit, 
and citizen partners to successfully prevent, protect against, respond 
to, recover from, and mitigate all hazards.
    PKEMRA also requires that each Federal agency with responsibilities 
under the National Response Framework (NRF) develop operational plans 
to ensure a coordinated Federal response.
Presidential Policy Directive 8: National Preparedness
    After the policy changes ushered in following PKEMRA, PPD-8 was 
released with the goal of strengthening the security and resilience of 
the United States through systematic preparation for the threats that 
pose the greatest risk to the security of the Nation.
    PPD-8 defines five mission areas, including: Prevention, 
protection, mitigation, response, and recovery. It mandates the 
development of policy and planning documents to guide the Nation's 
approach for ensuring and enhancing National preparedness.
National Preparedness Goal
    While PPD-8 describes the Nation's approach to preparing for 
threats and hazards that pose the greatest risk to the security of the 
United States, the National Preparedness Goal defines success by 
increased security and resilience through the use of core capabilities.
    The National Planning Frameworks, which are part of the National 
Preparedness System, set the strategy and doctrine for building, 
sustaining, and delivering the core capabilities identified in the 
National Preparedness Goal.
National Response Framework
    The NRF is a guide to how the Nation responds to all types of 
disasters and emergencies. It is built on scalable, flexible, and 
adaptable concepts identified in the National Incident Management 
System (NIMS) to align key roles and responsibilities across the 
Nation.
    This Framework describes specific authorities and best practices 
for managing incidents that range from the serious, but purely local to 
large-scale terrorist attacks or catastrophic natural disasters. The 
NRF describes the principles, roles and responsibilities, and 
coordinating structures for delivering the core capabilities required 
to respond to an incident and further describes how response efforts 
integrate with those of the other mission areas.
    The objectives of the response mission area define the capabilities 
necessary to save lives, protect property and the environment, meet 
basic human needs, stabilize the incident, restore basic services and 
community functionality, and establish a safe and secure environment 
moving toward recovery.
    Under the NRF, Emergency Support Function (ESF) Annexes describe 
the Federal coordinating structures that group resources and 
capabilities into functional areas that are most frequently needed in a 
National response. The Federal Government organizes response resources 
and capabilities under the ESF construct. ESFs have proven to be an 
effective way to manage resources to deliver core capabilities. The 
Federal ESFs bring together the capabilities of Federal departments and 
agencies and other National-level assets. ESFs are not based on the 
capabilities of a single department or agency, and the functions for 
which they are responsible cannot be accomplished by any single 
department or agency. Instead, Federal ESFs are groups of organizations 
that work together to deliver core capabilities and support an 
effective response.
    DOD, through the U.S. Army Corps of Engineers (USACE) is a lead and 
coordinating agency for ESF No. 3--Public Works and Engineering and is 
a support agency for every ESF. The ESFs are vital structures for 
responding to Stafford Act incidents; however, they may also be used 
for other incidents.
Response Federal Interagency Operational Plan
    In addition to the National Planning Frameworks, FEMA completed the 
Federal Interagency Operational Plans (FIOPs) as part of the National 
Planning System. This includes one for each mission area to provide 
further detail regarding roles and responsibilities, specify the 
critical tasks, and identify resourcing and sourcing requirements for 
delivering core capabilities.
    The Response FIOP builds upon the NRF, which sets the strategy and 
doctrine for how the whole community builds, sustains, and delivers the 
response core capabilities identified in the National Preparedness 
Goal.
    This plan describes how the Federal Government delivers core 
capabilities for the response mission area. Specifically, the response 
FIOP is an all-hazards plan that describes how the Federal Government, 
pursuant to the Stafford Act, supports State, local, Tribal, 
territorial, and insular area efforts to save lives, protect property 
and the environment, and meet basic human needs following an emergency 
or disaster.
                  defense support of civil authorities
    Like any lead or supporting agency under the NRF/ESF construct, the 
DOD is mission assigned when their assets or capabilities would best 
meet FEMA requirements in support of State-requested assistance. This 
process pertains to DSCA as it is defined by DOD Directive 3025.18 as 
``Support provided by U.S. Federal military forces, DOD civilians, DOD 
contract personnel, DOD Component assets, and National Guard forces 
(when the Secretary of Defense, in coordination with the Governors of 
the affected States, elects and requests to use those forces in Title 
32, U.S.C., status) in response to requests for assistance from civil 
authorities for domestic emergencies, law enforcement support, and 
other domestic activities, or from qualifying entities for special 
events. Also known as civil support.''
Process
    The Defense Coordination Element (DCE) is an integral part of a 
region's all-hazards preparedness and response. The DCE participates in 
the development of regional plans, familiarizes regional staff with 
DSCA capabilities and maintains well-established relationships with DOD 
installations and National Guard leadership throughout the region. 
These relationships are critical since they allow the region to rapidly 
identify potential facilities to serve as Federal Staging Areas or 
Incident Support Bases.
    During disasters, the response process begins when the President 
issues either an Emergency Declaration or a Major Disaster Declaration 
under the Stafford Act. After a declaration, the DCO and the DCE are 
activated in response to a FEMA Mission Assignment (MA), which are used 
by FEMA to request assistance from the DOD, to task other Federal 
agencies, and to provide reimbursement for direct assistance during 
emergencies and disaster.
    The DCO is a member of the Unified Coordination Group and works 
alongside the State/Tribal and Federal Coordinating Officer (FCO), 
State and regional partners, including ESFs, to identify capability 
gaps and either known or anticipated DOD requirements. FEMA Mission 
Assignments are generated by the FCO at the FEMA Joint Field Office. 
Those Mission Assignments requesting DOD assistance are validated by 
the DCO and then sent by the FCO through FEMA to the Secretary of 
Defense. PSMAs for the most commonly-requested assistance from DOD are 
available to significantly reduce processing delays.
    This process ensures that resources are coordinated and arrive at 
the disaster site as quickly and efficiently as possible.
              hurricane sandy successes and lesson learned
    FEMA deployed significant numbers of personnel, both before and 
after Hurricane Sandy made landfall, to support response and recovery 
efforts. At the peak of response and initial recovery efforts, more 
than 17,000 Federal personnel--including more than 7,500 FEMA staff--
were deployed. In addition, States deployed over 11,000 National Guard 
personnel in the impacted areas.
    FEMA successfully used its mission assignment authority to provide 
coordinated, efficient response to survivors after the storm, issuing 
over $6.3 million in mission assignments to Federal partners the day 
Hurricane Sandy made landfall, directing them to provide assets and 
services to support State, local, and Tribal efforts. Federal assets 
and services included communications system restoration, debris 
removal, aerial imaging and surveillance, as well as health and medical 
care.
    Despite these successes, the significant response to Sandy also 
revealed notable challenges in how FEMA coordinates with its Federal 
partners, supports State, local, and Tribal officials and disaster 
survivors, integrates with the whole community, and prepares and 
deploys its workforce. FEMA's Sandy After-Action Report identified 
issuing timely mission assignments as an area for improvement.
    Specific to DOD mission assignments, FEMA continues to work with 
DOD to develop PSMAs which enable FEMA to expedite resources to the 
affected communities during a disaster. These mission assignments were 
directed by law in PKEMRA and while they are not pre-approved, they 
instead provide a basis for language that is agreed to prior to an 
incident--promoting common understanding and reducing processing time.
    FEMA currently has a total of 251 approved PSMAs for 31 departments 
and agencies. FEMA has a close partnership with the DOD as evidenced by 
the 28 PSMAs for DOD support, along with an additional 48 for the U.S. 
Army Corps of Engineers, and 6 for the National Geospatial Intelligence 
Agency. The PSMA catalogue will be continually updated based on 
experiences and lessons learned from disasters and simulation 
exercises.
    FEMA recently revamped its PSMA review process and transferred the 
PSMA process to FEMA's WebEOC Crisis Management System to make tracking 
draft PSMAs, and accessing approved PSMAs, more visible to departments 
and agencies and to streamline their coordination within FEMA. A PSMA 
Technical Review Team was also created, made up of representatives from 
FEMA headquarters and the regions, to conduct a comprehensive review of 
each draft PSMA, ensuring eligibility, clarity, completeness, proper 
format, legality, and cost efficiency. In addition, FEMA developed a 
new comprehensive Mission Assignment Guide to help clarify the mission 
assignment process, effectively managing the time required for issuing, 
executing, and financially closing out mission assignments.
       enhanced partnerships, integrated planning, and exercises
    DOD and FEMA enjoy a very close relationship in deliberate planning 
and exercising for catastrophic incidents.
Doctrine, Guidance, and Plans Guide Integration at the State, Regional, 
        and National Level
    A new ``All-Hazards'' planning construct is in place to execute 
PPD-8 and ensure that all ten FEMA regions are synchronized and using a 
single all-hazards FIOP. FEMA also develops incident-specific annexes 
to plan for unique situations or requirements that would not otherwise 
be addressed in the all-hazard plan. A single 5-year planning schedule 
enables FEMA to synchronize its planning efforts with other departments 
and agencies, including DOD, to ensure planning addresses regional 
Threat and Hazard Identification and Risk Assessments (THIRAs), as well 
as the Strategic National Risk Assessment.
    We are proud of substantial improvements in the integration of 
planning assumptions, concepts of operations, and support requirements 
with the DOD represented in intergovernmental planning for catastrophic 
incidents.
    Through the leadership of the Office of the Assistant Secretary of 
Defense for Homeland Defense and Global Security, NORTHCOM, the Joint 
Staff, National Guard Bureau, and other organizations, the NORTHCOM 
CONPLAN 3500, DSCA Response plan has been developed, which represents 
NORTHCOM's plan for executing its supporting roles and responsibilities 
set forth by the NRF and the FIOP-Response.
    Similarly, NORTHCOM is beginning to develop incident-specific 
playbooks to execute DOD roles and responsibilities identified in 
Regional All-Hazard Plans and their incident-specific annexes. National 
Guard planning at the State and multi-State level help to close the 
loop on whole community integration of civilian and military emergency 
management concepts.
    To illustrate our success in integration, new NORTHCOM Playbooks 
are under development now to specifically support the tasks and 
requirements set forth in the FEMA Region IX Southern California 
Earthquake Plan and the FEMA Region X Alaska and Cascadia Subduction 
Zone Annexes. The NORTHCOM Playbooks will function as annexes to the 
NORTHCOM CONPLAN 3500 (DSCA Response).
Embedded Partners
    To maintain momentum with the planning integration, FEMA and 
NORTHCOM are in the process of embedding officials to serve in each 
other's Plans Divisions. A FEMA official was detailed to NORTHCOM last 
summer and currently serves as a deputy plans chief to support the 
development of NORTHCOM playbooks.
    DOD also supplies a number of personnel within FEMA headquarters 
and its regional offices to coordinate and synchronize its operations. 
Liaison officers from Office of the Under Secretary of Defense for 
Policy, the Joint Staff, and NORTHCOM permanently reside within the 
FEMA Response Directorate to coordinate and ensure situational 
awareness on a broad array of program efforts. These liaisons also 
serve in positions in the National Response Coordination Center (NRCC) 
to coordinate operational support missions to the States and survivors 
during disasters. NORTHCOM also supplies permanent DCOs in each FEMA 
region and an operational planner within the FEMA Headquarters Response 
Directorate Planning Division. These personnel are engaged as part of 
the core planning team for each regional and National planning 
initiative. Routine coordination meetings, a NORTHCOM National Planning 
Integration Team, and other forums provide opportunities for our 
organizations to raise awareness of new and on-going planning 
initiatives, to solicit formal feedback on planning products and to 
synchronize our collective planning efforts.
    Additionally, FEMA is looking to enhance the capabilities of its 
Incident Management Assistance Teams (IMATs) by including some of our 
key interagency partners as members of the IMATs. This will enable the 
IMATs to more quickly establish an effective unified response with our 
State and local partners. DOD has provided two full-time personnel to 
two of the National IMATs, (an Noncommissioned Officer and an Officer 
in the rank of Colonel). Their primary role will be as planners working 
closely to ensure that all DOD resources are properly integrated in the 
response and recovery efforts in support of the State objectives. When 
not engaged in a response, these individuals will also be engaged with 
FEMA's on-going deliberative planning efforts. This will further 
enhance our abilities to fully understand the full capabilities of DOD 
in support of response operations.
Exercising: National Exercise Program Capstone Event
    FEMA doctrine reflects that the planning process is not complete 
until after it has been validated through an actual event or exercise. 
Exercises are also the means to test Federal department and agency 
policies, procedures, and capabilities. For instance, the National 
Exercise Program Capstone 14 exercise that was held March 27 through 
April 3 tested capabilities of the broad homeland security enterprise, 
as well as the specific capabilities of FEMA and DOD. Key DOD 
components participated in the event which served to validate and 
improve upon the recent joint planning efforts conducted by FEMA, the 
State of Alaska, DOD components, and other departments and agencies.
Senior Leader Engagement
    FEMA engages senior leaders throughout the military community 
through:
  <bullet> Quarterly senior leader video teleconferences, which include 
        participation from the deputy commander of NORTHCOM and FEMA's 
        associate administrator for the Office of Response and Recovery
  <bullet> Quarterly dual-status commander courses
  <bullet> Monthly ESF Leadership Group
  <bullet> Periodic senior executive DSCA course, which features FEMA 
        instruction
  <bullet> Participation in Capstone, which is a DOD General Officer 
        senior leader development course.
                               conclusion
    FEMA's mission is to support our citizens and first responders to 
ensure that as a Nation we work together to build, sustain, and improve 
our capability to prepare for, protect against, respond to, recover 
from, and mitigate all hazards. FEMA coordinates with other departments 
and agencies, such as the DOD, which enables FEMA to better serve the 
Nation. This supports FEMA's broad strategic goals as an agency, 
including its strategic priority of posturing and building capability 
for catastrophic disasters. DOD is a key partner for FEMA and through 
liaisons, senior leadership engagement, and planning efforts, this 
relationship is strengthening.
    Thank you for the opportunity to discuss this important authority.

    Ms. McSally. Thank you, Mr. Fenton.
    The Chair now recognizes Mr. Salesses for a 5-minute 
opening statement.

 STATEMENT OF ROBERT G. SALESSES, DEPUTY ASSISTANT SECRETARY, 
   HOMELAND DEFENSE INTEGRATION AND DEFENSE SUPPORT OF CIVIL 
            AUTHORITIES, U.S. DEPARTMENT OF DEFENSE

    Mr. Salesses. Chairwoman McSally, Congresswoman Watson 
Coleman, distinguished Members of the subcommittee, thank you 
for the opportunity to address you today on the Department of 
Defense's defense support to civil authorities mission, 
affectionately known as DSCA.
    I want to emphasize four key points today. DOD plays a 
supporting and important role in the National response system. 
DOD relies on a broad range of defense capabilities to provide 
that support. DOD has made significant improvements to our 
preparedness to support civil authorities. Last, DOD is better 
prepared to support civil authorities at this time than any 
other time in history.
    A fundamental tenet of the National response system is that 
DOD is always in support of domestic civil authorities. DOD 
understands this and is well prepared to assist our Federal 
partners in sustaining and saving lives in the aftermath of 
man-made or natural disasters.
    DOD supports FEMA as the primary Federal agency and is 
prepared to support each of the 14 emergency support functions, 
the ESFs. Working closely with our ESF partners, DOD has 
identified critical capabilities to assist them.
    DOD has made significant investments in equipping and 
readiness of the National Guard. The National Guard is a 
critical State-level resource, providing needed capabilities to 
State Governors quickly in response to disasters and 
emergencies. In addition, through pooling of National Guard 
resources under emergency management assistance compacts, State 
Governors may draw upon additional National Guard capabilities 
from other States.
    DOD supports disaster response with a broad range of 
defense capabilities, much more than just our military. DOD's 
approach to the DSCA mission starts at the installation level. 
DOD encourages installations to enter into mutual aid 
agreements providing reciprocal capabilities between the local 
community and the military installations. Under immediate 
response authority, installation commanders may make the 
resources under their control immediately available to save and 
sustain life in the local community.
    When providing assistance, DOD leverages the total military 
force, Active, Reserve, and National Guard. DOD also relies on 
its defense agencies, the U.S. Army Corps of Engineers, the 
Defense Logistics Agency, and the National Geospatial Agency. 
USTRANSCOM's strategic air, maritime, and intermodal lift 
capabilities enable DOD to provide responsive transportation 
capabilities to our Federal partners.
    The third point, DOD has made significant improvements in 
its preparedness. DOD has a strong, direct, day-to-day 
relationship with the Department of Homeland Security, FEMA, 
and all of our ESF partners. That relationship is enabled from 
full-time DOD advisers at the DHS headquarters, DOD liaisons at 
the FEMA headquarters, and coordinating offices at each of the 
10 FEMA regions.
    DOD works closely with FEMA to integrate planning efforts 
at both the State, regional, and Federal levels. DOD and FEMA 
have developed many prescripted mission assignments and are 
continually improving upon those to expedite the request for 
assistance process. DOD's standing defense support to civil 
authorities, EXORD, identifies critical capabilities that are 
postured military forces to respond rapidly in support of our 
Federal partners.
    DOD has also developed a wide range of chemical, 
biological, radiological, and nuclear--CBRN--response 
capabilities and has trained a force of 18,000 personnel 
postured to respond rapidly in support of civil authorities in 
the aftermath of a CBRN event.
    DOD supports the FEMA-led National Exercise Program, and 
DOD also hosts numerous exercises at the Federal, State, and 
local partner level, most recently out in Colorado Springs, 
Ardent Sentry, which is a major West Coast earthquake scenario, 
working very closely with the State of California and Arizona. 
DOD has leveraged the dual-status commander concept to improve 
the unity of effort between State National Guard and military 
forces.
    As a result of these advances and others, DOD is well 
prepared to maximize its capabilities and forces to act quickly 
to save and sustain lives in the aftermath of catastrophic 
disasters.
    Thank you for the opportunity to appear. I appreciate your 
leadership, Chairwoman McSally and distinguished Members of the 
committee, and I appreciate your support of the Department of 
Defense. I look forward to your questions.
    [The joint prepared statement of Mr. Salesses and General 
Whitlock follows:]
 Joint Prepared Statement of Robert G. Salesses and Joseph E. Whitlock
                             June 10, 2015
    Chairwoman McSally, Ranking Member Payne, distinguished Members of 
the subcommittee: Thank you for the opportunity to address you today on 
the Department of Defense's (DOD's) role in responding to man-made and 
natural disasters in the United States.
    We would like to emphasize four key points for you today: (1) DOD 
plays a supporting but important role in the National response system; 
(2) DOD relies on a broad range of defense capabilities to provide 
support; (3) DOD has made significant improvements in its preparedness 
to support civil authorities; and (4) DOD is now better prepared to 
support civil authorities than at any other time in our Nation's 
history.
               dod's role in the national response system
    DOD is prepared to assist civil authorities in saving and 
sustaining lives after man-made and natural disasters, including 
extreme weather events, pandemics, and industrial accidents. DOD 
understands this and is well-prepared to meet this expectation.
    As stated in the National Defense Strategy, while defending the 
homeland, the Department must also maintain the capacity to support 
civil authorities in times of National emergency such as in the wake of 
catastrophic man-made and natural disasters.\1\ DOD refers to this 
support as ``Defense Support of Civil Authorities'' (or ``DSCA''): 
Support provided by U.S. Federal military forces, DOD civilians, DOD 
contract personnel, and DOD component assets in response to requests 
for assistance from civil authorities for domestic emergencies, law 
enforcement support, and other domestic activities, or from qualifying 
entities for special events.
---------------------------------------------------------------------------
    \1\ Department of Defense, National Defense Strategy, June 2008, 
page 7.
---------------------------------------------------------------------------
    DOD plays a supporting but important role in the National response 
system. As provided in the National Response Framework, the National 
response system and its protocols provide tiered levels of support when 
additional resources or capabilities are needed. Most incidents begin 
and end locally and are managed at the local level. Some may require 
additional support from neighboring jurisdictions or State governments.
    The Federal Government and many State governments organize their 
response resources and capabilities under the Emergency Support 
Function (ESF) construct. The 14 Federal ESFs bring together the 
capabilities of Federal departments and agencies and other National-
level assets to perform such functions as transportation, public works 
and engineering, mass care and temporary housing, logistics, public 
health and medical services, and search and rescue. DOD is available to 
support all 14 Federal ESFs when requested.
    A fundamental tenet of the National response system is that DOD is 
always in support of domestic civil authorities. It is also important 
to note that the chain of command always runs from the President to the 
Secretary of Defense to the combatant commander concerned. DOD fully 
supports the Incident Command System of the National Incident 
Management System. However, at no time does the supported agency 
exercise any formal command and control over DOD forces.
    In this National response system, the National Guard serves as a 
critical State resource in disaster responses and can provide much-
needed capabilities to State Governors very quickly. The majority of 
National Guard support in disaster responses is performed at the 
direction of a State Governor and in a State Active-Duty status as a 
State militia.
    Normally, DOD provides DSCA in support of the Federal Emergency 
Management Agency (FEMA) or another lead Federal agency, when directed 
by the President or when the Secretary of Defense has approved a 
request for assistance pursuant to the Stafford Act \2\ or the Economy 
Act.\3\ This arrangement helps DOD ensure that its resources are used--
lawfully--to satisfy prioritized Federal Government requirements as 
outlined by the President and the lead Federal agency. This arrangement 
is absolutely critical when DOD is supporting a Federal multi-State 
response so that lead Federal agency requirements are appropriately 
prioritized and personnel and resources are deployed/employed in the 
affected region effectively.
---------------------------------------------------------------------------
    \2\ The Robert T. Stafford Disaster Relief and Emergency Assistance 
Act (Public Law 93-288), as amended.
    \3\ 31 U.S.C.  1535.
---------------------------------------------------------------------------
    There are, however, exceptions, including support provided under 
the immediate response authority or pursuant to a mutual and automatic 
aid agreement, as well as DOD organizations with independent 
authorities.
    Immediate Response Authority.--Under immediate response authority, 
Federal military commanders, heads of DOD components, and responsible 
DOD civilian officials may, in response to a request for assistance 
from a civil authority, under imminently serious conditions and if time 
does not permit approval from higher authority, may provide an 
immediate response by temporarily employing the resources under their 
control, subject to any supplemental direction provided by higher 
headquarters, to save lives, prevent human suffering, or mitigate great 
property damage within the United States. Support provided under the 
immediate response authority should be provided on a reimbursable 
basis, where appropriate or legally required, but will not be delayed 
or denied based on the inability or unwillingness of the requester to 
make a commitment to reimburse DOD.
    Mutual and Automatic Aid.\4\--Installation commanders may provide 
DSCA to local jurisdictions under mutual and automatic aid agreements 
(also known as reciprocal fire protection agreements), when requested. 
Support provided pursuant to a mutual and automatic aid agreement is 
not reimbursed with funding, but instead is reimbursed in-kind by 
reciprocal support.
---------------------------------------------------------------------------
    \4\ Sections 300hh-ll and 5121 et. seq. and Chapter 15A of Title 
42, U.S. Code.
---------------------------------------------------------------------------
    Organizations with Independent Authorities and Agreements.--Many 
DOD organizations possess independent authorities to provide DSCA. For 
example, the U.S. Army Corps of Engineers (USACE) has independent 
statutory authorities regarding emergency management, such as section 5 
of the Flood Control Act of 1941 (Public Law 84-99) (e.g., providing 
technical assistance; direct assistance such as providing sandbags, 
pumps, and other types of flood fight materials, emergency contracting; 
and emergency water assistance due to contaminated water source). Under 
the National Response Framework, USACE is assigned as the primary 
agency for Emergency Support Function No. 3--Public Works and 
Engineering. USACE assists FEMA by coordinating Federal public works 
and engineering-related support, as well as providing technical 
assistance, engineering expertise, and construction management to 
prevent, prepare for, respond to, and/or recover from domestic 
incidents. Likewise, the National Geospatial--Intelligence Agency 
(NGA), in accordance 50 U.S.C. 3045, is authorized to provide 
geospatial intelligence support to other Federal departments and 
agencies, including FEMA.
    Other DOD organizations have unique agreements for support. For 
instance, the Defense Logistics Agency (DLA) has an interagency 
agreement with FEMA to provide commodities including fuel to civil 
authorities responding to disasters.
  dod relies on a broad range of defense capabilities to provide dsca 
              (support to superstorm sandy as an example)
    DOD supports disaster response with a broad range of defense 
capabilities, including the Total Force (Active and Reserve Components, 
including the National Guard), DOD civilians, and the significant 
capabilities of the Defense Agencies.
    During the response to Superstorm Sandy in 2012, for example, USACE 
unwatered the longest tunnel in North America--the Brooklyn-Battery 
tunnel--and did the same for other vital tunnel and subway lines, at a 
scale and on a pace never before seen in a disaster. USACE also 
installed 198 generators in critical locations (e.g., hospitals, 
shelters, and other facilities at the Hoboken Ferry Terminal, Long 
Island, and Indiantown Gap, as well as first responder operating 
locations) and sent power experts and generators to support New York 
Public Housing. At peak capacity, USACE generated 55 megawatts of 
power, enough to support the power needs of 50,000 families.
    During the Superstorm Sandy response, DLA, under its interagency 
agreement with FEMA, provided 9.3 million gallons of fuel to over 300 
gas stations and emergency vehicle fueling depots, and, together with 
USACE and the U.S. Transportation Command, provided essential support 
for restoring the electric grid, the gasoline distribution system, and 
other critical infrastructure. DLA also used 500 trucks to distribute 
6.2 million meals, 92,000 Meals-Ready-to-Eat, 72,000 bottles of water, 
172,500 blankets, 4,000 cots, 18,734 mats, 6 portable X-ray machines, 
51 generators (with a 71,250-kilowatt capacity), and 107 unwatering 
pumps (providing a 1 million gallons per minute capacity).
    Prior to Sandy's landfall, NGA reviewed more than 21,000 square 
miles of satellite data to produce pre-strike hurricane products that 
included images of 24 coastal cities whose critical infrastructures and 
key resources would be susceptible to damage if a hurricane landed in 
their vicinity. NGA also deployed teams of analysts to support FEMA in 
Boston, New York City, and Philadelphia. After landfall, NGA worked 
closely with FEMA and the U.S. Coast Guard to provide mission-essential 
support by enabling access to and supplying analyzed images to improve 
situational awareness, including flooding and damage assessments, 
monitoring energy distribution centers, and evaluating airfields for 
possible evacuation and relief missions.
 dod has made significant improvements in its preparedness to provide 
                                  dsca
    DOD continually pursues improvements in its ability to provide DSCA 
when needed, and to work closely with its domestic agency partners.
    Strategic Guidance.--DOD's strategic guidance recognizes DSCA as a 
priority mission.\5\ One of the three pillars emphasized by the Defense 
Strategy is protecting the homeland--deterring and defeating attacks 
and supporting civil authorities in mitigating the effects of potential 
attacks and natural disasters.
---------------------------------------------------------------------------
    \5\ The 2012 Defense Strategic Guidance designated DSCA as a 
primary DOD mission. The Unified Command Plan assigned DSCA as a core 
mission of two geographic combatant commands: U.S. Northern Command 
(responsible for DSCA in the 48 contiguous States, Alaska, the District 
of Columbia, and the territories of Puerto Rico and the U.S. Virgin 
Islands) and U.S. Pacific Command (responsible for DSCA in Hawaii and 
the territory of Guam). The Defense Planning Guidance for Fiscal Years 
2017-2021 prioritizes the capabilities, capacities, and readiness of 
the Joint Force to perform the DSCA mission.
---------------------------------------------------------------------------
    Integrated Regional Planning.--Consistent with the Presidential 
Policy Directive 8 (PPD-8) on National Preparedness, FEMA initiated a 
deliberate planning process to ensure integrated regional plans are in 
place for each FEMA region. The purpose of these plans is to speed 
disaster responses by enabling quick decisions based on pre-determined 
plans. DOD has worked closely with FEMA to integrate planning efforts 
and identify both response requirements and coordination challenges 
during major disasters.
    Complex Catastrophe Initiative.--DOD has taken steps to improve its 
preparedness to help civilian authorities save and protect lives during 
a complex catastrophe. The Complex Catastrophe Initiative directed 
improvements in DSCA for regional planning and plans integration, force 
sourcing, training and exercises, and the role of military 
installations and Defense Agencies in emergency response operations.
    Pre-Scripted Mission Assignments.--DOD continues to work closely 
with FEMA to develop all-hazard, pre-scripted mission assignments 
(PSMAs). FEMA PSMAs translate civilian support requirements into 
military tasks to expedite the request for assistance process. Although 
more are in development, there are 28 all-hazards, PSMAs for DOD 
support, more than 30 PSMAs for USACE support, and 6 PSMAs for NGA 
support. These all-hazards PSMAs include:
  <bullet> Heavy and medium rotary-wing lift;
  <bullet> Tactical transportation;
  <bullet> Strategic transportation;
  <bullet> Communications support;
  <bullet> Emergency route clearance;
  <bullet> Damage assessment;
  <bullet> Mobilization centers and operational staging areas;
  <bullet> Airspace control;
  <bullet> Deployable temporary medical facilities; and
  <bullet> Rotary-wing medical evacuation.
    DSCA Execute Order.--DOD published a standing DSCA Execute Order 
(EXORD) that provided the commanders of U.S. Northern Command and U.S. 
Pacific Command--the two combatant commanders responsible for DSCA--
more delegated authority to provide critical life-saving and life-
sustaining capabilities faster, including:
  <bullet> Defense Coordinating Officers and Defense Coordinating 
        Elements;
  <bullet> DOD installations that could have been used for FEMA 
        mobilization centers;
  <bullet> Medium- and heavy-lift helicopters;
  <bullet> Search aircraft for disaster area reconnaissance;
  <bullet> Robust, deployable communications support packages;
  <bullet> Joint task forces to command and control Federal military 
        forces;
  <bullet> Combatant Commander Assessment Elements;
  <bullet> Aeromedical patient evacuation/transportation;
  <bullet> Forward Surgical Teams; and
  <bullet> The DLA Deployment Distribution Center.
    Access to the Total Force.--The Army Reserve, Navy Reserve, Marine 
Corps Reserve, and Air Force Reserve--more than 365,000 men and women 
living in thousands of communities across our Nation, who are ready on 
short notice to put on a uniform and serve when called--are an 
invaluable resource to our Nation.
    For example, the Army Reserve provides a significant portion of the 
Army's disaster response capabilities, including mortuary affairs (75 
percent), quartermaster (65 percent), medical (59 percent), 
transportation (44 percent), and engineer (31 percent) capabilities. In 
the National Defense Authorization Act for Fiscal Year 2012, Congress 
approved the administration's request to grant the Secretary of Defense 
the authority to order to active duty this invaluable resource to 
provide assistance in responses to major disasters and emergencies in 
the United States. To maximize the value of this authority to mitigate 
human suffering and save lives, DOD established policies to expedite 
the sourcing of these invaluable forces, including consideration of 
proximity to the region affected and time to employment.
    Chemical, Biological, Radiological, and Nuclear (CBRN) Response 
Enterprise.--DOD has developed a wide range of CBRN response 
capabilities, and has trained to employ these capabilities rapidly in 
support to civil authorities to help save lives in the aftermath of a 
CBRN incident.
    The CBRN Response Enterprise--almost 17,000 military personnel 
strong--currently consists of 57 National Guard Weapons of Mass 
Destruction Civil Support Teams (one in each State and territory and 
two in California, Florida, and New York), 17 National Guard CBRN 
Enhanced Response Force Packages (stationed in Alabama, Colorado, 
Florida, Hawaii, Illinois, Indiana, Kentucky, Louisiana, Maine, 
Minnesota, Nebraska, Nevada, Oregon, Puerto Rico, Virginia, West 
Virginia, and Wisconsin), 10 National Guard Homeland Response Forces 
(one stationed in each of the 10 FEMA regions), one Defense CBRN 
Response Force, and two Command-and-Control CBRN Response Elements.
    The CBRN Response Enterprise provides such critical capabilities as 
detection and assessment of CBRN hazards; casualty search and 
extraction; casualty decontamination; emergency medical, patient 
triage, trauma care, and surgical and intensive medical care; fatality 
recovery; ground and rotary-wing air patient movement; security; 
command and control; engineering; logistics; transportation; and 
aviation lift.
    DOD published a standing domestic CBRN Response EXORD that 
establishes a response posture system for the Federal components of the 
CBRN Response Enterprise, and provides the Commanders of U.S. Northern 
Command and U.S. Pacific Command with authorities to conduct Federal 
CBRN response operations in support of a lead Federal agency, such as 
FEMA.
    Defense Coordination and Liaison.--In addition to interagency 
planning and other initiatives, DOD has forged strong, direct, day-to-
day relations with the Department of Homeland Security (DHS) and FEMA, 
including full-time DOD advisers in DHS headquarters, Defense 
Coordinating Officers and Defense Coordinating Elements at each of the 
10 FEMA regional headquarters, and DOD liaisons at FEMA's deployed 
joint field offices.
    DOD also established a National Guard Joint Force Headquarters-
State in all 54 States, territories, and the District of Columbia. 
These Joint Force Headquarters provide expertise and situational 
awareness to DOD authorities to facilitate integration of Federal and 
State-level activities. They also develop plans to support civil 
authorities in response to man-made or natural disasters, and 
coordinate these plans, through the National Guard Bureau and the Joint 
Staff, with U.S. Northern Command and U.S. Pacific Command.
    Exercises.--Exercises are critical to ensuring readiness and 
identifying gaps and potential weaknesses within and across agencies in 
responding to man-made or natural disasters. DOD has fully supported 
the FEMA-led National Exercise Program. For years, DOD has also hosted 
numerous exercises involving Federal, State, and local partners, 
including annual DSCA exercises such as Ardent Sentry 2014 (Alaska 
earthquake) and Ardent Sentry 2015 (California earthquake). In April of 
this year, the Commander of U.S. Northern Command hosted a Senior 
Leader Seminar with Federal, State, and local partners. This seminar 
used a large-scale California earthquake with a cascading effects 
scenario as a framework to integrate key State, interagency, and DOD 
perspectives on how best U.S. Northern Command can provide support.
    Dual-Status Commanders.--In 2010, DOD and the States agreed to 
utilize dual-status commanders in disaster responses. Until 2010, dual-
status commanders had only been used in deliberately-planned special 
events.
    A dual-status commander is a military commander who may, in 
accordance with the law, serve in two statuses, State and Federal, 
simultaneously, while performing the duties of those statuses 
separately and distinctly. In State status, the dual-status commander 
is subject to the orders of the State Governor and Adjutant General, 
and, on their behalf, exercises command or control of State National 
Guard forces to execute State missions. In Federal status, the dual-
status commander is subject to the orders of the President, the 
Secretary of Defense, and the supported Combatant Commander, and, on 
their behalf, exercises command and control of Federal military forces 
for the purpose of executing DSCA missions. The appointment of a dual-
status commander does not grant the President (or other Federal 
officials) command of non-Federalized State National Guard forces or a 
State Governor (or other State officials) command of Federal military 
forces.
    The intended benefit of appointing a dual-status commander is to 
facilitate unity of effort within our National response system between 
State National Guard forces, operating on behalf of a State Governor, 
and Federal military forces, operating on behalf of the President, the 
Secretary of Defense, and the supported Combatant Commander in 
achieving common objectives in a disaster response or in securing a 
special event.
    To expedite appointment of dual-status commanders, DOD has 
established standing memorandums of agreement with 52 of the 53 States 
and territories.
                 dod is better-prepared to provide dsca
    As a result of these advances, DOD is better-prepared to defend the 
United States and assist civil authorities in the aftermath of a 
catastrophic incident than at any other time in our Nation's history.
    DOD is prepared, when directed by the President or the Secretary of 
Defense, to provide, as part of the Federal Government's support of 
State and local emergency assistance efforts, capabilities and 
resources to save lives, sustain lives, and protect property and public 
health and safety, including search and rescue, emergency medical care, 
emergency mass care, emergency shelter, and provision of food, water, 
and other essential needs, including movement of supplies or 
persons.\6\ DOD is well-prepared and has capabilities and forces 
postured to act, with a sense of urgency, when needed, to maximize the 
saving and sustaining of lives in the aftermath of a catastrophic 
disaster.
---------------------------------------------------------------------------
    \6\ 42 U.S.C.  5170a,  5170b,  5192.
---------------------------------------------------------------------------
    DOD maintains this high level of preparedness by continually 
investing in its preparedness, including through integrated planning, 
training, and exercises.
                               conclusion
    DOD plays a supporting, but important role in the National response 
system.
    DOD relies upon a broad range of defense capabilities to provide 
support. DOD has made significant advances in its ability to provide 
DSCA, when needed, by: (1) Recognizing DSCA as a priority mission in 
DOD's strategic guidance; (2) working closely with FEMA to support the 
deliberate planning process to develop integrated regional plans for 
each FEMA region; (3) enhancing DSCA for regional planning and plans 
integration, force sourcing, training, and exercises, and the roles of 
installations and Defense Agencies through the Complex Catastrophe 
Initiative; (4) expediting the request for assistance process by 
establishing FEMA PSMAs; (5) empowering Combatant Commanders to provide 
DSCA via a standing DSCA EXORD; (6) incorporating the extensive 
capabilities and outstanding personnel of the Army Reserve, Navy 
Reserve, Marine Corps Reserve, and Air Force Reserve; (7) fielding the 
best-funded, best-equipped, and best-trained CBRN response force in the 
world; (8) forging strong, direct, day-to-day relations with DHS and 
other partners; and (9) promoting unity of effort through such concepts 
as the use of dual-status commanders.
    As a result, DOD--Active, Reserve, National Guard, and civilians 
and contractors--is better prepared to defend the United States and 
assist civil authorities in the aftermath of a catastrophic incident 
than at any other time in our Nation's history. DOD's men and women--
both military and civilian--are well-prepared to act, with a sense of 
urgency, when needed.
    To continue to meet interagency preparedness requirements, DOD will 
work with its partners to: (1) Build and sustain partnerships; (2) 
establish well-developed networks for sharing information and setting 
joint priorities; (3) forge pre-arranged agreements; (4) continually 
improve on integrated planning; (5) train and exercise to execute 
integrated plans; and (6) rapidly integrate National efforts. As then-
Deputy Secretary Carter stated in DOD's 2013 after-action report for 
Superstorm Sandy, ``[t]his is a new frontier for the Department as 
counter-insurgency was . . . and we continue to learn and adapt.''
    Thank you for the opportunity to appear before you today. We 
appreciate your leadership, Chairwoman McSally, Ranking Member Payne, 
and distinguished Members of the subcommittee, and your support for the 
Department of Defense. We look forward to your questions.

    Ms. McSally. Thank you, Mr. Salesses. The Chair now 
recognizes Brigadier General Whitlock.

   STATEMENT OF JOSEPH E. WHITLOCK, DEPUTY DIRECTOR, WESTERN 
 HEMISPHERE, THE JOINT STAFF, J-5, STRATEGIC PLANS AND POLICY 
            DIRECTORATE, U.S. DEPARTMENT OF DEFENSE

    General Whitlock. Chairwoman McSally, Representative Watson 
Coleman, distinguished Members of the subcommittee, I am 
Brigadier General Joe Whitlock, the deputy director for western 
hemisphere of strategic plans and policy, what we call J-5, in 
the Joint Staff. Thanks for the opportunity to address you 
today on the role the Department of Defense plays in supporting 
civil authorities during disasters.
    In this testimony, we will discuss the progress DOD has 
made with regard to in-depth planning with the geographic 
combatant commands, that is U.S. Northern Command, U.S. Pacific 
Command, our two combatant commands responsible for DSCA.
    In 2013, the Department of Defense published a standing 
DSCA execute order, or EXORD, that provided commanders of 
NORTHCOM and PACOM more delegated authority to provide critical 
life-saving and life-sustaining capabilities faster, including 
defense coordinating officers and the defense coordinating 
elements they bring, aircraft for disaster area search and 
rescue, joint task forces to command and control Federal 
military forces, and aeromedical patient evacuation and 
transportation.
    DOD has also developed a wide range of chemical, 
biological, radiological, and nuclear--CBRN--response 
capabilities, and has trained to employ these capabilities 
rapidly to support civil authorities to help save lives in the 
aftermath of a CBRN incident.
    DOD has also published a standing domestic CBRN response 
execute order in 2011 that establishes a response posture 
system for the Federal components of the CBRN response 
enterprise and provides the commanders of NORTHCOM and PACOM 
with authorities to conduct Federal CBRN response operation in 
support of a lead Federal agency, such as FEMA.
    DOD has also worked closely with our interagency partners 
to exercise their support capabilities during disasters. 
Exercises are critical to ensuring readiness and identifying 
gaps and potential weaknesses within and across agencies in 
responding to man-made or natural disasters.
    DOD fully supports the FEMA-led National Exercise Program. 
For years DOD has also hosted numerous exercises involving 
Federal, State, and local partners, to include our annual DSCA 
exercise, such as Ardent Sentry 2014 that focused on a major 
Alaska earthquake and Ardent Sentry 2015 that focused on a 
southern California earthquake. And in April this year, as you 
heard the earlier witnesses, the commander of U.S. NORTHCOM 
also hosted a senior leader seminar with Federal, State, and 
local partners. Again, that helps us get better left with an 
incident.
    As the DOD objective is to ensure unity of the effort 
between Federal and State forces, the DOD and States have 
procedures in place to utilize the dual-status commander in 
disaster response if warranted. In 2010 dual-status commanders 
had only been used in delivery plan special events. We have 
used them in other cases since them. A dual-status commander is 
a military commander who may, in accordance with the law, serve 
in two statuses, State and Federal simultaneously, while 
performing the duties of those statuses separately and 
distinctly.
    The intended benefit of appointing a dual-status commander 
is to facilitate unity of effort within our National response 
system between the State National Guard forces operating on 
behalf the State Governor and Federal military forces operating 
on behalf of the President, the Secretary of Defense, and the 
supported combatant commander in achieving common objectives in 
a disaster response or in securing a special event.
    Chairwoman McSally, Representative Watson Coleman, and 
distinguished Members of the subcommittee, that you again for 
the opportunity to appear before you today. I look forward to 
taking your questions.
    Ms. McSally. Thank you, General Whitlock.
    The Chair now recognizes Dr. Kirschbaum.

  STATEMENT OF JOSEPH W. KIRSCHBAUM, PH.D., DIRECTOR, DEFENSE 
  CAPABILITIES AND MANAGEMENT, U.S. GOVERNMENT ACCOUNTABILITY 
                             OFFICE

    Mr. Kirschbaum. Chairman McSally, Mrs. Watson Coleman, and 
Members of the subcommittee, I am pleased to be here today to 
discuss the progress the Department of Defense has made 
addressing our recommendations in its defense support of civil 
authorities mission.
    The National response framework highlights the 
understanding that incidents, disasters, and other emergencies 
are managed at the lowest jurisdictional level and are then 
supported by additional response capabilities as needed. In a 
sense, direct support from the Department of Defense is meant 
as a last resort.
    However, the Department recognizes, as Mr. Salesses said, 
the Department is often expected to play a prominent role, and 
early on, in supporting civil authorities and must be prepared 
to provide rapid response when called upon. This in turn 
highlights the importance of vigilance in planning, 
coordinating, and assessing the ability of the Department to 
provide these capabilities.
    My statement is based on reports we have issued from March 
2010 through December 2014 and discusses the Department's 
progress in addressing our recommendations on strategy, plans, 
and guidance, interagency coordination, and sustaining 
capabilities to support civil authorities.
    Despite the rapidly-developing relationships between the 
Department of Defense and its domestic Federal and State 
partners in the years after 9/11 and Hurricane Katrina, we 
consistently found that key defense strategy, plans, and 
guidance were outdated and incomplete, did not reflect new 
common terms or such National guidance as the National response 
framework.
    We found during this time that the Department of Defense, 
and particularly the new U.S. Northern Command, were not 
consistently applying to domestic planning the same rigorous 
strategic operational and tactical planning the Department has 
been using for decades for more traditional military operations 
abroad. For example, we found gaps in guidance on command-and-
control structures for Federal military forces during complex 
catastrophes and for the aforementioned dual-status commander 
concept, which is intended to be a regular Army or Air Force or 
National Guard officer who would command both State and Federal 
military forces in a domestic setting.
    In response to our recommendations, the Department has made 
critical progress. In 2013, the Department issued an updated 
strategy for homeland defense and defense support of civil 
authorities and a critical revised joint doctrine publication. 
More recently, Northern Command and U.S. Pacific Command 
reported that they have updated their civil support concept 
plans to address command-and-control issues, and DOD is now 
currently updating an instruction on the dual-status commander 
concept. DOD also agreed to address gaps we found in guidance 
and plans for domestic cyber incidents, but has not yet fully 
addressed these recommendations.
    With respect to interagency coordination, we identified 
gaps in DOD's guidance related to who does what, translating 
for interagency partners DOD's terms and prophesies, and 
management of DOD's interagency liaisons. An example of the 
latter was that for a time early on DOD was not aware of how 
many of its personnel were assigned to DHS as liaisons or in 
some other capacity.
    To address our recommendations, the Department updated key 
guidance, issued an interagency partner guide, and signed a 
memorandum of understanding with DHS that includes key 
personnel management practices for interagency liaisons.
    With respect to sustaining capabilities to support civil 
authorities, DOD has taken steps to evaluate existing 
capabilities and identify gaps. One of the specific gaps we 
identified was in planning for complex catastrophes. In 2014, 
DOD reported that this planning had been completed and covered 
such areas as complex catastrophes, wildland firefighting, and 
chemical, biological, radiological, and nuclear responses.
    DOD continues to work on this and told us that future 
efforts will also include revised planning for pandemic 
influenza and infectious diseases and civil disturbance 
operations.
    In conclusion, DOD has made significant progress in 
improving strategy, plans, and guidance, interagency 
coordination, and capabilities needed to support civil 
authorities. Our work also shows that DOD recognizes that there 
remains room for improvement. The gaps we identified, as well 
the Department's efforts to close those gaps, are also a 
cautionary tale about the sustained effort required by DOD and 
its Federal and State partners to plan in advance and 
coordinate constantly and closely to ensure that DOD is 
positioned to support civil authorities in responding to the 
myriad threats we face.
    Looking ahead, we are beginning additional work in the area 
of defense support of civil authorities. These reviews will 
include DOD's cyber civil support, the status of the homeland 
response forces, DOD's preparedness for civil support in the 
event of a pandemic, and coordination with Federal agencies to 
counter improvised explosive devices in the United States.
    Chairman McSally, Mrs. Watson Coleman, Members of the 
subcommittee, thank you for the opportunity to testify before 
you today, and I am happy to answer your questions.
    [The prepared statement of Mr. Kirschbaum follows:]
               Prepared Statement of Joseph W. Kirschbaum
                             June 10, 2015
    Chairman McSally, Ranking Member Payne, and Members of the 
subcommittee: I am pleased to be here today to discuss progress and 
challenges in the Department of Defense's (DOD) efforts to serve the 
American people through its defense support of civil authorities (DSCA) 
mission.\1\ The United States continues to face an uncertain, complex 
security environment with the potential for major disasters and 
emergencies, such as Hurricane Sandy in 2012. The 2013 Strategy for 
Homeland Defense and Defense Support of Civil Authorities recognizes 
DOD is often expected to play a prominent role supporting civil 
authorities and must be prepared to provide rapid response when called 
upon.\2\ DOD must coordinate with a number of other agencies on its 
civil support mission, which include providing support during disasters 
and declared emergencies (both natural and man-made); providing support 
for restoring public health and services and civil order; providing 
support for National special security events; and periodic planned 
support. Examples of such DOD coordination with civil authorities 
include aiding the identification and interdiction of suspected 
transnational criminal organizations' activities conducted within and 
along the approaches to the continental United States; assisting the 
Federal Emergency Management Agency (FEMA) during the annual hurricane 
season; assisting the Department of Transportation after the I-35 
bridge collapse in Minnesota in 2007; and supporting the U.S. Secret 
Service regarding Presidential inaugurations. In these and other 
events, DOD offered a broad array of resources that were developed for 
its warfighting mission but were brought to bear when civilian-response 
capabilities were overwhelmed or exhausted--or in instances where DOD 
offered unique capabilities.
---------------------------------------------------------------------------
    \1\ Defense support of civil authorities is support provided by 
Federal military forces, DOD civilians, DOD contract personnel, DOD 
component assets, and, in certain circumstances, National Guard forces 
in response to requests for assistance from civil authorities for 
domestic emergencies, law enforcement support, and other domestic 
activities, or from qualifying entities for special events.
    \2\ DOD, Strategy for Homeland Defense and Defense Support of Civil 
Authorities (February 2013).
---------------------------------------------------------------------------
    In an effort to facilitate defense support of civil authorities 
across the Nation and at all organizational levels, DOD has assigned 
responsibilities within the Office of the Secretary of Defense (such as 
the Office of the Assistant Secretary of Defense for Homeland Defense 
and Global Security),\3\ the Joint Chiefs of Staff, various combatant 
commands (such as Northern Command and Pacific Command), the National 
Guard Bureau, the U.S. Army Corps of Engineers, the Defense Logistics 
Agency, joint task forces (such as Joint Task Force-North),\4\ the 
intelligence agencies (such as the National Geospatial--Intelligence 
Agency and the Defense Intelligence Agency), and regional interagency 
liaisons (such as the Defense Coordinating Officers and Emergency 
Preparedness Liaison Officers).\5\
---------------------------------------------------------------------------
    \3\ In January 2015, the Office of the Under Secretary of Defense 
for Policy reorganized its missions and renamed the assistant secretary 
of defense for homeland defense and America's security affairs as the 
assistant secretary of defense for homeland defense and global 
security. For the purpose of consistency, we will refer to the position 
in this report as the assistant secretary of defense for homeland 
defense.
    \4\ Joint Task Force-North, formerly referred to as Joint Task 
Force-6, was created in 1989 to serve as the planning and coordinating 
operational headquarters to support local, State, and Federal law 
enforcement agencies within the Southwest Border region to counter the 
flow of illegal drugs into the United States. In the aftermath of the 
September 11, 2001, terrorist attacks on the United States, the command 
was officially renamed Joint Task Force-North and its mission was 
expanded to include providing homeland security support to the Nation's 
Federal law enforcement agencies.
    \5\ A Defense Coordinating Officer is a DOD single point of contact 
for domestic emergencies who is assigned to a joint field office to 
validate requests for assistance, forward mission assignments through 
proper channels to the appropriate military organizations, and assign 
military liaisons, as appropriate, to activated emergency support 
functions. An Emergency Preparedness Liaison Officer is a senior 
reserve officer who represents their service at the appropriate joint 
field office conducting planning and coordination responsibilities in 
support of civil authorities. See Joint Publication 3-28, Defense 
Support to Civil Authorities (Jul. 31, 2013).
---------------------------------------------------------------------------
    My testimony is based on reports we issued from March 2010 through 
December 2014 that examined DOD's DSCA mission, and discusses DOD's 
progress in implementing recommendations that we made to strengthen: 
(1) DOD's strategy, plans, and guidance documents; (2) interagency 
coordination; and, (3) capabilities to support civil authorities.\6\
---------------------------------------------------------------------------
    \6\ This statement is based on the following reports that are cited 
throughout and include GAO, Emergency Preparedness: Opportunities Exist 
to Strengthen Interagency Assessments and Accountability for Closing 
Capability Gaps, GAO-15-20 (Washington, DC: Dec. 4, 2014); Civil 
Support: Actions Are Needed to Improve DOD's Planning for a Complex 
Catastrophe, GAO-13-763 (Washington, DC: Sep. 30, 2013); Homeland 
Defense: DOD Needs to Address Gaps in Homeland Defense and Civil 
Support Guidance, GAO-13-128 (Washington, DC: Oct. 24, 2012); Homeland 
Defense: DOD Can Enhance Efforts to Identify Capabilities to Support 
Civil Authorities During Disasters, GAO-10-386 (Washington, DC: Mar. 
30, 2010); and, Homeland Defense: DOD Needs to Take Actions to Enhance 
Interagency Coordination for Its Homeland Defense and Civil Support 
Missions, GAO-10-364 (Washington, DC: Mar. 30, 2010).
---------------------------------------------------------------------------
    This statement includes selected updates that we conducted in June 
2015 on DOD's DSCA mission. Our reports contained information that we 
obtained from reviewing and analyzing relevant DOD documents, including 
the 2013 Strategy for Homeland Defense and Defense Support of Civil 
Authorities; The DOD Cyber Strategy from 2015; Northern Command and 
Pacific Command planning documents; DOD directives, instructions, and 
doctrine; and Northern Command capability assessments. We also 
conducted interviews with DOD officials within the Office of the 
Secretary of Defense, Joint Staff, combatant commands, military 
services, defense agencies, and Reserve officials. We also conducted 
interviews with other Federal officials from organizations such as the 
Department of Homeland Security (DHS), FEMA, Customs and Border 
Protection, Immigration and Customs Enforcement, Federal Bureau of 
Investigation, Drug Enforcement Agency, Centers for Disease Control and 
Prevention, Animal and Plant Health Inspection Service, and officials 
located in the El Paso Intelligence Center. More detailed information 
about our scope and methodology can be found in our reports. For the 
updates, we collected information from DOD officials on actions the 
Department has taken to address findings and recommendations made in 
our prior reports. The work upon which this testimony is based was 
conducted in accordance with generally accepted Government auditing 
standards. Those standards require that we plan and perform the audit 
to obtain sufficient, appropriate evidence to provide a reasonable 
basis for our findings and conclusions based on our audit objectives. 
We believe that the evidence obtained provides a reasonable basis for 
our findings and conclusions based on our audit objectives.
 dod continues to take action to strengthen its dsca strategy, plans, 
                              and guidance
    DOD has and continues to take action to address our prior 
recommendations to strengthen its DSCA strategy, plans, and guidance. 
As we have previously reported, clear, current, and complete 
strategies, plans, and guidance documents are important for reflecting 
the direction of the Departments' civilian and military leadership, 
defining DOD and its components' policies and responsibilities, and 
sharing practices that could facilitate effective support of civil 
authorities. In 2005, DOD issued its first Strategy for Homeland 
Defense and Civil Support.\7\ In four reports we issued in 2010 through 
2013, we found that DOD's DSCA strategies and guidance were outdated, 
not fully integrated, or were not comprehensive.\8\ Since 2010, DOD has 
taken action to address many of our findings and recommendations. For 
example:
---------------------------------------------------------------------------
    \7\ DOD, Strategy for Homeland Defense and Civil Support (June 
2005).
    \8\ GAO-13-763, GAO-13-128, GAO-10-364, and GAO-10-386.
---------------------------------------------------------------------------
  <bullet> DOD updated its strategy and doctrine for civil support.--In 
        2010, and then again in 2012, we found that DOD's 2005 Strategy 
        for Homeland Defense and Civil Support had not been updated to 
        reflect the current environment in which DOD supports civil 
        authorities. For example, while the strategy primarily 
        discusses DOD's DSCA mission in the context of the Department's 
        response to a weapon of mass destruction--DOD's primary focus 
        after the 2001 terrorist attacks--it did not address the 
        breadth of DSCA missions that DOD must be prepared to support 
        subsequent to Hurricane Katrina in 2005. Based on our 
        recommendation that DOD should update its strategy, in February 
        2013 DOD issued an updated Strategy for Homeland Defense and 
        Defense Support of Civil Authorities. In this update, DOD 
        acknowledged that National security threats, hazards, 
        vulnerabilities, strategic guidance, and political and economic 
        factors had evolved since the 2005 strategy, and recognized 
        that its support to civil authorities included a broader set of 
        missions--to include catastrophic natural or man-made 
        disasters, pre-planned National Special Security Events (like 
        summits and high-profile sports events), cyber attacks, and the 
        Southwest Border counterdrug efforts. We also reported in 2012 
        that DOD had not updated its joint publication for DSCA and 
        recommended that the Department needed to do so. DOD agreed 
        with our recommendation and in July 2013, DOD updated its joint 
        publication for Defense Support for Civil Authorities.\9\ In 
        this update, among other things, DOD described more fully the 
        National Response Framework, which is a framework based on a 
        tiered, graduated response to major disasters and emergencies 
        where incidents are managed at the lowest jurisdictional level 
        and are supported by additional response capabilities, as 
        needed.\10\
---------------------------------------------------------------------------
    \9\ Joint Publication 3-28, Defense Support of Civil Authorities, 
(July 31, 2013).
    \10\ The National Response Framework is a guide to how the Nation 
responds to all types of disasters and emergencies. It is built on 
scalable, flexible, and adaptable concepts identified in the National 
Incident Management System to align key roles and responsibilities 
across the Nation. This framework describes specific authorities and 
best practices for managing incidents that range from the serious but 
purely local to large-scale terrorist attacks or catastrophic natural 
disasters. The National Response Framework describes the principles, 
roles, and responsibilities, and coordinating structures for delivering 
the core capabilities required to respond to an incident and further 
describes how response efforts integrate with those of the other 
mission areas.
---------------------------------------------------------------------------
  <bullet> DOD has reported that it has updated its DSCA plans.--In 
        September 2013,\11\ we found that DOD did not have a clear 
        command-and-control structure for Federal military services 
        during complex catastrophes.\12\ We found that DOD had not 
        identified the roles, responsibilities, and relationships among 
        command elements that may be involved in responding to such 
        incidents across multiple States. This issue was illustrated by 
        events such as National Level Exercise 2011 that examined DOD's 
        response to a complex catastrophe. Similarly, DOD's after-
        action reports on Hurricane Sandy in 2012 found that the 
        command-and-control structure for Federal military forces was 
        not clearly defined, resulting in the degradation of 
        situational awareness and unity of effort, and the execution of 
        missions without proper approval. Northern Command officials 
        agreed with our findings and stated that they would address 
        this issue and the associated recommendation we made in our 
        report by updating their DSCA plans. As of June 2015, DOD 
        reported that Northern Command and Pacific Command had updated 
        their DSCA plans to address our recommendation.
---------------------------------------------------------------------------
    \11\ GAO-13-763.
    \12\ DOD has defined a complex catastrophe as a natural or man-made 
incident, including cyber space attack, power grid failure, and 
terrorism, which results in cascading failures of multiple 
interdependent, critical, life-sustaining infrastructure sectors and 
causes extraordinary levels of mass casualties, damage, or disruption 
severely affecting the population, environment, economy, public health, 
National morale, response efforts, and/or Government functions.
---------------------------------------------------------------------------
  <bullet> DOD implementation guidance on the use of dual-status 
        commanders is in development.--DOD established the dual-status 
        commander structure--active-duty military or National Guard 
        officers who command State and Federal responses to civil-
        support incidents and events--and has used this structure for 
        certain events.\13\ For example, DOD used the dual-status 
        commander structure for the 2012 Colorado wildfire response and 
        the Hurricane Sandy response. In October 2012, we reported that 
        DOD had not developed guidance for the use of dual-status 
        commanders for incidents affecting multiple States and 
        territories.\14\ For example, DOD had not developed specific 
        criteria and conditions for when and how State Governors and 
        the Secretary of Defense would mutually appoint a commander. 
        Consequently, we recommended and DOD concurred that the 
        department develop implementation guidance on the use of dual-
        status commanders. In June 2015, Northern Command officials 
        reported that an instruction about dual-status commanders was 
        being drafted in coordination with DOD, Northern Command, and 
        the National Guard Bureau.
---------------------------------------------------------------------------
    \13\ Dual-status commanders are military commanders who serve as an 
intermediate link between the separate chains of command for State and 
Federal forces.
    \14\ GAO-13-128.
---------------------------------------------------------------------------
  <bullet> DOD has agreed to take steps to align cyber support roles 
        and responsibilities.--In October 2012, we found that DOD had 
        not updated its DSCA guidance, such as joint doctrine, to 
        ensure that it was consistent with National plans and 
        preparations for domestic cyber incidents.\15\ We recommended 
        that DOD align guidance on preparing for and responding to 
        domestic cyber incidents with National-level guidance to 
        include roles and responsibilities. DOD partially concurred 
        with this recommendation. However, the Department has not yet 
        taken action that meets the intent of the recommendation.
---------------------------------------------------------------------------
    \15\ GAO-13-128.
---------------------------------------------------------------------------
dod has taken action to strengthen interagency coordination for support 
                          of civil authorities
    DOD has and continues to take action to address our prior 
recommendations to strengthen the Department's interagency coordination 
for support of civil authorities. As numerous events within the 
homeland in the last decade have pointed out, it is critical that DOD 
coordinate, integrate, and synchronize its DSCA mission with a broad 
range of interagency partners that the Department may need to support. 
Such partners can include FEMA, Federal Bureau of Investigation, 
Customs and Border Protection, Animal and Plant Health Inspection 
Service, and the Centers for Disease Control and Prevention. As we have 
previously reported, there are three key areas that DOD needs to focus 
on to enhance and institutionalize its interagency coordination 
efforts. DOD has since taken action to address these areas:
  <bullet> DOD Has Better Defined Interagency Roles and 
        Responsibilities.--Previous GAO work, the National Response 
        Framework, and DOD strategic guidance identify the need for 
        clearly-defined roles and responsibilities to enhance 
        interagency coordination.\16\ In our 2010 review of DOD's 
        interagency coordination efforts, we found that the key 
        documents used to define roles and responsibilities were 
        outdated, not fully integrated, or were not comprehensive.\17\ 
        We found that DOD's series of civil-support policies and 
        guidance, such as a 1997 DOD directive on military assistance 
        to civil authorities,\18\ were outdated and did not reflect 
        changes that occurred subsequent to their issuance. For 
        example, the guidance documents did not refer to DHS, the 
        Office of the Assistant Secretary of Defense for Homeland 
        Defense, Northern Command, or roles and responsibilities under 
        the National Response Framework. Similarly, we found that roles 
        and responsibilities for support to law enforcement--including 
        Joint Task Force-North, which provides defense support of 
        civilian law enforcement agencies along U.S. borders--were 
        unclear as were the roles and responsibilities between the 
        Assistant Secretary of Defense for Health Affairs and the 
        Assistant Secretary of Defense for Homeland Defense. 
        Consequently, we recommended and DOD concurred that the 
        Department should update key documents that outline roles and 
        responsibilities. Subsequently, DOD has, for the most part, 
        issued new guidance documents or updated older guidance to 
        better define roles and responsibilities within the Department 
        for interagency coordination.
---------------------------------------------------------------------------
    \16\ DHS, National Response Framework, Second Edition (May 2013); 
DOD, Joint Publication 3-08, Interorganizational Coordination During 
Joint Operations (June 24, 2011); GAO-10-364; DOD, National Defense 
Strategy (June 2008); and GAO, Results-Oriented Government: Practices 
That Can Help Enhance and Sustain Collaboration Among Federal Agencies, 
GAO-06-15 (Washington, DC: Oct. 21, 2005).
    \17\ GAO-10-364.
    \18\ DOD Directive 3025.15, Military Assistance to Civil 
Authorities (Feb. 18, 1997).
---------------------------------------------------------------------------
  <bullet> DOD has issued an interagency partner guide.--DOD's joint 
        doctrine on interagency coordination and support of civil 
        authorities notes that a unified ``whole-of-Government'' 
        approach to National security issues requires Federal partner 
        agencies to understand core competencies, roles, and missions 
        and that sharing information is critical for the success of 
        interagency coordination between Federal agencies.\19\ To 
        support interagency coordination on DSCA, DOD has taken action 
        to communicate with its Federal partners through conferences 
        and other forums and multiple documents. In our 2010 review of 
        DOD's interagency coordination efforts, we found that DOD's 
        approach to communicating with Federal partners could be 
        improved, and the Department had not clearly identified the 
        roles and responsibilities and day-to-day coordination 
        processes with its Federal partners through a single, readily 
        accessible source.\20\ Specifically, DOD, DHS, and the 
        Department of Justice officials told us that the benefits 
        gained through interagency forums, such as Homeland Security 
        Council meetings and annual National Interagency Fire Center 
        conferences, are transient because they depend on personnel who 
        rotate out of their positions frequently. The National 
        Interagency Fire Center had addressed this challenge by 
        creating a partner handbook that identified key information. 
        DOD had not developed a similar vehicle for institutionalizing 
        its information-sharing efforts so that Federal partners could 
        maintain knowledge and have readily accessible information 
        about key issues, such as the different DOD entities that have 
        DSCA missions. For those cases where DOD internally documented 
        its missions, roles, and responsibilities, we found the 
        information was dispersed among multiple sources; also, the 
        documents may not have always been readily accessible to 
        Federal partners, and they may have been written in a manner 
        that led to unclear expectations. Therefore, we recommended 
        that DOD develop and issue a partner guide that identifies the 
        roles and responsibilities of DOD entities, processes, and 
        agreed-upon approaches for interagency coordination for 
        homeland defense and civil-support efforts. DOD concurred with 
        our recommendation and, in November 2011, issued its Defense 
        Support of Civil Authorities Interagency Partner Guide.
---------------------------------------------------------------------------
    \19\ Joint Publication 3-28, Defense Support of Civil Authorities 
(July 31, 2013); and Joint Publication 3-08, Interorganizational 
Coordination During Joint Operations (June 24, 2011).
    \20\ GAO-10-364.
---------------------------------------------------------------------------
  <bullet> DOD has taken action to implement key practices for managing 
        some liaisons the Department exchanges with its Federal 
        partners.--Prior GAO reports and DOD guidance recognize that 
        leading organizations employ key practices for effective and 
        efficient workforce planning, such as situational awareness, 
        staffing-needs assessments, position descriptions, training, 
        and performance assessments.\21\ However, in our 2010 report, 
        we found that DOD had not implemented such key practices.\22\ 
        For example, DOD did not have complete situational awareness of 
        all the liaisons detailed to its interagency partners. 
        According to DOD records, in 2009, there were only 2 DOD 
        personnel at DHS headquarters--yet an informal survey by the 
        representative for the Office of the Assistant Secretary of 
        Defense for Homeland Defense to DHS found that more than 110 
        DOD personnel, from a variety of DOD entities, were working at 
        DHS as liaisons, subject-matter experts, or in other 
        capacities.\23\ Therefore, we recommended and DOD agreed that 
        DOD develop and issue additional workforce management policy 
        and guidance regarding DOD liaisons to other Federal agencies, 
        as well as other Federal agencies' liaisons to DOD. In October 
        2013, the deputy secretary of defense and the acting deputy 
        secretary of homeland security signed an updated memorandum of 
        agreement that outlines ways in which DOD and DHS will 
        incorporate key practices for managing liaisons in the National 
        capital region.
---------------------------------------------------------------------------
    \21\ DOD Instruction 1315.18, Procedures for Military Personnel 
Assignments (Jan. 12, 2005); DOD Instruction 1400.25, DOD Civilian 
Personnel Management System (Nov. 18, 2008); DOD Instruction 1000.17, 
Detail of DOD Personnel to Duty Outside the Department of Defense (Apr. 
16, 2008); GAO, Human Capital: Key Principles for Effective Strategic 
Workforce Planning, GAO-04-39 (Washington, DC: Dec. 11, 2003; and GAO, 
A Model of Strategic Human Capital Management, GAO-02-373SP 
(Washington, DC: Mar. 15, 2002).
    \22\ GAO-10-364.
    \23\ In responding to a draft of this statement, DOD stated that, 
according to a 2004 DOD-DHS memorandum of agreement on personnel 
exchange, there were at least 38 DOD personnel detailed to (or assigned 
as liaisons at) DHS headquarters and 86 DOD personnel to DHS, in 
general. However, during the audit, DOD documents and officials reflect 
that DOD's numbers were inaccurate and that the officials did not have 
an exact count on the number of DOD personnel located at DHS 
headquarters or throughout the DHS organization.
---------------------------------------------------------------------------
  dod has taken action to identify needs and address capability gaps 
               regarding its support of civil authorities
    In response to our prior recommendations, DOD has taken action to 
identify needs and address capability gaps for its DSCA mission. In the 
2014 Quadrennial Defense Review, DOD notes that the key pillar of 
protecting the homeland includes sustaining capabilities to assist U.S. 
civil authorities in protecting U.S. airspace, shores, and borders, and 
in responding effectively to domestic man-made and natural 
disasters.\24\ In 2008, DOD conducted a capabilities-based assessment 
of its homeland defense and civil support missions to enable 
improvements for DOD homeland defense and civil-support policy, 
evaluate existing DOD capabilities and identify capability gaps, 
improve DOD's integration with interagency mission partners, and 
recommend further action to promote future capability development. In 
2010, we found that DOD and DHS had undertaken initiatives to address 
gaps in strategic planning that should assist DOD in identifying its 
capability requirements for the DSCA mission.\25\ For example, DOD and 
DHS issued catastrophic plans for responding to and recovering from a 
category 4 hurricane in Hawaii. In addition, DHS had established a 
pilot initiative entitled Task Force for Emergency Readiness pilot 
initiative that sought to integrate Federal and State planning efforts 
for catastrophic events, which in turn would assist DOD in determining 
the capabilities it may be asked to provide. However, we found that 
DOD's DSCA policy and guidance was outdated, which limited DOD's 
ability to address capability gaps. We therefore made a recommendation 
and DOD concurred that the Department should update its DSCA guidance. 
Since then, DOD has updated or replaced several DSCA guidance 
documents, such as DOD Directive 3025.18.\26\ By updating this 
guidance, DOD addressed our recommendation and DOD is in a better 
position to address remaining capability gaps.
---------------------------------------------------------------------------
    \24\ DOD, Quadrennial Defense Review 2014 (Mar. 4, 2014).
    \25\ GAO-10-386.
    \26\ DOD Directive 3025.18, Defense Support of Civil Authorities 
(DSCA) (Dec. 29, 2010, incorporating change 1, Sep. 21, 2012).
---------------------------------------------------------------------------
    Additionally, we found in 2013 that DOD had not taken all of the 
necessary steps to identify capabilities for DSCA. Additionally, we 
found in 2013 that DOD had not taken all of the necessary steps to 
identify capabilities for DSCA.\27\ Specifically, we found that 
Northern Command and Pacific Command were updating their DSCA plans to 
include a scenario for a complex catastrophe; however, the commands 
delayed identification of capabilities that could be provided to 
execute the plans in light of FEMA's plan to complete its regional 
planning efforts in 2018. We recommended that the commanders work 
through the defense coordinating officers to develop an interim set of 
specific capabilities that could be provided to prepare for and respond 
to complex catastrophes while FEMA completes its plans. DOD concurred 
with our recommendation and, in May 2014, according to DOD officials, 
Northern Command and Pacific Command had updated their plans to 
incorporate complex catastrophes, including identifying capabilities 
that would be available to the lead Federal agency during such an 
event. Specifically, DOD officials told us, in June 2015, that planning 
had been completed, covering issues such as complex catastrophes; 
wildland firefighting; and chemical, biological, radiological, and 
nuclear response. Additionally, DOD officials told us that future 
planning efforts will include additional branch plans addressing issues 
such as pandemic influenza and infectious diseases and civil 
disturbance operations.
---------------------------------------------------------------------------
    \27\ GAO-13-763.
---------------------------------------------------------------------------
    Under the National Response Framework, the U.S. Army Corps of 
Engineers serves as the coordinator for the ``Public Works and 
Engineering'' emergency support function--1 of 14 emergency support 
functions that serve as the Federal Government's primary coordinating 
structure for building, sustaining, and delivering response 
capabilities.\28\ The U.S. Army Corps of Engineers, in its emergency 
support function coordinator role, is responsible for engaging in 
appropriate planning and preparedness activities, which could include 
establishing capability requirements, cataloguing current capabilities, 
and conducting capability gap analyses that might be needed if the 
Federal Government is asked to support local, State, Tribal, 
territorial, and insular area Government response operations during a 
disaster. In a recent assessment of the Federal preparedness to respond 
to no-notice catastrophic disasters, such as improvised nuclear device 
attacks and major earthquakes, we found that the U.S. Army Corps of 
Engineers had taken an insular approach to identifying, cataloguing, 
and analyzing gaps for public works and engineering capabilities.\29\ 
Since we concluded that the U.S. Army Corps of Engineers' actions--as 
well as actions by other non-DOD agencies that serve as coordinators 
for different emergency support functions--were attributable to unclear 
guidance, and recommended that FEMA issue supplemental guidance to the 
agencies that serve as coordinators for the different emergency support 
functions.\30\ FEMA concurred with this recommendation and estimated 
that it would complete this supplemental guidance by June 30, 2015.
---------------------------------------------------------------------------
    \28\ The National Response Framework states that the Secretary of 
Homeland Security is to ensure that overall Federal preparedness 
actions are unified, complete, and synchronized to prevent unfilled 
gaps or seams in the Federal Government's efforts to respond to all 
hazards. The emergency support functions are organized by specific 
functional areas for the most frequently needed capabilities during an 
emergency--including communications, medical services, and search and 
rescue--and are designed to coordinate the provision of related assets 
and services by Federal departments and agencies. See DHS, National 
Response Framework, Second Edition (May 2013).
    \29\ GAO-15-20.
    \30\ FEMA serves as the chair of the Emergency Support Function 
Leadership Group.
---------------------------------------------------------------------------
    In conclusion, threats to the homeland and major disasters and 
emergencies, such as cyber attacks and earthquakes, frequently are 
unpredictable or occur with little or no notice. DOD's 2014 Quadrennial 
Defense Review emphasizes protecting the homeland, including deterring 
and defeating attacks on the United States and supporting civil 
authorities in mitigating the effects of potential attacks and natural 
disasters, as the first of the defense strategy's three pillars. DOD 
has made significant progress in improving strategy, plans, and 
guidance; interagency coordination; and capabilities needed for DSCA. 
Our work also shows that there remains room for improvement and that 
DOD recognizes this and intends to fully address the remaining 
recommendations from our prior reports. We continue to believe that 
their implementation will buttress the advanced planning and 
interagency coordination effort DOD requires to support civil 
authorities in responding to the myriad threats and challenges we face. 
On that note, looking ahead, we will continue to monitor and evaluate: 
(1) DOD's cyber civil support, (2) the status of the homeland response 
forces, (3) DOD's preparedness for civil support in the event of a 
pandemic, and (4) coordination with Federal agencies to counter 
improvised explosive devices in the United States.

    Ms. McSally. Thank you, Dr. Kirschbaum.
    I now recognize myself for 5 minutes for questions.
    I will first say, in my 26 years in the military I had zero 
dealing with this issue, defense support to civil authorities, 
zero experience dealing with this issue, which I think probably 
is the preponderance of military personnel, just as a framing 
mechanism there, unless you are in a specific job that has to 
deal with it. But my views on it are formed and shaped by my 
experiences at Africa Command working with military support to 
USAID OFDA overseas, and we were dealing with overseas response 
to disasters.
    What I saw was oftentimes basically the military, we would 
show up, beyond the sort-of inherent danger, and we would be 
like we are in charge because we are very action-oriented and 
then we are just going to figure it all out. We don't even 
realize there is another lead Federal agency there. We have 
just got colonels and lieutenant colonels, they want to do the 
Lord's work out there and save people's lives, and so they just 
get going. There is often very confusing, cumbersome, and in a 
very chaotic environment to start with, there are turf battles, 
there is misunderstanding, there is not a unity of effort.
    So I have got a lot of experience with that overseas. So I 
would imagine in looking at this and preparing for this hearing 
we have similar dynamics that could happen here at home in 
response to an emergency, especially when you are dealing with 
getting Active-Duty Forces involved with many individuals in 
the chain of command not necessarily understanding what the 
roles and responsibilities are, what the legal authorities are.
    Again, aside from that, the imminent danger, and then doing 
life-saving response, it seems we have got some examples of 
that even as recently as Hurricane Sandy, right, where we had 
Marines showing up like we are going to start doing a bunch of 
stuff that maybe they don't even have the legal authority to 
do.
    So my question really, Mr. Salesses and General Whitlock, 
is: What are we doing to make sure that the military 
understands, especially the chain of command understands, their 
role and responsibility? It is too late to be teaching them 
about that when you are in the middle of responding to 
something up and down the chain of command?
    Mr. Fenton, or anybody want to give some after-action 
lessons identified from Sandy and any responses since Sandy 
related to, again, maybe turf battles or misunderstandings of 
roles and responsibilities and what we can do to fix that in 
the DSCA mission?
    Mr. Salesses. Chairman McSally, I will start if you don't 
mind.
    You are absolutely right. Having had the opportunity to 
work overseas in humanitarian disaster relief events, it is 
very chaotic. Although we have great partners in the 
international area too, with Department of State, USAID, and 
OFDA, I can tell you from my experience that the way we are 
organized domestically far exceeds the way that we are 
organized to do overseas humanitarian disaster relief.
    That really starts with the National response system, the 
National response framework. The work that FEMA has done to 
organize the Federal Government in particular, and the ESF 
structure, and the way that they manage things under 
Administrator Fugate's leadership really makes a difference 
here at home, first of all, in bringing together the Federal 
departments and agencies and the way that we do this.
    Your point about education, training, exercising, planning, 
I think all of those things are critical to this issue of 
making sure that people understand their roles and 
responsibilities. Everything, of course, starts with 
authorities. I think in my statement recognizing right up front 
we play a supporting role, we recognize the environment that we 
are in here, and the Defense Department is prepared to support 
our Federal partners in their efforts.
    But we do spend a lot of time educating and training. 
Northern Command, which you are familiar with out in Colorado 
Springs, actually runs five different education courses. They 
run the DSCA executive course, which is a 2-day course, and 
they bring in State emergency management, local emergency 
management, other Federal partners, and military members, 
Active, Reserve, and Guard. They have a regular week-long 
course. They run the dual-status commander force, along with 
the National Guard Bureau. So there is a lot of work underway 
to continue to educate people.
    I would also say very quickly that there has been a 
tremendous evolution in the Defense Department in understanding 
its responsibilities for defense support to civil authorities, 
and I can talk more about that. I don't want to overuse my 
time. I will give somebody else an opportunity.
    General Whitlock. Chairwoman McSally, I agree with 
everything Mr. Salesses has said. Just one kind of top-level 
thing. NORTHCOM was formed in 2002 in response to the terrorist 
acts of September 11, 2001, and I think we have made 
significant progress. I served at NORTHCOM as the Deputy J-5, 
and I was there for Hurricane Sandy response.
    A key is training, exercises, and education, and oftentimes 
you won't have officers that have done that if they were just 
on the Federal side. But we have a great civilian workforce out 
there. Those officers get up to speed quickly. As you might 
know in your AFRICOM experience, the supporting and supported 
commander relationship, we understand that. We have 
operationalized that across the Department of Defense, with 
NORTHCOM being the supporting command for DSCA or PACOM if 
there is an incident in the PACOM area.
    Ms. McSally. Great. Thanks.
    There is a lot of discussion about support to FEMA, but 
there is a great potential that the military will be called to 
support other agencies as well, even within DHS, whether it is 
Customs and Border Protection, HHS for some sort of health 
crisis, DOJ. So it seems like a lot of work has been done 
related to integration with FEMA, but could you speak to 
integration with those other agencies that you might be called 
to support as well?
    Mr. Salesses. We actually do a lot of work with the other 
departments and agencies. I will pick HHS as an example. 
Assistant Secretary Nicki Lurie and her staff, we spend a lot 
of time working with them, just like we do with Mr. Fenton and 
his team, but specifically focused on the public health 
response kinds of activities. The Department of Defense in 
particular is responsible, along with HHS and VA, to support 
natural disaster medical system. That is where we provide 
transportation of critical care patients, and in particular 
USTRANSCOM has the responsibility to air lift critical care 
patients, and we have done that in a number of disasters.
    We also work with HHS on their Federal medical staging 
stations. They are responsible for standing up these. We work 
very closely with them on planning and looking at the kinds of 
capabilities that the Department of Defense could provide 
beyond the Public Health Service capabilities that would be 
available in a disaster.
    Ms. McSally. Great. Thanks. My time is well expired. I hope 
we get a second round of questions here, but I appreciate your 
responses so far.
    So the Chair now recognizes Mrs. Watson Coleman.
    Mrs. Watson Coleman. Thank you, Madam Chairman.
    Thank you very much. I really have a respect for the work 
that you do and how difficult and complicated the issues that 
you confront are. In fact, I was reading through the material 
last night, and I was absolutely struck by all the different 
protocols and touch points and responsibilities. So I have got 
a couple of questions regarding how that is actually working.
    The Chairman spoke for a moment about the issue of the 
Marines deploying under Sandy in New Jersey before being asked 
to and before having the authority to do that. Specifically, 
what is done to avoid that happening again? I don't even know 
who answers that. I am sorry. Staten Island. Just right across 
the bridge.
    General Whitlock. Ma'am, I will take that question. We have 
done extensive after-action reviews, and we have lessons 
identified, and I think we are learning them now.
    In my military career, Hurricane Sandy was the most 
extensively after-action-reviewed event I have done. NORTHCOM 
did a really complex and thorough one with its components and 
partners with the National Guard Bureau and OSD and even FEMA 
there, and I saw that go up through the Department of Defense.
    So I think we continue to learn and understand, and we will 
constantly have the training and education challenges, new 
Members come in, or Marines that are operating off the coast in 
the area or in proximity to respond, how they respond, but also 
the Defense Coordinating Officer is key and integral there, 
each one of those in FEMA region, his or her team. Then 
NORTHCOM has what the command calls a Title 10 deputy, and 
there is a Title 10-06 colonel or Navy captain that goes out 
and helps that dual-status commander or that adjutant general. 
So those are key players in making sure that we have the right 
command and control.
    Mrs. Watson Coleman. Thank you. That kind of leads me to 
Dr. Kirschbaum, because I did notice that there are a lot of 
offices, there are a lot of protocols, there are a lot of 
memorandums of understanding, there is a lot of positioning of 
one Department's staff in another Department's office for 
certain issues.
    So from a Government accountability perspective, are we 
doing all that we need to be doing in the leanest, most 
effective way, cost-effective and efficient way, or have we 
overresponded to the things that we haven't done well that we 
are creating layers and layers and potential contradictions and 
confusion? Dr. Kirschbaum.
    Mr. Kirschbaum. Thank you, Mrs. Watson Coleman.
    One of the things that we noticed over time in particular, 
when we look at the kind of planning necessary to do this kind 
of response to major disasters and what-not, it requires, as we 
talked about, fast levels of planning, and particularly in the 
case of the Department of Defense, where the focus for decades 
has not been on that kind of planning here in the homeland.
    There is extra effort involved. We saw a lot early on, 
especially when U.S. Northern Command was establishing, where 
there was a lot of effort, but the outcomes weren't as 
satisfactory because of those things. Lots of activity that 
wasn't necessarily coordinated and planned.
    Fortunately that has gotten better. General Whitlock 
mentioned the after-action reviews. We love after-action 
reviews, for two reasons. No. 1, because it helps us identify 
those things that tend to be recurring problems. So that is 
obviously the indicator that things like the ever-present 
interoperability issues with communications. They are in the 
Sandy AAR. So you pay attention to those.
    We also love them because it shows materially how seriously 
the Department takes looking at exercises. The way the 
Department exercises, they exercise to break things, figure out 
where the problems are, and fix them. So they are very good in 
that score.
    The overarching issue for us is when it comes to planning 
for these kind of things, is that it is a plant that needs to 
be watered all the time. You have to have a plan, know the 
plan, test the plan, and that has to happen every single day. 
So the level of effort that applies to that often is a very 
high level of effort. So it is up to the departments to 
determine in doing that over time you become more efficient 
because you have done it and you recognize where the pain 
points are, where you are doubling up effort, and where you can 
afford to make the risk-management decision so you don't end up 
double-counting.
    Mrs. Watson Coleman. It just seems very confusing the way 
some of the protocols were identified, who does what, when, 
under what circumstances, who is in the FEMA office that 
doesn't work for FEMA but brings an expertise from someplace 
else. So just for someone from the outside looking in, 
particularly for the first time, it just seemed like there were 
a lot of steps and touchstones and protocols and memorandums of 
understanding and whatever. I am just wondering how long does 
it take to execute from the time that you know that you are 
needed to the time that you actually get some resources into 
that area, if there is an answer to that?
    Mr. Salesses. I think there is. It is a fascinating system, 
our National response system, a Federalist system built on a 
transactional process with systems within systems. You are 
right, there is a tremendous amount of activity and 
organizations involved in this. But the way that I think that 
we have collectively tried to deal with that is by 
understanding what the State needs are and translating those 
State needs into prescripted mission assignments, identifying 
capabilities that are needed.
    FEMA manages that process. We in DOD have 28 prescripted 
mission assignments. Those are essential for translating the 
task that needs to be done into military-speak and the kinds of 
capabilities that are needed.
    Then we mentioned, General Whitlock and I both mentioned 
the DSCA EXORD. That is actually a document where we have gone 
through and identified military capabilities and postured them 
on time lines so that those capabilities will be made available 
rapidly to support our Federal partners in that regard. That is 
just the beginning part of the discussion.
    Mrs. Watson Coleman. I know there were lots of lessons 
learned in Katrina, and I know that there are still lessons 
being learned from Sandy. Is Sandy the event that you employed 
this sort-of new system of checks and balances and 
accountabilities and identification? Is that the only event 
that we can tell whether or not you are responding more 
quickly, more effectively, more efficiently, or is there 
something that I am missing, some other incident? Thank you.
    Mr. Salesses. I would say probably Sandy, but we also 
learned a lot from a number of events around the world, Haiti 
in particular, the Fukushima earthquake and tsunami. When those 
events happen, we collectively get together and plan to look at 
what was needed in those cases, and we refine our processes. 
But to employ the DSCA EXORD, we did use that in Sandy to 
provide capabilities.
    Then the other thing is, I spoke in my opening statement, 
the Department of Defense does more than provide military 
capabilities, when you think about the Corps of Engineers and 
what they did in Sandy, pumping out the tunnels, helping the 
city and the State in regards to dewatering and the kinds of 
things that were necessary, the Defense Logistics Agency, which 
provided over 9 million gallons of fuel for the 2,500 gas 
stations that were out up there.
    When you start to look at the cascading effects of 
infrastructure and what happened, the ability to rely on the 
Defense Department initially is very, very important. So 
maximizing our capabilities with the Corps of Engineers, using 
DLA, using USTRANSCOM, which airlifted utility vehicles from 
the West Coast to the East Coast to help out the power 
companies, again working with the Department of Energy. So 
understanding this and pulling this all together is a pretty 
significant task.
    Mrs. Watson Coleman. Thank you.
    Thank you, Chairman, for your indulgence.
    Ms. McSally. Absolutely.
    The Chair will now recognize other Members of the 
subcommittee for questions they may wish to ask the witnesses. 
In accordance with the committee rules and practice, I plan to 
recognize Members who were present at the start of the hearing 
by seniority on the subcommittee. Those coming in later will be 
recognized in the order of arrival.
    The Chair now recognizes Mr. Loudermilk from Georgia.
    Mr. Loudermilk. Thank you, Madam Chairman, and I appreciate 
everyone being here.
    September 11 was a wake-up call for our Nation. During my 
time in the military during the Cold War most of our emphasis 
was defending the homeland, but it was abroad. September 11 
showed how vulnerable we were. Since 9/11, we have seen a 
growing emphasis on local and State, the needs of local and 
State, for support with the increase of natural disasters and 
the impact of those disasters, terrorist attacks, civil unrest, 
riots, violent protests, and those continue.
    I have worked on both sides of that, from the purely 
Federal side, as well as in the last several years working with 
our State and local as boots on the ground and in the air and 
search and rescue and disaster response. One of the things that 
I have seen from working both with the purely Federal side and 
our State is the National Guard has unique capabilities for 
working in those local disasters for several reasons.
    Of course, our purely Federal Department of Defense has 
constraints on them such as the Posse Comitatus that the 
National Guard doesn't have. The National Guard also has been 
working with local law enforcement. They usually know the local 
law enforcement, the local emergency management agency heads. 
They are from those communities, and they are continually doing 
joint exercises.
    From working on that side, I have seen that the response, 
the coordination, and the flexibility to transition, especially 
if it is under Title 32, to transition from purely just 
disaster response to assisting law enforcement is there that we 
don't have on the Federal side. Also, and rightly so, purely on 
the DOD, there is a constraint that it cannot degradate our 
National security posture.
    With that, Mr. Salesses, a question for you is, I 
understand that the DOD has made some changes to DOD 
Instruction 3025.22 recently as it regards to the National 
Guard and the response. Can you describe what those changes 
were and what effect that is having?
    Mr. Salesses. Absolutely, Congressman. First of all, you 
are absolutely right too, the National Guard is a tremendous 
capability and available to the Governors, and as I spoke to, 
with EMAC it is able to pull resources together and be a very, 
very effective organization in supporting the Governors in 
those responsibilities.
    But as we look at the National response system, and I am 
going to defer to my partner here, Bob Fenton, part of that 
National response system is, as you opened, is State 
responsibilities. Clearly when there is an event in the State, 
the State will deal with it or use the EMAC.
    When it goes beyond that, the Governor obviously has the 
opportunity to declare the Stafford Act. The Stafford Act, as 
we all know, provides Federal resources. It also provides the 
capability for the State to be reimbursed through the DERF 
fund, and there is almost $8 billion, I understand, in the DERF 
fund today. That fund is there to fund the National Guard and 
State response, and so clearly that is the most effective way 
to do that.
    The challenge going forward in Title 32 is when we want, 
the Defense Department, the Defense Department has determined 
that we have a requirement from FEMA that we are going to 
employ the National Guard in. When we do that and we determine 
through the sourcing process that the National Guard as opposed 
to the Marine Corps or the Army or the Air Force has the best 
capability to support that, we can ask the Governor consent to 
put National Guardsmen in Title 32. That is what that directive 
is all about, and that is what it is designed to do.
    Mr. Loudermilk. Well, my question was: What changes have 
been made recently to the standing procedures?
    Mr. Salesses. No changes. It was just the policy was 
codified. That is what the directive does. It codifies the 
policy that has been in long existence.
    Mr. Loudermilk. Okay. So you are saying there were no 
changes recently to DOD Instruction 3025.22?
    Mr. Salesses. It was published. It was published a couple 
years ago. The process and the way that the Department operates 
and supports the use of Title 32 has been employed that way, 
and the policy codified that.
    Mr. Loudermilk. Okay. I will reserve other questions for 
the next panel. Thank you.
    Ms. McSally. Great. Thanks.
    The Chair now recognizes Mr. Langevin from Rhode Island.
    Mr. Langevin. First of all, I want to thank our panel of 
witnesses here today. Madam Chair, thank you for letting me sit 
in on this first panel.
    If I could, let me begin with Mr. Salesses. I am pleased to 
hear that all of the witnesses touched on cybersecurity in 
their testimony. Some of them spent quite a bit of time on it. 
I would like to dig a little deeper into DSCA's role with 
respect to a cyber incident.
    So, Mr. Salesses--who, for the record, I want to mention 
hails from my own alma mater, Rhode Island College, so it is 
good to see a Rhode Island College alum here--per JP 3-28, 
DSCA's operations, DOD forces may be required to assist and 
local networks to operate in a disrupted or degraded 
environment.
    With that in mind--and I would like to ask all of our 
witnesses in your answers to be brief because I have a slew of 
questions--in the event of a cyber attack, how would 
determination be made that DOD forces would assist civil 
authorities, and what is the threshold for involving them? Have 
those things been worked through yet?
    Mr. Salesses. Congressman Langevin, I apologize, but cyber 
is not an area under my purview. But my understanding obviously 
is if there is support needed at the State level, that the DHS 
and DOJ would request DOD support, which would be the normal 
course. But, again, this is out of my purview, so I am glad to 
take questions related to cyber.
    Mr. Langevin. Okay. Would we turn to FEMA then? Would that 
be something that has been worked out under your jurisdiction?
    Mr. Fenton. Sure. The part that would fall into FEMA's 
responsibility is the consequences of a cyber event. So if 
there were physical consequences of that event, we would look 
at it as the same as with regard to those consequences of any 
other type of event and look at the authorities within the 
Stafford Act to be able to provide support to State and local 
governments in support of requirements.
    One of the things that we have recently done is looking at 
the cyber threat and look at areas of critical infrastructure 
that may be most threatened from that is power and utilities. 
So what we are doing this year is developing a long-range power 
outage plan and how we respond and support the private sector 
with regard to assisting them and getting systems back up and 
operational and those kind of things.
    From a crisis perspective, you are really looking over at 
FBI, the NCCIC within the Department of Homeland Security where 
those authorities sit, to respond to the crisis, and FEMA's 
responsibility would really be the consequences of such an 
event.
    Mr. Langevin. Maybe I would go back to Mr. Salesses. Who 
within DOD or DSCA would be responsible for a cyber-related 
event where DOD would be involved?
    Mr. Salesses. Congressman, we have an office, deputy 
assistant secretary for cyber, that oversees the policy for 
that. Of course we have Cyber Command, the operational command 
that would oversee the kinds of support that the Defense 
Department would provide.
    Mr. Langevin. But how would the assistant secretary of 
cyber interact with civil authorities? Has that been worked out 
yet?
    Mr. Salesses. Sir, again, a little out of my purview. I 
will do the best I can. Normally it would be very similar to 
what we do here in defense support to civil authorities as it 
relates to disasters. Normally if the State and local need 
support, they go to the Federal department, in this case the 
Department of Homeland Security and DOJ and the FBI. Then in 
turn, if one of those Federal agencies didn't have the 
capability to assist in that regard and they needed DOD 
resources, they would come to us and we would support that 
Federal agency down to the State and local level.
    Mr. Langevin. Very good. Would GAO have something to say 
about that?
    Mr. Kirschbaum. Mr. Langevin, thank you for the question. 
We are actually currently starting work to look specifically at 
that issue, and our most recent work was from 2013. My 
understanding is there are still a lot of questions about just 
the things you are asking. We ask mostly, like at U.S. Northern 
Command, they understand that they are responsible for command 
and control of Federal forces that are applied to civil 
support, and this would be one of those cases.
    I think what the Department is working on is how that chain 
would work, where the request would go from Northern Command 
and others, who would it go to, what is the right scope of the 
operations in terms of what they would do. Those are all still 
under consideration.
    Mr. Langevin. I think these are obviously vitally important 
to get answered now since it is in the cyber domain, where 
milliseconds matter. How quickly we can work things out would 
be essential.
    Mr. Salesses. Congressman, if I could add, in this case, 
Cyber Command would be the supported combatant command, not 
NORTHCOM. So the bottom line is any request for cyber support 
from the Defense Department would come through the OSD element 
into the combatant command, in this case, Cyber Command, not 
NORTHCOM.
    Mr. Langevin. Very good.
    Well, my time has expired. I have a bunch of other 
questions. Maybe we will get to a second round. But thank you.
    I yield back.
    Ms. McSally. Thank you, Mr. Langevin.
    The Chair now recognizes Mr. Donovan from New York.
    Mr. Donovan. Thank you, Madam Chair.
    First of all, gentlemen, I would like to thank you. I 
represent Staten Island. For the people of my community who you 
came to help during our time of disaster--one of the things 
Government should do for their citizens is come to their aid in 
the time of disaster, and you did. So thank you on behalf of 
all the people of Staten Island and southern Brooklyn.
    I saw first-hand, sir, what you are talking about, pumping 
out those tunnels in my city. So I just wanted to take a moment 
to thank you.
    A lot of the questions I had were already asked, but I 
understand, when you were saying that you learned lessons from 
Katrina, that you applied to your methods in dealing with 
Superstorm Sandy and the aftermath there.
    Are there any things that you, now looking back--you said 
you would do an assessment afterward. Are there things, looking 
back now in the response to Sandy, that you wish you had known 
then to help back then 2\1/2\ years ago? Anyone.
    Mr. Salesses. Congressman, thank you for those comments.
    I think in disasters there is a common set of issues that 
we continually improve upon. The first is gaining situational 
awareness. Because of the Federalist system that we operate in, 
you can imagine how complex that is, the five boroughs of New 
York City and the ability to provide the insight from those 
boroughs to the mayor of New York City and then from the city 
to the State government in Albany and through that process. It 
is a very challenging process. So the ability to gain 
situational awareness for what is needed rapidly is a real 
challenge.
    The way that I believe--and I will let my friend Bob talk 
more about this. One of the things that FEMA has done is 
expanded their IMAT capability to include additional expertise. 
So when we send out an IMAT, which is basically an assessment 
team that FEMA has that works with the State and locals to 
determine that, I think it begins to gain that.
    But I think there is other improvements that can be made. I 
think the requirements generation process, for lack of a better 
term, the ability to generate the requests for assistance from 
the local to the State level and then from the State level to 
the Federal level, is quite a process. By using pre-scripted 
mission assignments, I think that is helping. But that can 
always be done better, in my view.
    I think the other thing that is key is the investment that 
we make in our partnerships on a daily basis. I think that is a 
key aspect of what we all do at the Federal, State, local 
level, private industry, volunteer organizations. I think it is 
critical to being successful in this area.
    Then the leadership. I can tell you, from my vantage point 
at the Defense Department, during that whole period of Sandy--
and Joe was there--the Secretary of Defense, the chairman of 
the joint chiefs, the service chiefs, the combatant commands--
NORTHCOM, TRANSCOM--all the most senior officials in the 
Defense Department met once, sometimes twice, a day to figure 
out how the Defense Department could be more effective.
    I think with FEMA providing the requests directly to the 
Defense Department for things that haven't even been asked for 
yet is very, very effective. Chief of the National Guard Bureau 
was in that meeting. Every day we would work together to figure 
out what we could do to be more effective.
    Mr. Fenton. I would just add, you know, as someone that has 
been at FEMA for 20 years and has been the operations chief for 
9/11 in New York at Ground Zero and Katrina in Mississippi and 
then was helping with Superstorm Sandy for the first week and a 
half there, in these events, in the early hours, there is a fog 
of war that happens.
    Our administrator all the way up to the President, you 
know, is--you know, we are going to preposition resources. In 
fact, our administrator says, ``Think big. Go big. Go fast. But 
be smart'' in what we do. So we are going to move to make sure 
we have the right resources from the Federal Government 
prepositioned, anticipating requirements.
    So, as this fog of war happens--and I think, you know, good 
Americans wanting to help other Americans in need respond to 
those. I think what we are trying to do now is do more 
deliberate planning--and I touched on that--not only doing it 
at the National level, but doing it really at the whole 
community level with States, local governments, private sector, 
nonprofits being part of that, to understand really what is the 
true capability, what are the gaps, so we can better determine, 
to Bob's point, what are the resource requirements, how do we 
better identify where they are coming from and logistics time 
frames and get them there to make a difference.
    So I think what we learned from Sandy, obviously, is the 
huge requirements from water and some of the other missions 
that we really didn't get into previously with better surge, 
better situational awareness, those kinds of things, that over 
the last 2 years we have improved tremendously.
    Mr. Donovan. Thank you.
    Ms. McSally. Thanks.
    The Chair is now going to recognize myself for a second 
round here. Just a couple of our Members, myself, and Mr. 
Langevin have a few follow-up questions.
    Mr. Salesses, I am equally as concerned as my colleague 
here about that cybersecurity is in somebody else's area of 
responsibility. Because when it comes to defense support to 
civil authorities, that is your duty title.
    So, if we have got rice bowls and stovepipes even within 
the Pentagon, I mean, this is a domain. Cyber is just one 
domain that we might be using the military to support other 
agencies.
    So I think we do need to follow up on that, even if it is 
not here, on where our shortfalls are. Because if that is not 
something squarely in your domain, then we are not thinking 
about that in the DSCA mission. Then we have got to figure out 
how to break down those stovepipes.
    So any further comments on that?
    You know, similarly, it is really important--look, I have 
been in the military. So stovepipes, bureaucracies, lack of 
nimbleness, turf battles, I mean, this is part of our tribal 
culture, and it often inhibits our ability to be able to 
respond quickly to do things well.
    Certainly, as we have seen from all of you today, the tight 
coordination with State, National Guard, and the Federal level 
is really important in a situation like this.
    Even in preparation for this hearing--I mean, one of the 
reasons we have two panels is because, to my understanding, Mr. 
Salesses, your office didn't even want to be on a panel with my 
adjutant general because they are a State person with a Federal 
person sitting next to them. God forbid. We have a State and a 
Federal person sitting next to each other on a panel for a 
hearing on a topic like this.
    So that just makes me concerned about, you know, the 
integration still not being where it needs to be for something 
that is really important. So I just wonder if you could comment 
on that.
    Mr. Salesses. Absolutely. Again, it is a National response 
system. I understand the value of not just the Federal 
partners, the State partners, the local partners, private 
industry. I actually sit on the National Advisory committee for 
FEMA, and there is a cross-section of State, local, Federal, 
private, volunteer organizations.
    I have great appreciation for the fact that we need to 
coordinate and integrate well, and I spend a lot of time doing 
that. This past Wednesday I was in Minneapolis speaking to all 
the new State emergency managers. Bryan Koon is the president 
of NEMA, National Emergency Managers Association, is a good 
friend and somebody I spent a lot of time with.
    In fact, Bob and I in March, along with Don Boyce from HHS, 
were on a panel. We spent a lot of time trying to educate and 
inform and learn from those at the State and local level and at 
private industry and how they can help. A couple weeks ago I 
had the president of the International Association for 
Emergency Managers in my office at the Pentagon.
    Because, as you look at the municipalities and the major 
cities, their emergency management community is different than 
the State emergency NEMA. So it is the ability to bridge all 
that together and to take the opportunity to explain what the 
Defense Department can do greatly, more than just our military 
capabilities.
    I can't overemphasize our ability to bring other 
capabilities to bear on these kinds of events. It is an 
education. It is a training. It is a planning. We have done a 
lot to integrate planning.
    The Department invested heavily in the Joint Force 
Headquarters-NCR, which is at the State level, and working on 
an initiative with Secretary Panetta, Secretary Hagel, and now 
Secretary Carter, the Complex Catastrophe Initiative. We 
focused on integrative planning.
    DOD is unique because of the Joint Force Headquarters-
State. We have folks at the State level. We have folks at the 
regional level. We have folks at the Federal level with 
NORTHCOM and PACOM. So the ability to integrate that kind of 
planning is very unique, and we have done those kinds of 
things.
    Ms. McSally. Great. Thanks. I mean, I appreciate that 
perspective. I am just trying to wrap up here quickly.
    Just one final quick question is--you know, one of the 
greatest abilities we need in a disaster is situational 
awareness using surveillance capabilities, and manned and 
unmanned aircraft can help with that. I know there has been 
some challenges in the past domestically with the use of 
unmanned aircraft because of the FAA restrictions.
    Where are we on that right now? If we had a disaster, are 
there quick emergency authorities so that we could use the 
unmanned aircraft to be able to provide that situational 
awareness where we currently can't because of the FAA 
restrictions?
    Mr. Salesses. As you may or may not know, we did UASs in 
the fire season last year in California. But as we spoke about 
the DSCA EXORD, we also have a military capability, manned 
capability, available immediately to do the kind of wide-area 
awareness that is needed in these kinds of disasters.
    We also have NGA, the National Geospatial Intelligence 
Agency, which has incredible capability and uses commercial 
satellites and is able to do the kinds of things that we need 
in that area.
    Ms. McSally. But do we have procedures in place? I mean, it 
is very restrictive right now as to where drones can fly. So do 
we have procedures in place to break glass and allow them to 
provide that unique capability?
    Mr. Salesses. We actually published domestic use of UAS 
guidelines. It talks specifically about how UASs can be used in 
DSCA events. I would be glad to share that with you and your 
staff.
    Ms. McSally. Great. Thank you.
    So my understanding is Mr. Langevin now has more questions.
    Mr. Langevin. Sure. Thank you, Madam Chair.
    Again to our panel, thank you for your testimony today.
    I guess I will go back to this and just work this through. 
You know, maybe it is because cyber--and, actually, use of 
cyber tools in an attack that would cause physical damage 
thankfully hasn't happened to any significant degree here in 
the United States. It is kind of unchartered territory.
    But, obviously, anticipating things ahead of time is 
essential because I think it is just a matter of when and not 
if something like that could happen, as we have seen on a 
number of cases in other places around the world where these 
things have happened.
    But I would like to say, you know, if you are a State EMA 
director, you know, you are used to dealing with, whether it is 
FEMA or NORTHCOM, who then do they turn to in a related cyber 
event like this where it may have multiple interactions, if you 
will?
    You may have physical damage to recover from, say, a 
turbine or if a generator goes down, but then you also have to 
ensure that the adversaries are not still on your network. So, 
therefore, who do you recommend that a State EMA director would 
turn to?
    Mr. Fenton. So State emergency management I think has two 
different avenues to go on this. One that affects is us, you 
know, the consequences. With regard to the threat, they are 
coordinating through DHS' Office of National Preparedness 
Protection.
    Specifically the NCIC, there is the cyber center within DHS 
that coordinates the State emergency management, and also then 
the FBI obviously would be involved in that. Those are the two. 
They coordinate with the rest of the cyber centers within the 
Federal Government to then coordinate and communicate those 
threats.
    Mr. Langevin. So, obviously, that goes to the fact that 
they would go to people they have dealt with in the past. But I 
don't know that--it seems like it hasn't yet been 
institutionalized that an EMA director would know who to go to 
in the event of a cyber-related incident.
    Let me just ask this. Again, when things move very quickly, 
what, if any, of this has been exercised? How is the DOD 
adjusting its annual exercise program to account for this type 
of a new eventuality?
    Mr. Salesses. Again, Congressman, not an expert in the 
cyber area. But we do have, obviously, CYBERCOM and the whole 
office and the OSD staff that deals with cyber.
    But right now, for example, there is an exercise on-going 
called CYBERCOM and NSA--CYBERCOM, rather--it is called--Cyber 
Guard is the exercise. Cyber Command and the National Guard 
Bureau are running an exercise for the next 2 weeks focused on 
cyber, specifically how to deal with the cyber threat, the 
cyber intrusion, and those kinds of things.
    It doesn't focus on the consequences of an event where 
infrastructure may be impacted, but does focus on the issue 
that you keep raising, is: How do State and local connect at 
the Federal level to get support from the Federal Government?
    As Bob mentioned, it would be through DHS and the NCIC and 
DOJ. Then, if support was needed from DOD, DOD would make that 
support available through CYBERCOM and DHS and DOJ, in 
particular, FBI. But there is an on-going exercise. I would be 
glad to provide that information to your staff.
    Mr. Kirschbaum. Mr. Langevin, this is an excellent example 
of what we have been talking about, the need to really continue 
the diligence on the planning.
    As Cyber Command gets the cyber mission teams established 
and going, the command and control for them, the structure, 
this is the kind of thing throughout the Department that they 
need to determine--who does what, who is supposed to do what--
so, when that connection happens during a major disaster, when 
forces are already deployed in the field to assist civil 
authorities, when requests come to them, they know who to send 
them to and when and how that goes.
    So that is a lot of internal duties to work on, and then 
that external piece is going to have to be a major priority.
    Mr. Langevin. Sure. Sure. Well, that is part of what we are 
going to ensure in our oversight responsibility, is to make 
sure that we are working these things through.
    I sit on the Armed Services Committee and am the Ranking 
Member that oversees Cyber Command and NSA. I am going to be 
sure that we press these issues there as well to work out these 
things sooner rather than later so that, in the event that 
something happens, the questions have already been answered.
    Thank you to our panel.
    Madam Chair, I yield back.
    Ms. McSally. Thank you.
    I want to thank these witnesses for their valuable 
testimony on our first panel. This panel is dismissed.
    The clerk will now prepare the witness table for our second 
panel.
    Ms. McSally. All right. I would like to welcome our second 
panel to today's hearing. Thank you all for participating.
    Major General Michael McGuire is Arizona's adjutant general 
and currently serves as the director of the Arizona Department 
of Emergency and Military Affairs. In this capacity, he is 
responsible for managing the day-to-day activity of Arizona's 
Army and Air National Guard's joint programs and the Division 
of Emergency Management.
    Mr. James Gianato serves as the homeland security advisor 
for the State of West Virginia, a position he has held since 
December 2010. In this capacity, he also serves as the chairman 
of the State Emergency Response Commission.
    Mr. Gianato has 35 years of experience in emergency 
response, which includes service as the director of 9-1-1 and 
emergency services in McDowell County and active membership in 
the Kimball Volunteer Fire Department. Mr. Gianato is 
testifying on behalf of the National Emergency Management 
Association.
    I now recognize the gentleman from Rhode Island, Mr. 
Langevin, to introduce our final witness.
    Mr. Langevin. Thank you, Madam Chair.
    Welcome to our panel. I, in particular, just want to thank 
you for the opportunity to say a few words of introduction 
about Mr. Gaynor from my home State of Rhode Island.
    Pete Gaynor has spent his career in public service, first 
as a Marine, where he rose to the rank of colonel, and more 
recently as an emergency manager. From 2008 to 2014, Pete 
served as the director of the City of Providence's Emergency 
Management Agency, where he was widely lauded for 
professionalizing its operations.
    Last December Pete was appointed by Governor Gina Raimondo 
as the head of the Rhode Island Emergency Management Agency, 
where he immediately helped lead the response to the January 
blizzard and the many blizzards and significant storms after 
that, as a matter of fact. I also want to add that Pete is also 
an alumnus of our Rhode Island College. Good to see a fellow 
alum here.
    I welcome you, Mr. Gaynor, as well as our panel, and I look 
forward to hearing your testimony as well as our other 
witnesses.
    With that, I yield back.
    Ms. McSally. Thank you.
    The witnesses' full written statements will appear in the 
record.
    The Chair now recognizes General McGuire for 5 minutes.

  STATEMENT OF MAJOR GENERAL MICHAEL T. MCGUIRE, THE ADJUTANT 
GENERAL, DEPARTMENT OF EMERGENCY AND MILITARY AFFAIRS, STATE OF 
                            ARIZONA

    General McGuire. Good morning, Madam Chairman. Thank you 
for the opportunity.
    Distinguished Members of the panel, I appreciate the 
opportunity to appear before you today on behalf of Governor 
Ducey, serving in his cabinet as the director of emergency 
management and military affairs, serving also concurrently as 
the adjutant general for the nearly 8,200 soldiers and airmen 
of the Arizona Army and Air National Guard.
    I want to take the opportunity to quickly just talk through 
a couple of things. I did provide a visual aid up there today 
that I will refer to at least once when we talk about why the 
Guard is the first choice and put it in military parlance for 
the Chairman's reference, as she talked about being forward-
deployed and rice bowls and stovepipes that exist in the 
military.
    Then I will take the last couple minutes of my time to try 
to reference a couple of the questions about cyber and some of 
the questions that have come up from the other Members in the 
name of time and then, hopefully, get your questions.
    On the historic perspective, I think it is important for us 
to understand that the National Guard has been at this mission 
for 379 years, dating back to the Pequot wars of 1634 and the 
appointing of the first adjutant general in the Massachusetts 
Bay Colony in 1636.
    That is important to understand. You know, there is a lot 
of confusion about why the Guard, what the existence of the 
Guard is about, and, truly, it is the father of the modern 
United States Army. As we have evolved in the Guard, we have 
been involved and will continue to be involved in every major 
conflict since 1634 to the current overseas contingency 
operations.
    We look at the Guard very clearly as an organization that 
has to train for what we believe to be the most demanding and 
complex mission, but can instantly pivot to respond to support 
the States and the citizens under the command of the Governor 
at a moment's notice. So, when you hear people say that the 
Guard is the first choice, it is the first choice because of 
that slide.
    Now, that slide doesn't have every single armory 
installation around the country. But you can see every one of 
those stars represents an area where there is a prepositioning 
of National Guard equipment and personnel that can be called at 
a moment's notice to meet an emergent response in a State and 
local community.
    In a military sense, the Guard is prepositioned. They are 
forward-deployed. In Arizona, for example, members of the 
Arizona National Guard hail from all 15 counties in the State.
    In my role as State emergency manager, I understand better 
than anyone that those 15 county emergency managers work with 
their local incident management system and their first 
responders, police and fire, and that every single emergency is 
a critical action and that, while we train for the most complex 
mission, the most emergent really will be supporting our 
citizens.
    So that is why you hear that the Guard is the first choice. 
They are just out there. They are out there in every community, 
and they are able to respond. They have these relationships 
with local community responders, as well as bringing their 
civilian skills as citizen soldiers and airmen, to the fight. 
Carpentry, plumbing, legal, contracting, whatever it might be, 
the Guard is expertly designed to be able to do both missions.
    The final thing is that, because we are prepositioned, we 
have a huge base of tactical knowledge about at-risk areas, 
understanding the local geography and lay of the land, areas 
where flooding is most prone to occur, areas where we have had 
issues with power grids and those types of things in the past. 
So that is really why the Guard is critical.
    As a preferred choice, the Guard has statutory reasons, as 
has been mentioned, under Posse Comitatus that makes it very 
clear under Title 10 we are very restricted when Federalized.
    But operating under the Governor's authority under Title 
32, where Federal resources are provided, or State Active-Duty 
where State resources are provided, the Guard provides a huge 
swing capability that we cannot tap into in our Title 10 
forces.
    Just some quick closing comments on two issues that were 
touched on here, the CBRN enterprise. As we get ready in the 
Armed Services Committee for the mark-ups, it is important for 
all the Members to understand that 80 percent of the CBRN 
capacity is currently resident in the National Guard Army or 
Air. So any indiscriminate cuts to force structure need to be 
reviewed by anybody that is working on the Homeland Security 
side to make sure that that CBRN response capacity is not 
affected.
    When we look at future missions--cyber, RPA, firefighters 
en masse--the use of Title 32 funding and the ability to 
quickly respond is something that is yet to be clearly defined, 
as we saw from the earlier testimony, first that I have heard 
that Cyber Command will be taking the lead in the event of an 
emergency response in the cyber domain in the States.
    So I am more than happy to answer your questions, and I 
yield the final 17 seconds of my time to my colleagues from 
Rhode Island and West Virginia.
    [The prepared statement of General McGuire follows:]
                Prepared Statement of Michael T. McGuire
                             June 10, 2015
                            introduction \1\
---------------------------------------------------------------------------
    \1\ Maj Gen McGuire submits this written testimony and 
corresponding oral testimony in his State capacity as the director of 
the Arizona Department of Emergency and Military Affairs and on behalf 
of the Governor of the State of Arizona. Neither the written testimony 
nor Maj Gen McGuire's oral statements to the subcommittee have been 
reviewed by the Department of Defense.
---------------------------------------------------------------------------
    As the number of overseas deployments of U.S. forces continues to 
decline, the focus of military planners has begun to shift to domestic 
operations to include disaster preparedness, emergency response, and 
homeland security. But the military departments' renewed focus on 
domestic operations merely highlights a mission that the National Guard 
has capably executed for the past 379 years. The National Guard has 
performed this critical domestic response duty while simultaneously 
engaging in combat operations around the globe. From the Pequot War in 
1634 to the current Overseas Contingency Operations, National Guard 
troops have been involved in every major military campaign in this 
Nation's history. Thus, the National Guard is uniquely trained and 
situated as the first line of support to the Nation's communities if 
first responders and local resources are overwhelmed.\2\
---------------------------------------------------------------------------
    \2\ See ADP 3-28, Defense Support of Civil Authorities, July 2012 
(``Most domestic disasters require no Federal military assistance. 
State and Federal emergency management agencies receive the military 
assistance needed from the National Guard in State active duty or Title 
32 status.'').
---------------------------------------------------------------------------
    The National Guard is the modern-day militia, the formation of 
which predates the founding of our country. The Massachusetts National 
Guard traces its lineage to the first regiments established by the 
General Court of the Massachusetts Bay Colony in 1636. Each of the 
States, the U.S. territories and the District of Columbia (referred to 
herein as ``the States'') have equally rich histories. Militia units 
patterned after the English militia system were common throughout the 
colonies and played a central role in our Nation's fight for 
independence. They also assured the security of new States as the 
Nation expanded westward. Because of the critical militia role in the 
birth and expansion of our Nation, the right of the States to raise, 
maintain, and employ their own military forces (known since 1824 as the 
``National Guard'') is guaranteed by the U.S. Constitution and the 
constitutions and statutes of the several States.\3\
---------------------------------------------------------------------------
    \3\ The majority of this paragraph taken by permission from Major 
General (Retired) Timothy J. Lowenberg, The Role of the National Guard 
in National Defense and Homeland Security, http://www.ngaus.org/sites/
default/files/pdf/primer%20fin.pdf (last visited June 6, 2015).
---------------------------------------------------------------------------
    Consistent with the citizen-soldier model of the early militias, 
the present-day National Guard is embedded in the local communities. 
The Soldiers and Airmen that comprise the National Guard are members of 
the communities--policemen and firemen, small business owners, 
carpenters, civil engineers, plumbers, and mechanics. This fact 
provides intangible benefits. First, response time during an emergency 
is much shorter for National Guard troops than their Federal 
counterparts because the majority of Guardsmen are already located in 
and around the affected area. Second, relationships already exist 
between Guardsmen and local officials, first responders and residents 
because, again, the Guardsmen live and work in the community. Third, 
affected communities benefit from a response force that can bring not 
only military capabilities but also civilian skills such as carpentry, 
mechanical, civil engineering, and business negotiation. And fourth, 
National Guard troops have home-town familiarity with the geographic 
layout of the affected community, combined with an understanding of the 
most at-risk areas. Put another way, with nearly 3,300 installations in 
2,700 communities around the country, the National Guard is America's 
``forward-deployed'' homeland response force.\4\ Accordingly, any 
proposal to impose ``proportionate'' cuts on the various military 
branches must consider the effect an arbitrary cut would have on this 
critical homeland response force.
---------------------------------------------------------------------------
    \4\ See Exhibit 1.
---------------------------------------------------------------------------
      the national guard as the preferred domestic response force
    Disasters typically begin and end locally, and most are managed at 
the local level. It is therefore the goal of any emergency response 
plan to be able to resolve an event at the lowest possible level of 
jurisdiction--our cities and counties. Local first responders are the 
first line of defense during any emergency or disaster that strikes our 
homeland. The Nation's local first responders are supported by the 
``Whole Community,'' a concept that recognizes preparing for and 
responding to emergencies is the collective responsibility of our 
citizens, local governments, faith-based and non-profit organizations, 
and the private sector in conjunction with State, Tribal, and Federal 
government agencies. The Whole Community concept is essential to the 
National Preparedness System. Developed in response to Presidential 
Policy Directive 8: National Preparedness, the National Preparedness 
System is based upon and driven by the National Preparedness Goal--``A 
secure and resilient Nation with the capabilities required across the 
whole community to prevent, protect against, mitigate, respond to, and 
recover from the threats and hazards that pose the greatest risk.'' The 
existing National Incident Management System (NIMS) provides the 
foundation on which the National Preparedness System is built, and has 
developed over time to guide the Whole Community in the response and 
management of a disaster or emergency, from local first responders and 
across all levels of government, while recognizing the sovereignty and 
responsibility of State.
    The National Preparedness System is broken into five preparedness 
frameworks: Prevention, Protection, Mitigation, Response, and Disaster 
Recovery. The National Response Framework provides the structure to 
enable the Whole Community response. Local first responders address 
nearly 85% of the disasters and emergencies that impact our communities 
on daily basis.\5\ Occasionally, disasters and emergencies occur that 
exceed the resources and abilities of our local first responders; and 
in those rare cases where our first responders are not sufficiently 
able to respond and recover from a disaster or emergency the response 
escalates to higher levels of government through the National Response 
Framework--first the State, then multiple States, and finally Federal. 
This scalability is the essential strength of the National Incident 
Management System, and enables the Whole Community to meet and manage 
incidents involving all threats and hazards--regardless of cause, size, 
location, or complexity. Although the scalability includes the ability 
to integrate national resources, the National Incident Management 
System and National Response Framework respect the sovereignty of the 
States and recognize that command and control of the disaster or 
emergency response remains with the State(s) or lowest level of 
jurisdiction.
---------------------------------------------------------------------------
    \5\ Lt Col Mike Domingue, New Hampshire National Guard, ``National 
Guard Civil Support,'' National States Geographic Information Council, 
http://www.nsgic.org/public_resources/Sun-Dominge-National-Guard-
Briefing-for-NSGIC.pdf (last visited June 6, 2015). 
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    As an event grows in size or complexity, the National Response 
Framework guides the incorporation of additional resources from the 
Whole Community to respond, from city to county and then to the State 
level. At the State level, the incident is managed through the State's 
emergency manager and no matter how large or small the incident 
becomes, the State remains in control of all response assets, Federal 
or otherwise. There are three models for the State emergency manager 
found among the States and territories. A majority of the States and 
territories, 37, have a stand-alone emergency manager, five States 
assign the Adjutant General of the National Guard the dual role of 
State emergency manager, and 12 States assign the Adjutant General the 
roles of State emergency manager and homeland security advisor.\6\ The 
Governor ultimately exercises command and control of the response to an 
emergency or disaster through his or her emergency manager. As a State 
institution, one of the tools available to the Governor is his or her 
National Guard, and the Governor can task the National Guard to provide 
Military Support for Civil Authorities (MSCA) missions to help in the 
response. In addition, the Governor can request assistance from 
neighboring States through the Emergency Management Assistance Compact 
(EMAC), which has been ratified by all States and territories.
---------------------------------------------------------------------------
    \6\ See Exhibit 2.
---------------------------------------------------------------------------
    If the event exceeds the resources and ability of the State to 
respond, the Governor will then request assistance from the Federal 
Government through FEMA. It is important to note that the resourcing 
agent for all Federal resources, including requests for support from 
the U.S. Department of Defense (DOD) not related to the State's 
National Guard MSCA mission, is FEMA. Despite the DOD's ``immediate 
response'' authority, FEMA manages and assigns requests for Federal 
assistance to the most capable organization.\7\
---------------------------------------------------------------------------
    \7\ DOD Directive 3025.18, also known as the ``Immediate Response 
Authority,'' grants Federal military commanders and/or responsible DOD 
civilian officials the ability to act from a request by a competent 
civilian authority to save lives, prevent human suffering, or mitigate 
great property damage within the United States.
---------------------------------------------------------------------------
    Capability is more than force structure: It is the ability to 
provide the most effective, versatile, scalable support to the local 
community--the type of support only found in the National Guard. In the 
5% of emergencies and disasters that require assistance beyond the 
resources and capabilities provided by the National Guard, neighboring 
States, and non-DOD Federal agencies, FEMA will task the DOD to 
respond.\8\ The request for DOD resources, however, does not transfer 
command and control of the incident to the DOD. Instead, in a properly-
executed response to an emergency or disaster, it brings those DOD 
resources to the incident and works at the direction of the Governor 
and State emergency manager through a Dual-Status Commander as part of 
the National Response Framework. Despite the additional resources that 
the DOD brings, its support to civil authorities is slow and mission 
assignment cumbersome because providing those resources requires 
Secretary of Defense authorization. The National Guard, because it is 
locally based and responsive to the State, is the first line of support 
to your constituents' first responders once local resources are 
overwhelmed. Beyond being the first choice, it is also most appropriate 
choice based on applicable legal authorities.
---------------------------------------------------------------------------
    \8\ Domingue.
---------------------------------------------------------------------------
           the role of the national guard in dsca operations
    National Guard (NG) units, under the control of their respective 
State Governor and their ``The Adjutants General'' (TAGs), have 
traditionally been the primary military responders in domestic 
operations and emergencies. The use of Federal forces to support State 
and local governments was, and remains, the exception rather than the 
rule. Federal forces are generally used only after State resources are 
exhausted or overwhelmed and Federal assistance has been requested by 
State officials.\9\
---------------------------------------------------------------------------
    \9\ DR Dave Sherry and LCDR Robert Pirone, Domestic Operational Law 
Handbook (CLAMO, The Judge Advocate General's Legal Center and School, 
U.S. Army, Charlottesville, Virginia, 2013), 3.
---------------------------------------------------------------------------
    As detailed above, management of natural disasters and similar 
incidents is based upon the principal of ``tiered response.'' Pursuant 
to that concept, response and support to affected areas begin at the 
lowest level of Government and escalate to the next tier based upon 
requirements. Each successive level of Government maintains enough 
capability to carry out the responsibilities imposed upon it by law. 
Each has some reserve capability to address exceptional circumstances 
that occur within its jurisdiction. When an incident overwhelms the 
capacity of any level of Government, it calls upon the next higher 
level of Government for support. The key players in the tiered response 
framework are local, Tribal, State, and Federal governments.\10\
---------------------------------------------------------------------------
    \10\ ADP 3-28, 3.
---------------------------------------------------------------------------
    To understand the role of the National Guard in National defense 
and homeland security, one must understand the Constitutional and 
statutory provisions governing use of military force by the Federal and 
State governments. Governors and Federal officials must also have a 
clear understanding of current and evolving National defense and 
homeland security strategies and the organizational structure, funding 
sources, and operational capabilities of today's Army and Air National 
Guard.\11\
---------------------------------------------------------------------------
    \11\ Lowenberg, 1.
---------------------------------------------------------------------------
    Several statutes govern the use of military forces in response to a 
natural or man-made disaster. The first is the Stafford Act.\12\ The 
Stafford Act is the primary legal authority for Federal emergency and 
disaster assistance to State and local governments. It authorizes the 
President to issue major disaster declarations and authorizes Federal 
agencies to provide assistance to States overwhelmed by disasters. Most 
of the Stafford Act provisions come into play after an emergency 
request from a State's Governor. The Stafford Act also sets the 
guidelines for reimbursements from Federal funds to Federal agencies 
and States. As is the case with many of the legal authorities governing 
disaster relief, the Stafford Act ``is based on the premise that most 
incidents begin and end locally and are managed on a daily basis at the 
lowest possible geographical, organizational, and jurisdictional 
level.''\13\
---------------------------------------------------------------------------
    \12\ The Robert T. Stafford Disaster Relief and Emergency 
Assistance Act, 42 U.S.C.  5121, et seq., as amended by the Post-
Katrina Emergency Management Reform Act of 2006, Pub. L. No. 109-295 
(2007), and the Sandy Recovery Improvement Act of 2013, Pub. L. No. 
113-2 (2013).
    \13\ Sherry and Pirone, 25.
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    One of the oldest and most restrictive of the laws applicable to 
Defense Support to Civilian Authorities is the Posse Comitatus Act 
(PCA).\14\ The PCA prohibits the use of Federal troops for law 
enforcement purposes, with some limited exceptions. But while the PCA 
restricts the use of Federal troops in law enforcement roles, such as 
traffic control points or patrolling in the aftermath of a disaster, 
National Guard troops serving in their State capacities are exempt from 
the restrictions of the PCA. The Federal versus State characteristics 
of the National Guard are discussed in greater detail below.
---------------------------------------------------------------------------
    \14\ 18 U.S.C.  1385.
---------------------------------------------------------------------------
    One of the few exceptions to the PCA's prohibition on use of 
Federal troops for law enforcement purposes is the Insurrection 
Act,\15\ which permits the President to use the armed forces to enforce 
the law when: (1) There is an insurrection within a State, and the 
State legislature (or Governor if the legislature cannot be convened) 
requests assistance from the President; (2) a rebellion makes it 
impracticable to enforce the Federal law through ordinary judicial 
proceedings; or (3) an insurrection or domestic violence opposes or 
obstructs Federal law, or so hinders the enforcement of Federal or 
State laws that residents of that State are deprived of their 
Constitutional rights and the State is unable or unwilling to protect 
these rights.\16\
---------------------------------------------------------------------------
    \15\ 10 U.S.C.  331-334.
    \16\ Sherry and Pirone, 82 (citing 10 U.S.C.  331-333).
---------------------------------------------------------------------------
    As a unique State-based military force (albeit largely funded by 
the Federal Government and trained in accordance with Federal 
standards), the National Guard is the only military force shared by the 
States and the Federal Government. It is a ready operational force 
accessible to the States for both State and combined State and Federal 
purposes and to the Federal Government for Federal purposes.\17\
---------------------------------------------------------------------------
    \17\ This paragraph taken in its entirety by permission from 
Lowenberg, 1.
---------------------------------------------------------------------------
State Active Duty
    States are free to employ their National Guard forces under State 
control for State purposes and at State expense as provided in the 
State's Constitution and statutes. In doing so, Governors, as 
commanders-in-chief, can directly access and utilize the Guard's 
Federally-assigned aircraft, vehicles, and other equipment so long as 
the Federal Government is reimbursed for the use of fungible equipment 
and supplies such as fuel, food stocks, etc. This is the authority 
under which Governors activate and deploy National Guard forces in 
response to floods, earthquakes, wild fires and other natural 
disasters. It is also the authority under which Governors deploy 
National Guard forces in response to human-caused emergencies such 
riots (e.g., World Trade Organization meeting, Seattle, 1999), civil 
unrest (e.g., World Bank meeting, District of Columbia, 2000) and 
terrorist attacks (e.g., World Trade Center attacks, New York City, 
Washington DC and Pennsylvania, September 11, 2001). Unlike active-duty 
and Federal military reserve forces such as the Army and Air Force 
Reserves, all National Guard personnel and equipment (or so much 
thereof as are not already ``Federalized'') are directly accessible to 
the Governor in State or local emergencies and as otherwise provided by 
State law. Such service is performed in accordance with State law; 
National Guard members performing duty at the call of the Governor are 
therefore said to be in ``State Active-Duty status'', meaning, among 
other things, that command and control rests solely with the Governor 
and the State or territorial government. Execution of State active-duty 
missions is accomplished by delegation of authority from the Governor 
to the adjutant general.\18\
---------------------------------------------------------------------------
    \18\ Ibid, 2.
---------------------------------------------------------------------------
Title 32 Duty
    The Militia Clause found in Article 1, Section 8 of the U.S. 
Constitution also authorizes use of the National Guard under continuing 
State control but in the service of the Federal Government to ``execute 
the laws of the Union, suppress insurrections and repel invasions''. 
These provisions are unique to the National Guard and are the authority 
by which Governors answered the President's request for deployment of 
National Guard forces to our Nation's airports following the terrorist 
attacks of September 11, 2001. State-controlled National Guard forces 
were deployed by Governors at Federal expense and in compliance with 
prescribed Federal operational standards to assure aerial port security 
and compliance with Federal inter-State commerce and aviation laws. 
Unlike subsequent border security missions (described below), National 
Guard forces mobilized within hours and promptly deployed to airports 
where they remained under State control for the duration of the 6-month 
airport security mission. These arrangements preserved State-level 
management of National Guard personnel and assured maximum flexibility 
for responding to other unforeseen or emerging State and Federal 
requirements.\19\
---------------------------------------------------------------------------
    \19\ Ibid.
---------------------------------------------------------------------------
    These and similar domestic military missions have been performed by 
the National Guard at various times since September 11, 2001 under the 
authority of Title 32, section 502(f) of the United States Code (USC); 
National Guard members performing such duty are therefore commonly said 
to be serving in ``Title 32 duty status'', meaning, among other things, 
that command and control remains with the Governor and the State or 
territorial government even though the Guard forces are being employed 
``in the service of the United States'' for a primary Federal purpose 
or a shared State-Federal purpose.\20\
---------------------------------------------------------------------------
    \20\ Ibid.
---------------------------------------------------------------------------
    Notwithstanding clear Constitutional authority for these 
arrangements (State control of Guard operations having a primary 
Federal purpose or a shared State-Federal purpose), DOD officials 
frequently questioned the Guard's statutory authority for Title 32 
domestic operations. Statutory authority for National Guard training at 
Federal expense is clear. The argument, however, was that 32 USC 
502(f), which authorizes use of the National Guard at Federal expense 
but under continuing State control for ``training or other duty'' is 
somehow intended to authorize training only, as opposed to duties such 
as military support to civil authorities. Some of these DOD officials 
therefore questioned President Bush's request for National Guard Title 
32 operational assistance at the Nation's airports in 2001-2002, 
subsequent support for Federal border security agencies and other 
periodic National Guard assistance to Federal and State civil 
authorities. Enactment of 32 USC 901 et. seq., resolved much of this 
claimed ambiguity by authorizing the Secretary of Defense to ``provide 
funds to a Governor to employ National Guard units or members to 
conduct homeland defense activities that the Secretary determines to be 
necessary and appropriate.'' See 32 USC 902.\21\
---------------------------------------------------------------------------
    \21\ Ibid.
---------------------------------------------------------------------------
    The statute defines ``homeland defense activities'' as activities 
``undertaken for the military protection of the territory or domestic 
population of the United States, or of the infrastructure or other 
assets of the United States determined by the Secretary of Defense as 
being critical to National security, from a threat or aggression 
against the United States.'' (32 USC 901(1)). The Secretary of Defense 
may request domestic use of National Guard forces and fund such 
operations (as was done with the Governors' support for airport 
security in 2001-2002). ``A Governor of a State may [also] request 
funding assistance for the homeland defense activities of the National 
Guard of [their] State.'' (32 USC 906). 32 USC 901 et seq. explicitly 
authorizes use of the National Guard under continuing State control but 
at Federal expense, when approved by the Secretary of Defense, for a 
wide variety of operations, including, when appropriate, protection of 
oil refineries, nuclear power plants and other critical infrastructure 
and responding to catastrophic natural disasters and adaptive human 
threats.\22\
---------------------------------------------------------------------------
    \22\ Ibid.
---------------------------------------------------------------------------
Title 10 Duty
    The War Powers Clause of the U.S. Constitution grants the Federal 
Government plenary authority to raise military forces and to employ 
such forces, including mobilized (sometimes referred to as 
``Federalized'') National Guard units, under Federal control and at 
Federal expense for National defense purposes. This is the authority 
under which the Federal Government mobilizes and deploys National Guard 
units and personnel for combat, combat support, and combat service 
support missions at home and throughout the world. Such service is 
performed under the authority of Title 10 USC; service members 
performing such duty are therefore commonly said to be in ``Title 10 
duty status'', meaning, among other things, that command and control 
rests solely with the President and the Federal Government.\23\
---------------------------------------------------------------------------
    \23\ Ibid, 3.
---------------------------------------------------------------------------
    Since the Army, Navy, Air Force, Marine, and Coast Guard Reserves, 
like their active-duty counterparts, are Federal military forces wholly 
controlled by the Federal Government, they are not directly accessible 
by Governors and duty performed by such personnel is always in ``Title 
10 status''. When performed within the United States, Title 10 duty 
(including Title 10 duty performed by National Guard personnel) is 
subject to a number of legal restrictions, including, as stated above, 
provisions of the Posse Comitatus Act (18 U.S.C. 1385), which severely 
limit the use of Federal military forces in support of domestic law 
enforcement operations.\24\
---------------------------------------------------------------------------
    \24\ Ibid.
---------------------------------------------------------------------------
    When employed at home or abroad in Title 10 status, National Guard 
forces are stripped of all State control and become indistinguishable 
elements of the Federal military force. This was the authority used by 
the Federal Government to mobilize and deploy National Guard forces to 
augment Federal law enforcement agencies at the Canadian and Mexican 
borders in the spring and summer of 2002. In stark contrast to the 
speed and efficiency with which Governors deployed National Guard 
Soldiers and Airmen to airports (more than 450 airports were secured 
within a matter of hours or days), it took more than 6 months for the 
DOD to agree to a Memorandum of Understanding with the U.S. Border 
Patrol and increased security at our Nation's borders was delayed until 
these negotiations and legal arrangements had been finalized.\25\
---------------------------------------------------------------------------
    \25\ Ibid.
---------------------------------------------------------------------------
Duty Statuses Summarized
    Federal and State constitutions and statutes provide the primary 
authority for use of military force by the Federal and State 
governments. These provisions, in-so-far as they apply to the National 
Guard, reflect the Constitutional balance of power between the 
sovereign States and the central Federal Government. National Guard 
forces are unique among all other military components in that they may 
be used in one of three legally distinct ways:
    (1) by the Governor for a State purpose authorized by State law 
        (State Active Duty); or
    (2) by the Governor, with the concurrence of the President or the 
        President's designee (e.g., the Secretary of Defense), for 
        shared State/Federal purposes or for a primary Federal purpose 
        (Title 32 Duty); or
    (3) by the President for a Federal purpose authorized by Federal 
        law (Title 10 duty).\26\
---------------------------------------------------------------------------
    \26\ See Exhibit 3.
---------------------------------------------------------------------------
    When in State Active-Duty or Title 32 status, National Guard forces 
remain under the operational, tactical, and administrative control of 
the Governor and the State government. This authority is reposed in the 
Governor as commander-in-chief and executed by the adjutant general, as 
the State's senior military commander. By contrast, Title 10 military 
forces (active-duty, reserve, and ``Federalized'' National Guard 
forces) are under the exclusive control of the President and the 
Federal Government and are beyond the access, control, or supervision 
of the Governor even when operating within his or her State.\27\
---------------------------------------------------------------------------
    \27\ Ibid.
---------------------------------------------------------------------------
                   the dual-status commander concept
    In responding to a complex catastrophe, there is a potential for 
confusion in the chain of command between the response initiated at the 
State-level National Guard forces, and the Federal active-duty and 
reserve forces provided by the DOD for DSCA operations. In reviewing 
the responses to modern catastrophes, the first lesson learned to 
preserve the respect for civil authorities is establishing a clear 
chain of command. Second, coordination and operational unity of effort 
between the State and Federal efforts must be maintained. Finally, 
imposing multiple voices from different uniformed services on stressed 
local, State, and Federal civilian agencies must be avoided.\28\
---------------------------------------------------------------------------
    \28\ Ryan Burke and Sue McNeil, Toward a Unified Military Response: 
Hurricane Sandy and the Dual-Status Commander (Strategic Studies 
Initiative, The U.S. Army War College Press, Carlisle Barracks, 
Pennsylvania, April 2015), 53-78. 
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    The 2012 National Defense Authorization Act, found in Public Law 
112-81, fused earlier legislative efforts from both the Council of 
Governors and the DOD to enable individual States and the DOD to 
coordinate their efforts through a single commander. The Dual-Status 
Commander concept involves a command arrangement that legally 
authorizes one military officer, usually a National Guard officer, to 
assume simultaneous but mutually exclusive command authority over both 
National Guard forces and Title 10 Federal military forces. While State 
and Federal military forces maintain separate and distinct chains of 
command, the Dual-Status Commander is capable of leading all military 
forces and directs their response efforts. This achieves a level of 
unity of effort that was unachievable or difficult prior to 
implementation of this construct. The unique command architecture of 
the Dual-Status Commander respects the various Constitutional and legal 
considerations governing the use of military forces in a domestic 
capacity. It further alleviates the tension experienced in past 
responses between States and the Federal Government during complex 
disaster mitigation.\29\
---------------------------------------------------------------------------
    \29\ Schumacher, Ludwig J. ``Dual-Status Command for No-Notice 
Events: Integrating the Military Response to Domestic Disasters.'' 
Homeland Security Affairs 7, Article 4 (February 2011).
---------------------------------------------------------------------------
    Ultimately, nobody knows a State better than its Governor; the 
individual elected by the people and accountable to them during their 
time of greatest need. The Governor, working with his or her State 
adjutant general, will continue to lead disaster response and recovery 
efforts within their State. A dual-status commander allows them to do 
it better by ensuring all types of DOD support work together within the 
Governor's intent. It allows the President and Secretary of Defense to 
bring the weight of unique DOD capabilities and National capacity to 
bear when our citizens most need it, and when the interests of the 
entire country are at stake. And, it allows U.S. Northern Command to 
achieve its vision of working with partners to outpace threats and 
support the American people in their times of greatest need.\30\
---------------------------------------------------------------------------
    \30\ Gen. Charles H. Jacoby, Jr., and Gen. Frank J. Grass ``Dual-
Status, Single Purpose: A Unified Military Response to Hurricane 
Sandy'' http://www.ang.af.mil/news/story.asp?id=123339975 (last visited 
June 6, 2015).
---------------------------------------------------------------------------
    Dual-Status Commanders have successfully been employed for multiple 
planned events since 2004 and multiple unplanned wildfires and 
hurricanes. Most notably, Dual-Status Commanders were used during the 
G8 Summit at Sea Island, GA in 2004; at the Republican and Democratic 
National Conventions in both 2004 and 2008; and the G20 Summit in 
Pittsburgh, PA in 2009. Dual-Status Commanders were also employed for 
Hurricane Irene in 2011, the Colorado wildfires in 2012, the Colorado 
floods of 2013, Tropical Storm Isaac in 2012, and Hurricane Sandy in 
October of 2012.\31\ The Governor for the State of New Jersey, the 
Title 10 Commander for US Northern Command, and the Chief of the 
National Guard Bureau all heralded the successful use of Dual-Status 
Commanders in the response to Hurricane Sandy.\32\
---------------------------------------------------------------------------
    \31\ Brig Gen Richard J. Hayes, Jr. ``DOD Response Under the 
Stafford Act: A Call to Action.'' (Joint Forces Quarterly, Issue 77, 
2nd Quarter 2015, St. Louis, Missouri) 84-86.
    \32\ Jacoby and Grass.
---------------------------------------------------------------------------
                   considerations for the way forward
    Since the deployment of Dual-Status Commanders to both pre-planned, 
as well as no-notice/limited-notice incidents, improvements at both the 
State and Federal levels can be made. Future modifications must 
preserve the authority of a State Governor to manage incidents in the 
State and mitigate the risk of failed State and Federal coordination 
mechanisms.
Difficulties in Receiving 32 USC 502(f) Authority and Resourcing
    The DOD receives--and often denies--requests from States for the 
Secretary of Defense to approve 100% DOD-funded operations under 32 USC 
502(f).\33\ The current articulated criteria for a 502(f) operation 
from the DOD are: (1) Effects of event are catastrophic; (2) the event 
is National in character; and/or (3) requires a significant multi-State 
National Guard response.\34\ In April of 2012, The DOD's Reserve Forces 
Policy Board published its report on New Policies and Clearer Funding 
Flows for Reserve Component Operations in the homeland. In this report, 
the Reserve Forces Policy Board discussed the denial of requests for 
502(f) funding and recommended that the Office of the Secretary of 
Defense should collaborate with the National Guard to develop clearer 
guidelines and criteria.\35\ This recommendation would provide greater 
predictability for State leaders regarding the likelihood of approval 
by the Secretary of Defense for State-requested operations under 
Section 502(f). Additionally, the Board recommended that the DOD should 
work with Department of Homeland Security, FEMA, and the Office of 
Management and Budget to clarify in writing the policy for the 
reimbursement of the pay of both National Guard and Reserve forces when 
assigned missions by the Secretary of Defense for purposes of 
conducting disaster relief operations. Specifically, the dialogue 
should cover possible revision of 44 CFR 206.8 or the creation of an 
agreement in writing between DOD and FEMA regarding reimbursement for 
the military pay of National Guard personnel employed for disaster 
operations under 32 USC 502(f).\36\
---------------------------------------------------------------------------
    \33\ Memorandum for the Secretary of Defense from Maj Gen Arnold L. 
Punaro, USMCR (Ret), Chairman, Reserve Forces Policy Board, Re: Report 
of Reserve Forces Policy Board on New Policies and Clearer Funding 
Flows for Reserve Component Operations in the Homeland, April 9, 2012.
    \34\ Ibid.
    \35\ Ibid.
    \36\ Ibid.
---------------------------------------------------------------------------
Title 10 Awareness of the Dual-Status Commander Construct
    Of the noted areas needing improvement, perhaps none is more 
important than DSCA education for senior military leaders.\37\ While 
there are many subject-matter experts in all things related to defense 
support of civil authorities, there appears to be a critical gap in 
DSCA knowledge among some senior military commanders. As evidenced by 
the failure to follow mission assignment processes and the notable 
confusion over the role and authority of the dual-status commander. It 
appears that some senior leaders, often with decision-making authority, 
lack the required knowledge to ensure their decisions fall within 
established legal, financial, and doctrinal barriers of DSCA 
operations. The critical triad of DSCA considerations--the legal, 
financial, and doctrinal guidelines--were abused during the Sandy 
response in New York, in many cases due to a lack of DSCA knowledge 
among commanders and their support staffs.\38\
---------------------------------------------------------------------------
    \38\ Ibid, 73-74.
    \37\ Burke and McNeil, 106.
---------------------------------------------------------------------------
    Some of the Title 10 active-duty officers who participated in 
Hurricane Sandy suggested overturning the National Response Framework 
and that prepositioning Title 10 forces was the preferred strategy, 
rather than activating National Guard troops through Emergency 
Management Assistance Compact and other sourcing mechanisms.\39\ 
Aggressive posturing of Title 10 forces risks complicating the incident 
response framework on multiple levels, including command-and-control 
confusion and functional interoperability. A Governor should be able to 
enlist the aid of a local Title 10 engineer unit in a flood, but even 
the unmatched capabilities found in active-duty units must be applied 
in a coordinated fashion.
---------------------------------------------------------------------------
    \39\ Ibid, 80.
---------------------------------------------------------------------------
    After-Action Reports indicate that U.S. Army Corps of Engineers 
commanders were equally unfamiliar with the dual-status commander 
construct.\40\ In this case, Title 10 forces attached to Task Force 
Pump and in support of the U.S. Army Corps of Engineers as the lead 
Federal agency for Emergency Support Function-3 were assigned missions 
beyond the scope of any pre-approved mission assignments for Title 10 
forces. Reports suggest that the U.S. Army Corps of Engineers personnel 
were unaware of certain Title 10 restrictions for Federal military 
forces and did not have an effective process in place to facilitate 
coordination with the dual-status commander.\41\
---------------------------------------------------------------------------
    \40\ Ibid, 74.
    \41\ Ibid.
---------------------------------------------------------------------------
    Additionally, the Marine Corps' arrival on Staten Island resulted 
from a series of conversations outside of the established chain of 
command and perhaps without consideration for normal Title 10 request 
for assistance procedures.\42\ A number of After-Action Reports support 
the claim that the commandant of the Marine Corps, through the II 
Marine Expeditionary Force commanding general directed the 26th Marine 
Expeditionary Unit (MEU) commander to deploy his unit to the USS Wasp 
off the coast of New York. The guidance from the commandant instructed 
the MEU to: ``Get to New York City, go ashore, do good, and relieve the 
suffering that is occurring.''\43\ As a result, without a mission 
assignment or notifying the dual-status commander, Marines carried out 
their orders and began support efforts on November 4, 2012. Except for 
justifying the Marine Corps' arrival on Staten Island as Immediate 
Response Authority, the legal basis for the Marines' activity on Staten 
Island during Hurricane Sandy remains questionable and ambiguous.\44\
---------------------------------------------------------------------------
    \42\ Ibid, 90.
    \43\ Ibid, 64.
    \44\ Ibid, 95.
---------------------------------------------------------------------------
Impacts of Sequestration and a Reduction in Force on the CBRN Response
    The Chemical, Biological, Radiological, and Nuclear (CBRN) Response 
Enterprise is composed of both Title 10 Active-Duty and Title 32 
National Guard forces which are divided into State-assigned/resourced 
units and teams, and allocated Federal response forces. Forces assigned 
to State National Guard command and control include 57 Weapons of Mass 
Destruction--Civil Support Teams (WMD-CSTs) with 22 personnel in each, 
with one in every State (two in FL, CA, and NY), plus one in the 
District of Columbia and each of the U.S. territories within U.S. 
Northern Command's area of responsibility. There are also 17 CBRNE 
Enhanced Response Force Packages (CERFPs), and 10 Homeland Response 
Forces (HRFs). The Federal response force includes the Defense CBRN 
Response Force (DCRF) and the Command and Control CBRN Response Element 
(C2CRE).\45\
---------------------------------------------------------------------------
    \45\ LCDR David M. Aliberti, ``Preparing for a Nightmare: 
USNORTHCOM's Homeland Defense Mission Against Chemical and Biological 
Attack.'' (U.S. Naval War College, Newport, Rhode Island, May 2014).
---------------------------------------------------------------------------
    A review of the different emergency concept plans through the lens 
of the National Response Framework, indicates that a Nation's 
comprehensive defense strategy and robust capability to manage chemical 
and biological events resides primarily with the Title 32 National 
Guard forces. In every State, National Guard WMD-CSTs, CERFP, and HRFs 
stand ready to deploy at the direction of the Governor to integrate 
under the on-scene incident commander in support of the civilian LFA. 
Title 10 allocated forces would deploy on U.S. Northern Command's order 
to further augment local teams.
    Any reduction in force as a result of sequestration must ensure 
that this CBRN capability is not diminished in any form. In fact, any 
realistic application of sequestration must consider preservation of 
the fundamental State ability to respond to CBRN incidents before 
divesting Federal DOD capacities from the National Guard. The United 
States is strengthened by having 54 individual States and territories 
that can handle immediate needs and only seek Federal assistance when 
it is truly required.
Future Missions for Homeland Response in Cybersecurity
    For all of the same statutory reasons presented, the National Guard 
is the most appropriate force to augment community, private business, 
and State partners in the event of a cyber-incident affecting the 
health and welfare of our citizens necessitating an emergency response. 
We should respond in the same manner for these types of incidents 
utilizing the existing National Response Framework with the established 
protocols in the National Incident Management System. If the event 
exceeds State capabilities and first responders are overwhelmed, the 
same dual-status commander concept to integrate DOD capabilities into a 
coordinated response should be utilized.

    Ms. McSally. Thank you, General McGuire. You could join us 
here. It sounds like you know the procedures really well.
    So, anyway, the Chair will now recognize Mr. Gianato.

 STATEMENT OF JIMMY J. GIANATO, DIRECTOR, DIVISION OF HOMELAND 
  SECURITY AND EMERGENCY MANAGEMENT, STATE OF WEST VIRGINIA, 
   TESTIFYING ON BEHALF OF THE NATIONAL EMERGENCY MANAGEMENT 
                          ASSOCIATION

    Mr. Gianato. Good morning, Chairman McSally, Ranking Member 
Payne, Members of the subcommittee. Thank you for holding this 
hearing this morning on the important topic of military 
assistance and disaster response.
    Today I am pleased to represent the National Emergency 
Management Association as the legislative committee chairman 
and Region III vice president. I am also the director of the 
West Virginia Division of Homeland Security and Emergency 
Management.
    Effective collaboration between emergency management 
agencies and the military is crucial if we want to see 
successful responses to disasters. In West Virginia, we are 
very fortunate to have had great success working with our 
National Guard.
    One of the most prominent examples of this has been our 
collaboration on the National Boy Scout Jamboree, which is a 
unique event held at the Summit Bechtel Reserve in rural 
Fayette County, West Virginia. This gathering of approximately 
45,000 Scouts, leaders, and staff over the course of 10 days in 
the summer happens every 4 years.
    Given the size of West Virginia, it is a monumental task to 
handle the logistics, security, and operational support for 
such a major event. One of our challenges with the Jamboree was 
obtaining and managing resources for an event of that magnitude 
while still sustaining the ability to respond to any other 
disaster or emergency that occurred at that same time.
    To accomplish the cooperation required to manage the 
Jamboree and other events, West Virginia developed a Joint 
Interagency Task Force, or JIATF, at the direction of Governor 
Tomblin in 2010. The Governor appointed me as the lead for that 
task force and the adjutant general of the National Guard to 
serve as the co-lead. A senior leader from the Governor's also 
office served as his liaison to the task force.
    Not only did the task force work exceptionally well for the 
Jamboree, it was also successfully implemented during responses 
to a derecho that impacted our State and Hurricane Sandy, both 
of which created major power outages and infrastructure 
challenges for the State.
    Within minutes of the derecho moving through West Virginia, 
53 of our 55 counties were without power. The State had to 
quickly make decisions on how it would handle power 
restoration. After a discussion among the JIATF leadership, 
FEMA, and consultation with the Governor, West Virginia elected 
to use a capability developed by the West Virginia National 
Guard to support this mission in a cost-effective and efficient 
way. Such collaboration resulted with the State being able to 
manage its own power restoration capabilities at a significant 
cost savings.
    Of course, West Virginia is not the only State to see such 
successful collaboration. In North Carolina, the North Carolina 
Department of Emergency Management was able to take advantage 
of the National Guard cybersecurity team to evaluate its IT 
architecture. They conducted a detailed study that identified 
several areas of improvement. This mission was conducted 
expertly and efficiently at a low cost.
    The State of Washington has also built a successful 
partnership, as was seen during the deployment of the National 
Guard during flooding and the mudslides that occurred last 
year. The National Guard assisted the State's donations manager 
by supporting the movement of commodities, staffing warehouses, 
and assisting with the distribution of food.
    The Emergency Management Assistance Compact has played an 
important role in facilitating collaboration among States and 
enabling them to share National Guard assets. EMAC provides a 
legal and procedural mechanism whereby emergency response 
resources can quickly move throughout the country, which 
lessens the need for Federal resources.
    During Hurricane Sandy, for example, a helicopter crew was 
sent to New Jersey and staging and warehouse operations 
personnel were sent to New York. More recently, during the 
historic snowstorms in Massachusetts this past winter, Maine 
and Vermont provided Massachusetts with front-end loaders and 
dump trucks for snow removal. Just a few weeks ago, Louisiana 
provided helicopters and crews to Texas to assist with water 
rescue activities after floods hit the State.
    The use of dual-status command is another development that 
has played an important role to strengthening the unity of 
effort and overall coordination. As I mentioned earlier, the 
use of the dual-status command at the National Boy Scout 
Jamboree enabled effective coordination and integration and 
kept the operational control of the military units at that 
event under the control of the Governor, who consequently was 
able to retain control over the response.
    Colorado has also successfully used a dual-status commander 
in several instances, including its 2013 floods, 2012 
wildfires, and the 2014 Black Forest fires.
    If we hope to see effective response to disasters, we must 
involve the whole community. One of the key partnerships in the 
whole community is between emergency management agencies and 
the National Guard.
    Going forward, States must continue to look for 
opportunities to improve collaboration among emergency 
managers, the National Guard, and Federal forces. One method 
for doing this is the creation of formal mechanisms as we did 
with the JIATF.
    Further, we need to continue to support EMAC. It has been 
invaluable in deploying National Guard assets throughout the 
country. We also need to continue support for the dual-status 
command, which has greatly promoted coordination in FEMA grant 
programs such as the Emergency Management Performance Grants, 
which have built and strengthened State capabilities.
    I thank you for the opportunity to be here today, and look 
forward to answering any of your questions.
    [The prepared statement of Mr. Gianato follows:]
                 Prepared Statement of Jimmy J. Gianato
                             June 10, 2015
                              introduction
    Thank you Chairman McSally, Ranking Member Payne, and Members of 
the subcommittee for holding this hearing today. As director of the 
West Virginia Division of Homeland Security & Emergency Management and 
a regional vice president of NEMA, which represents the State emergency 
management directors of the 50 States, territories, and District of 
Columbia, I am pleased to be here to discuss the role of the military 
in disaster response and how emergency managers and the military work 
together.
    As you know, emergency management is a ``whole community'' 
endeavor. It involves the public sector, the private sector, voluntary 
organizations, and individual citizens--all of whom are crucial to 
preparing for disasters and responding to and recovering from them. The 
National Guard and the military are an important part of the whole 
community and play a key role in efforts to address disasters, largely 
by supporting State and local responses. In my testimony this morning, 
I will focus on key lessons learned concerning how emergency managers 
and the military can work together effectively. Specifically, I will 
discuss the importance of collaboration, the value of the Emergency 
Management Assistance Compact, and the dual-status command.
                            lessons learned
Partnerships Have Been Effective in West Virginia
    More than anything else, effective collaboration between emergency 
management agencies and the military is crucial if we want to see 
successful responses to disasters. In West Virginia, we are very 
fortunate to have had great success working with the National Guard. 
One of the most prominent examples of this has been our collaboration 
on the National Boy Scout Jamboree, which is a unique event held at the 
Summit Bechtel Reserve in rural Fayette County, West Virginia. This 
gathering of approximately 45,000 scouts, leaders, and staff, over the 
course of 10 days in the summer, happens every 4 years. Given the size 
of West Virginia, it is a monumental task to handle the logistics, 
security, and operational support of such a major event.
    The Jamboree has posed some distinct challenges. Most 
significantly, the State needed to develop the resources for the 
Jamboree while also maintaining the capability to respond to and 
recover from any other disaster or emergency that could occur at the 
same time. It was obvious that coordination and collaboration with the 
National Guard were going to be crucial to making this happen. In 2010, 
Governor Earl Ray Tomblin brought together key members of his emergency 
response team and directed them to develop a construct that could be 
easily adapted to handle the Jamboree, as well as any major disaster 
that could affect the State. We subsequently adopted the concept of a 
Joint Interagency Task Force (JIATF) to develop the necessary planning 
and response capabilities.
    The Governor appointed me to lead the JIATF and the adjutant 
general of the National Guard to serve as the co-leader. In addition, a 
senior leader from the Governor's office served as the liaison for the 
Governor to the JIATF. The JIATF included Department of Defense assets 
from the active-duty, reserve, and National Guard. These military 
elements served under a dual status, West Virginia National Guard 
Brigadier General who reported to and supported the JIATF. Utilizing 
the dual-status command kept the operational control of the military 
units at the National Boy Scout Jamboree under the control of the 
civilian leadership and allowed the Governor to retain control of the 
response to the event.
    We successfully implemented the JIATF in 2012 during responses to a 
derecho and Hurricane Sandy. Both events created major power outages 
and infrastructure challenges for the State. For example, within 
minutes of the derecho moving through West Virginia, 53 of the 55 
counties were without power. This included numerous water and sewer 
systems, hospitals and nursing homes, as well as many other types of 
critical infrastructure and retail facilities. Much of the power 
infrastructure was significantly damaged, and repairs took weeks to 
finish. This left the State with shortages of water, ill-functioning 
sewer systems, off-line gas stations, and many big box retailers that 
were unable to open. The State had to quickly make key decisions as to 
how it would handle power restoration and provide supplemental power to 
many of these facilities. After discussion among the JIATF leadership, 
FEMA, and consultation with the Governor, West Virginia elected to use 
a capability developed by the West Virginia National Guard to support 
this mission in a cost-effective and efficient way. Such collaboration 
resulted in the State being able to manage its own power restoration 
capability.
Collaboration Has Been Invaluable in a Number of States
    Of course, West Virginia is not the only State to see such 
successful collaboration. Florida, for example, has seen a number of 
instances over the years. These include the Republican National 
Convention in 2012; the Annual All-Hazards Coordination Workshop; the 
FEMA Region IV Defense Coordinating Officers Defense Support to Civil 
Authorities Conference; State-wide annual hurricane conferences and 
exercises; the Annual United States Army Corps of Engineer, South 
Atlantic Division, Hurricane Rehearsal of Concept Drill; and Vigilant 
Guard 2013, which included Title 32 Forces, Title 10 forces, and dual-
status commanders. Florida's efforts have not been without their 
challenges, however. They have found that there are numerous ``common 
operating pictures'' at the local, State, and Federal level that do not 
communicate interchangeably. This frequently creates gaps in response 
and recovery.
    Similarly, North Carolina has also taken a number of steps to 
promote collaboration. For example, the Department of Emergency 
Management invites a North Carolina National Guard Domestic Operations 
officer to attend the weekly staff meetings in an effort to enhance 
coordination. Moreover, the Department of Emergency Management and 
National Guard work together on the State's Helo-Aquatic Rescue Team. 
The National Guard provides helicopters, along with pilots and 
aircrews, while the Department of Emergency Management coordinates the 
provision of local responders to serve as highly-skilled rescue 
technicians. In order to maintain the team's abilities at a high level, 
the Department of Emergency Management conducts monthly training. They 
are called out frequently during the summer months to rescue climbers 
in western North Carolina. Further, in April and May of this year, the 
Department of Emergency Management was able to take advantage of the 
National Guard Cybersecurity Team to evaluate its IT Architecture. They 
conducted a detailed study that identified several areas of 
improvement. This mission was conducted expertly and efficiently at a 
low cost. The team provided the Department of Emergency Management with 
a checklist to improve its IT infrastructure.
    The State of Washington has built a successful partnership as well, 
as was seen during the deployment of the National Guard during flooding 
and the mudslide that occurred last year. The National Guard assisted 
the State's donations manager by supporting the movement of 
commodities, staffing the warehouses, and assisting with the 
distribution of food. In addition, personnel from the military 
department provided transportation to and from school for children in 
communities isolated by the landslide. This made it possible for the 
children to stay on pace with the curriculum and to graduate on time. 
The National Guard also provided helicopters that supported movement of 
critical resources and movement of recovered human remains. Teams from 
the Washington Homeland Response Force and Colorado National Guard 
supported local responders as they uncovered the remains and delivered 
them to the medical examiner.
The Emergency Management Assistance Compact Facilitates Working 
        Together
    The Emergency Management Assistance Compact (EMAC) has played an 
important role in facilitating collaboration among States and enabling 
them to share National Guard assets. When States and the U.S. 
territories joined together and Congress ratified EMAC (Pub. L. 104-
321) in 1996, it created a legal and procedural mechanism whereby 
emergency response resources such as Urban Search and Rescue Teams 
could quickly move throughout the country to meet disaster needs. All 
50 States, the District of Columbia, the U.S. Virgin Islands, Puerto 
Rico, and Guam are members of EMAC and have committed their emergency 
resources in helping one another during times of disaster or emergency.
    Since its ratification by Congress, EMAC has grown significantly in 
size, volume, and the types of resources States are able to deploy. For 
example, over 67,000 personnel from a variety of disciplines deployed 
through EMAC to the Gulf Coast in response to Hurricanes Katrina and 
Rita, and 12,279 personnel deployed to Texas and Louisiana during 
Hurricanes Gustav and Ike. More recent uses of EMAC have included the 
response for the manhunt in Pennsylvania, severe weather in 
Mississippi, wildfires in Washington, tropical storms in Hawaii, and 
the historic snowstorms in Massachusetts. National Guard assets are 
often deployed through EMAC. During Hurricane Sandy, for example, a 
helicopter and crew were sent to New Jersey, and staging and warehouse 
operations personnel were sent to New York, among other things. During 
its 2013 flooding, Colorado received search-and-rescue assistance, as 
well as road work repair assistance. More recently, during the 
snowstorms in Massachusetts mentioned earlier, Maine and Vermont 
provided Massachusetts with front-end loaders and dump trucks for snow 
removal, and just a few weeks ago, Louisiana provided helicopters and 
crews to Texas to assist with water rescue activities after floods hit 
the State. EMAC has made it easier for States to assist each other 
effectively and share National Guard assets--with the added benefit of 
lessening the need for Federal resources in the process.
    In addition to deploying throughout the country through EMAC, the 
National Guard works with EMAC members to improve the system. For 
example, in an effort to better integrate mutual aid partners before a 
disaster into the EMAC system, an EMAC Advisory Group was established. 
The group includes representatives from State and local government 
associations, the National Guard Bureau, emergency responder 
associations, public utility associations, the private sector, DHS/
FEMA, and the Centers for Disease Control and Prevention. The 
discussions and interactions of this group have assisted in 
incorporating local government assets into the EMAC system for a 
unified response.
The Dual-Status Command Has Been a Success
    The creation of the dual-status command has been an important 
development over the past few years. In the wake of Hurricane Katrina, 
policymakers realized that the separate chains of command for State and 
Federal military forces had made coordination difficult and contributed 
to the shortcomings of the response. In the years that followed, 
policymakers developed the dual-status command, which allows a single 
National Guard officer, responsible to the Governor of the affected 
State, to simultaneously direct both State (Title 32) and Federal 
(Title 10) military forces to ensure coordination during emergency 
response. This occurs with the consent of the Governor and 
authorization of the President. Ideally, it greatly strengthens unity 
of effort, a keystone of the National Incident Management System, and 
reduces the kinds of coordination problems seen during the response to 
Katrina.
    The emergency management community has had great success with the 
dual-status command and shown that it is an effective way to operate 
and provide the appropriate command and control of all military forces 
during a response. Significantly, these forces remain under the control 
of the Governor--who has the ultimate responsibility for public safety 
of the State's citizens. Since 2004, 25 dual-status commanders have 
been appointed, and of those, 16 have had Title 10 forces assigned. In 
2013, four States requested dual-status commanders for real-world 
events. Two of those received Title 10 forces, including the National 
Boy Scout Jamboree in West Virginia.
    As I mentioned earlier, the use of the dual-status command at the 
Jamboree enabled effective coordination and integration and kept the 
operational control of the military units at the event under the 
control of the Governor--who consequently was able to retain control 
over the response to the event. Another successful use of the dual-
status command was seen at the 2012 Republican National Convention in 
Florida. During this special National security event, Tropical Storm 
Isaac wreaked havoc on the convention schedule and interrupted travel 
plans of many of the estimated 50,000 delegates, media, and others 
planning to attend. The use of dual-status command greatly facilitated 
coordination and enabled the State to respond more effectively to a 
very challenging incident.
    Colorado has also successfully used a dual-status commander in 
several instances--including its 2013 floods, 2012 wildfires, and the 
2013 Black Forest fires--and its use promoted effective coordination 
and response. Further, the outstanding relationships between the State, 
FEMA Region VIII, the FEMA Region VIII Defense Coordinating Officer, 
the Colorado National Guard, and the Department of Defense facility 
commanders in the State facilitated the seamless initiation of disaster 
requests, transition of command, and effective coordination. While each 
of these disasters had severe consequences--such as fatalities, damaged 
and destroyed infrastructure, and environmental damage--each would have 
been worse without the missions completed by the Colorado National 
Guard and Department of Defense assets. Training for State emergency 
management and military personnel concerning defense support to civil 
authorities has been invaluable, helping to familiarize them with 
relevant capabilities and procedures, as well as strengthening 
important relationships.
                               conclusion
    If we hope to see effective responses to disasters, we must involve 
the whole community, and one of the key partnerships in the whole 
community is between emergency management agencies and the National 
Guard. In West Virginia, we have had great success in strengthening 
this partnership, and other States have as well. As a result, these 
States are better prepared to respond to and recover from disasters.
    Going forward, States must continue to look for opportunities to 
improve collaboration among emergency managers, the National Guard, and 
Federal forces. One method for doing this is the creation of formal 
mechanisms, as we did with the JIATF in West Virginia. But as Florida, 
North Carolina, Washington, and Colorado show, there are other ways as 
well. Further, we need to continue to support EMAC. It has been 
invaluable in deploying National Guard assets throughout the country 
and enabling States to support each other more effectively, 
consequently reducing the need for Federal resources. We also need to 
continue to support the dual-status command, which has greatly promoted 
coordination, and FEMA's grant programs, such as the Emergency 
Management Performance Grant, which have built and strengthened State 
capabilities.
    I thank you for the opportunity to testify today and welcome any 
questions you may have.

    Ms. McSally. Thank you, Mr. Gianato.
    The Chair now recognizes Mr. Gaynor for 5 minutes.

 STATEMENT OF PETER T. GAYNOR, DIRECTOR, EMERGENCY MANAGEMENT 
                 OFFICE, STATE OF RHODE ISLAND

    Mr. Gaynor. Good morning, Chairman McSally, Ranking Member 
Payne, and distinguished Members of the subcommittee. It is a 
pleasure to be here today to discuss the State of Rhode 
Island's long and on-going partnership with our National Guard. 
Again, my name is Pete Gaynor. I am the director of the State 
Emergency Management in the State of Rhode Island.
    As the director and a professional emergency manager, I am 
responsible for preparing for emergencies, coordinating the 
activation and use of resources, ensuring an integrated and 
unified response, and managing the recovery effort in order to 
support our local, State governments, citizens, and businesses.
    I am pleased to be testifying before the committee today 
and have submitted my full statement to the committee, which I 
ask be made part of the hearing record.
    Today with this testimony I want to provide the 
subcommittee with information on the long-standing history of 
cooperation and partnership between our State government and 
the Army and Air Guard forces based in our State. I hope to 
give you a sense of how we in Rhode Island have coalesced to 
make our State safer, more secure, and more resilient against a 
host of natural and man-made hazards.
    Additionally, I would like to highlight the challenges and 
opportunities we face in addressing the growing cyber threat. 
The Rhode Island National Guard consists of about 3,300 
members. Most of its members are residents of Rhode Island and 
neighboring States.
    Under State law, the National Guard provides protection of 
life and property, preserves the peace and order and public 
safety. The Rhode Island National Guard has served and remains 
engaged in the global war on terror and overseas contingency 
operations with units that have deployed world-wide in direct 
support of National security objectives.
    Within the State of Rhode Island, the Guard is consistently 
called upon in disasters by the Governor to provide military 
support to civil authorities during local emergencies, National 
disasters, and significant severe weather events. The Rhode 
Island National Guard provides a unique role with a distinct 
local response mission. They are our neighbors. They are our 
citizen soldiers.
    Since 2010, the Rhode Island National Guard has activated 
over 1,750 citizen soldiers to respond to numerous natural 
disasters and events while simultaneously deploying over 1,400 
individuals to overseas assignments. Specific events at home 
consist of the 2010 March floods, Hurricane Irene in 2011, 
Hurricane Sandy in 2013, the Boston Marathon bombing in 2013, 
and the winter blizzards of 2013 and 2015. They all required 
National Guard personnel and equipment.
    Compared to the previous 50 years, the Rhode Island 
National Guard activation over the last 5 years for State 
emergencies has increased over 200 percent. Emergency 
management requires a team effort from all facets of our 
community to assist with the response and recovery, from 
citizens preparing to be on their own for the first 72 hours of 
an emergency, to electrical and gas providers teaming up with 
us in our State emergency operations center, State departments 
such as the Department of Transportation providing sand and 
salt to communities in need, and then our National Guardsmen 
providing law enforcement support during special events. We 
simply require the whole community to be successful to navigate 
a crisis or one of these special events.
    Again, the Rhode Island Emergency Management Agency is only 
one part of the State's emergency management team. We must 
leverage all the resources of our collective team in preparing 
for, protecting against, responding to, and recovering from all 
hazards. Collectively, we must all meet the needs of the entire 
community in each of these areas.
    The National Guard is a unique and indispensable force 
multiplier in preparedness efforts and during times of need, 
from providing expert training and exercise support or in the 
movement of dispensing commodities to local communities or 
providing technical assistance in our cyber initiative. The 
National Guard is ready, reliable, and a diverse force, 
accessible for State, multi-State, and Federal purposes.
    Cybersecurity is an emerging role, requiring a synchronized 
and holistic approach, not unlike the counter-drug mission or 
the CBRN, or chemical, biological, radiological, nuclear 
forces. Cyber and cyber defense are emerging roles for the 
National Guard, in partnership with local, State, and Federal 
agencies, and businesses, requiring updated and new laws to 
mitigate and prevent network attacks from domestic and foreign 
players.
    This is a new paradigm in consequence management. Hacking 
into infrastructure nodes such as power grids, 
telecommunications sites, financial institutions can be as 
devastating as a hurricane or a blizzard.
    In conclusion, the cohesive partnership between the civil 
authorities and the National Guard is instrumental in life 
safety and the protection of our citizens. This partnership 
enhances our ability to prepare for, respond to, and recover 
from disasters and assists in defending the United States 
against increasing cyber attacks and acts of terrorism.
    We look forward to working with our partner and continuing 
our mission to reduce loss of life and property in disasters, 
to protect our State's critical infrastructure from all hazards 
by means of comprehensive emergency management policies, and 
legislative initiatives.
    Chairwoman McSally and subcommittee Members, thank you for 
the opportunity to be here today. I stand ready to answer any 
questions you may have about our partnership with the Rhode 
Island National Guard.
    [The prepared statement of Mr. Gaynor follows:]
                 Prepared Statement of Peter T. Gaynor
                             June 10, 2015
    Good morning Chairman McSally, Ranking Member Payne, and 
distinguished Members of the subcommittee. It is a pleasure to appear 
before you today to discuss the State of Rhode Island's long and on-
going partnership with our National Guard. My name is Pete Gaynor and I 
am the director of emergency management in the State of Rhode Island. 
As the director and a professional emergency manager, I am responsible 
for preparing for emergencies, coordinating the activation and use of 
resources, ensuring an integrated and unified response, and managing 
the recovery effort in support of our local and State governments, 
citizens, and businesses.
    I am pleased to be testifying before the subcommittee today. I have 
submitted my full statement to the committee, which I ask be made part 
of the hearing record.
    Today, with this testimony, I want to provide the subcommittee with 
information on the long-standing history of cooperation and partnership 
between our State government and the Army and Air National Guard forces 
based in our State. I hope to give you a sense of how we in Rhode 
Island have coalesced to make our State safer, more secure, and more 
resilient against a host of natural and man-made hazards. Additionally, 
I would like to highlight the challenges and opportunities we face in 
addressing the growing cyber threat.
    The Rhode Island National Guard consists of more than 3,300 
members. Most of its members are residents of Rhode Island and 
neighboring States. Under State law, the National Guard provides 
protection of life and property and preserves peace, order, and public 
safety. The Rhode Island Guard has served and remains engaged in the 
Global War on Terror and Overseas Contingency Operations, with units 
that have deployed world-wide in direct support of National security 
objectives.
    Within the State of Rhode Island, the Guard is inconsistently 
called upon in disasters by the Governor to provide military support to 
civil authorities during local emergencies, natural disasters, and 
significant severe weather events. The Rhode Island National Guard 
provides a unique role with a distinct local response mission. They are 
our neighbors, they are our citizen soldiers.
    Since 2010, the Rhode Island National Guard has activated over 
1,750 citizen soldiers to respond to numerous natural disasters and 
events while simultaneously deploying over 1,400 individuals in four 
company-sized units overseas. Specific events such as the 2010 March 
floods, Hurricane Irene 2011, Hurricane Sandy 2013, the Boston Marathon 
bombing in 2013 and the winter blizzards of 2013 and 2015 all required 
Rhode Island National Guard personnel and equipment. Compared to the 
previous 50 years, Rhode Island National Guard activation over last 5 
years for State emergencies has increased over 200 percent.
    Emergency Management requires a team effort from all facets of our 
community to assist with response and recovery. From citizens preparing 
to be on their own for the first 72 hours of an emergency, to 
electrical and gas providers teaming up with us in the State Emergency 
Operations Center, State departments, such as the Department of 
Transportation providing sand and salt to local communities in need, 
and our National Guardsman providing law enforcement support during 
special events. We simply require the whole community to help 
successfully navigate a crisis or special event.
    The Rhode Island Emergency Management Agency is only one part of 
our State's emergency management team; we must leverage all of the 
resources of our collective team in preparing for, protecting against, 
responding to, recovering from, and mitigating against all hazards; 
collectively we must meet the needs of the entire community in each of 
these areas. The U.S. Armed Forces and National Guard have a historic 
precedent and enduring role in supporting civil authorities during 
times of emergency, and this role is codified in the National defense 
strategy.
    The National Guard is a unique and indispensable force multiplier 
in preparedness efforts and during times of need, from providing expert 
training and exercise support in the movement and dispensing of 
commodities to local communities to providing technical assistance to 
our Cyber Initiative. The National Guard is a ready, reliable, and 
diverse force accessible for State, multi-State, and Federal purposes.
    Typical State active-duty missions include Security, Traffic 
Control, Evacuation, Search and Rescue, Civil Disturbance Control, Fire 
Protection & Fighting, Natural Disaster Relief, Debris Clearance and 
Emergency Response & Recovery efforts.
    Our Civil Support Team (CST), a high-tech hazardous response and 
monitoring team works hand-in-hand with local, State, and Federal 
agencies in all mass-gathering events such as the recently-concluded 
2015 Volvo Ocean Race in Newport, Rhode Island. The Rhode Island 
National Guard continues to be called upon during winter storms, 
flooding, and hurricanes. The National Guard spectrum of support 
includes a Cyber Defense Team that provided network security support 
for the Presidential Inauguration in 2013.
    Cybersecurity is an emerging role requiring a synchronized and 
holistic approach. Not unlike the counter drug mission or the Chemical, 
Biological, Radiological, Nuclear, Explosives (CBRNE) forces, the CBRNE 
Enhanced Response Force Package (CERFP), and the Homeland Response 
Force (HRF); cybersecurity and cyber defense are emerging roles for the 
National Guard in partnership with local, State, Federal agencies and 
businesses requiring updated or new laws to mitigate and prevent 
network attacks from domestic and foreign players. This is a new 
paradigm in consequence management; hacking into critical 
infrastructure nodes such as power grids, telecommunications sites, or 
financial institutions can be as devastating to the public as a 
hurricane or blizzard.
                               conclusion
    The cohesive partnership between civilian authorities and the 
National Guard is instrumental in life safety and the protection our 
citizens. This partnership enhances our ability to prepare for, respond 
to, and recover from disasters and assists in defending the United 
States against increasing cyber attacks and acts of terrorism.
    As challenges continue to evolve, we must continue to adjust and 
shape our emergency management and homeland security strategy and 
enhance our whole-community concept. In the State of Rhode Island, the 
National Guard has proven its value time and time again. Its relentless 
commitment and dedication to serve and protect is unmatched.
    We look forward to working with our partner and continuing our 
mission to reduce the loss of life and property in disasters, and to 
protect our State's critical infrastructure from all hazards by means 
of comprehensive emergency management policies and legislative 
initiatives.
    Thank you, Chairman McSally and subcommittee Members, for the 
opportunity to appear before you today. I stand ready to answer any 
questions you might have.

    Ms. McSally. Thank you, Mr. Gaynor.
    I now recognize myself for 5 minutes to ask questions.
    General McGuire, with your experience and listening to the 
other panel, I would like your unique perspective on any gaps 
in structure and procedures in planning related to this mission 
and specifically the role of the National Guard.
    I am just thinking about it. It is all local. So I am 
thinking a disaster or crisis happens in southern Arizona. My 
assumption would be Governor Ducey would first be looking to 
use the capabilities that you have in the Guard and then, if it 
exceeds that capability, perhaps the disaster be declared and 
then you would be under Title 32. Then the next level would be, 
you know, Title 10 forces also supporting.
    So my assumption is that Davis-Monthan and Fort Huachuca 
forces would be the next ones that would be asked to 
potentially support. Because, just like you, they live in the 
community, they are familiar with the community, they 
understand the dynamics there.
    Is that a valid assumption? Are there table-top discussions 
within sort-of geographic regions to be able to make sure that 
the proper understanding of roles and responsibilities would 
happen or is that all being done at kind of the FEMA regional 
levels and, you know, Colonel Meger, the DM commander, and 
General Ashley at Fort Huachuca would just sort of have to do a 
pick-up game with their forces in the event of a disaster or a 
response within southern Arizona?
    General McGuire. So let me start with the etymology of a 
disaster question, and I will go back to the gaps thing.
    So as the State emergency manager, what would happen if we 
had a major event in southern Arizona is that there would be an 
incident command stood up under the National Incident 
Management System and every asset delivered from the State 
would be in support of that incident command.
    When the resources were exhausted in southern Arizona, that 
would go to the county level. Let's say it is in Pima County. 
Once Pima County has been overwhelmed, they direct the resource 
request to the State.
    Coincident to that, the Governor is making, in consultation 
with me, a decision about whether or not to declare a state of 
emergency. If a state of emergency is declared in Arizona--and 
I will talk specifically about our case--we have, by statute, 
legislatively set aside $4 million for a State emergency fund.
    Those funds could be used to call guardsmen immediately to 
duty under State Active-Duty provisions. As the resource meter 
begins to run--and it is not just for the Guard. It could be 
for overtime for neighboring county sheriffs or whatever we 
believe is the best resource to deliver.
    As that is evolving, the Federal bases--Fort Huachuca, 
Davis-Monthan, Luke Air Force Base, anybody in the affected 
area--those are seen at the State level as community partners. 
So in a State like Georgia, where you have Fort Benning and 
Moody Air Force Base and all these installations, they are 
community partners in our communities, and we look to them to 
see if there is any mutual aid compacts.
    But the answer to your question about--once we believe 
there is going to be a Stafford Act invoked, we work through 
the DCO at FEMA Region IX. We have very--what I would call 
well-codified paths about how to respond or get response from 
the Federal authorities.
    I am not a NORTHCOM guy, but my observation is they don't 
link back capabilities to a region. So if an engineering 
battalion is not available at Fort Huachuca and the closest one 
is at Fort Leonard Wood, Missouri, that is where they are going 
to come from.
    So, really, we look at the airmen and soldiers at that base 
as citizens of Arizona in terms of providing life, limb, 
protection of property. Unless they have a specific capacity 
that is needed by the incident management system, they are not 
necessarily part of the response unless the incident happens at 
their installation. Then you get into a situation where you 
could have a dual-status commander that is a Title 10 guy. So 
that is how that works.
    Do you want me to talk about the gaps?
    Ms. McSally. Yeah. Absolutely. The gaps, if you could, from 
your perspective and knowledge.
    General McGuire. So the gaps I think goes a little bit to 
the Representative from Rhode Island's question about--we just 
had last week in Arizona a State-wide emergency exercise with a 
focus on cyber.
    This is the best way I can crystallize that 1-day exercise, 
that a cyber attack or a cyber incident only becomes an 
emergency when there is a kinetic impact on the citizens. So 
you have lost power, wastewater. There is inability to support 
continuity of Government. Police and fire is affected so we can 
no longer respond. Hospitals are shut down.
    Those types of events, invariably, we have found are a 
result of some nefarious act, which goes to the idea of why the 
Guard is uniquely situated to be what I call the defensive and 
restorative force.
    Because when we run those drills in Arizona, we can deal 
with the National Cyber Incident Center, the NCIC and DHS, and 
all the lead Federal law enforcement agents to help us with 
that. But what we find in Arizona is we lack the manpower to 
literally go out and do the restorative mission.
    We have also found that, when we do these exercises, 
invariably we are going to run into Posse Comitatus issues if 
we use Title 10 forces to do that because there will be 
exculpatory evidence discovered as a result of that action that 
more than likely will make forensic discovery of who committed 
this act inadmissible at least in our court system, where, if 
we use a Guardsman under Title 32 or Title 10, we are, for lack 
of a better term, a good manpower pool that is tied to the tech 
industry in Arizona--Intel, Microsoft, whatever--Guardsmen are 
there that can come in and do that, discover that, and then 
turn it over to Federal, State, and local law enforcement 
folks.
    I have never heard before today that there is an 
involvement of U.S. Cyber Command taking the lead for any kind 
of a Federal disaster inside the continental United States. So 
I think that DOD should come back and explain that.
    Ms. McSally. Yeah. We need to follow up on that. That was 
alarming as well. I am out of my time. Perhaps we can have 
another round here. But I want to give everybody an opportunity 
here.
    So the Chair now recognizes Mr. Langevin--I am sorry--Mrs. 
Watson Coleman. I am sorry. I was looking right past you. I 
didn't mean to. So, please.
    Mrs. Watson Coleman. Thank you, Madam Chair. Thank you for 
being here.
    Major General McGuire, the unpredictable Federal budget 
process of recent years, coupled with sequestration, has taken 
a toll on important programs across the Federal Government. 
Components even within Federal agencies are competing for 
limited dollars, resulting in robbing Peter to pay Paul. This 
approach is even evident in the Department of Defense.
    Can you talk about how the lack of predictability and 
uncertainty surrounding the Federal appropriations process, 
coupled with the reduced budgets, has affected the National 
Guard's readiness to fulfill its domestic response mission?
    General McGuire. Yes, ma'am. The unpredictability and the 
nature of the continuing resolutions and operating on sequester 
budgets has made it difficult on all components of the DOD. In 
my role as a State cabinet secretary receiving resources from 
the State, we have seen cuts in those areas affect our ability 
to get formations ready.
    That said, when you talk about domestic response, I often 
ask my Army subordinate commanders, ``What is the Army military 
specialty for filling sandbags?'' There isn't one. Really, what 
I look at is the unique capability of our soldiers, and this is 
why I am so passionate about the idea of indiscriminate cuts to 
end strength in the Guard.
    In a resource-constrained environment, the most cost-
effective force, the most embedded force forward, to protect 
our most valuable resource, our citizen--why in a resource-
constrained environment we wouldn't holistically look at how 
can we best build a force in a resource-constrained environment 
that can meet the expeditionary National security strategy to 
fight wars, yet maintain a huge base of trained and ready M-Day 
or drill-status Reserve-status Guardsmen in our States that can 
be called forward?
    So our military commanders are doing very well in terms of 
maintaining the morale of the citizen soldiers and airmen. They 
are excited about the missions that they do. I haven't yet seen 
huge losses in attrition as a result of declining dollars.
    But I do see that weapons system modernization and some of 
the things that need to happen as a result of Federal 
priorities--those things that aren't happening will eventually 
take a toll. But in terms of our ability to meet citizens' 
requirements right now, there has been no wavering in that.
    Mrs. Watson Coleman. Thank you.
    Sort-of to drill down on a particular issue, could you 
discuss the impact of this on CBRN capabilities specifically?
    General McGuire. So my example in my written statement 
about the chemical, biological, radiological, nuclear response 
force.
    So post-9/11 there were similar, I think, type hearings. We 
talked about the idea that we have prepositioned people that 
could serve in State Active-Duty Title 32 or Title 10 statuses, 
and wouldn't that be a convenient place for us to station those 
response forces?
    So there was deliberate decisions made to move 80 percent 
of the 18,000 that Mr. Salesses referred to. Eighty percent of 
that capacity is in the National Guard. So, of those 18,000 
MOS-trained specialists that are resident in the Guard, my 
comment to this subcommittee is to say that any cut to the 
Guard needs to evaluate how that 18,000-man force is affected 
in the force structure changes that they make.
    While this subcommittee doesn't have the necessary purview 
of HASC and HAC-D, it still affects everything we do with 
homeland response. So that was the reason for those comments in 
my written statement.
    Mrs. Watson Coleman. Thank you. I yield back.
    Ms. McSally. The good news is both myself and Mr. Langevin 
are on the Armed Services Committee as well. So we can bring 
these perspectives to our work on that other committee.
    The Chairman now recognizes Mr. Loudermilk from Georgia.
    Mr. Loudermilk. Thank you, Madam Chairman.
    General, I want to ask you the same question that I asked 
the previous panel about DOD Instruction 2025.22. The gentleman 
answered the question by saying there was no changes made to 
that DOD instruction, only just codifying procedures that was 
already there.
    How would you answer that same question? What changes has 
the Department of Defense made to pre-established procedures in 
DODI 3025.22 and how do they affect the Governor's ability to 
request authorization to use National Guard forces for Title 32 
Defense Support of Civil Authorities (DSCA) purposes? 
Additionally, what changes to preestablished procedures have 
been made, and what is the effect?
    General McGuire. I am unfamiliar with pre-established 
procedures. But my reading of it would indicate that it makes 
it at least appear procedurally more difficult for a Governor 
to request authorization for Title 32 resources in an event 
where he believes there is going to be a Federal nexus, either 
a Federal declaration or a multi-State or a Federal interest, 
in our case, like the Southern Border with Mexico.
    It doesn't prohibit the Governor from going directly to the 
Secretary of Defense to request additional Title 32 dollars 
under 502(f), a provision that was well scrutinized after 9/11 
and one that I think is really critical.
    As we mirror that against the comment that the Chairman 
made about AFRICOM and the HADR, Humanitarian Assistance 
Disaster Relief, it is my observation, having just finished up 
CAPSTONE just a few weeks ago, this Goldwater-Nichols Act-
required course, that the comment would be that, of my 48 
classmates, there is a huge dearth of knowledge that there is 
even a Federal statute called Title 32 and an authorization 
that exists in such a way where we can deliver Federal 
resources to the State and maintain command and control under 
the Governor as commander-in-chief.
    The more we push that out of the equation and make it 
either a Title 10 answer or a State Active-Duty solution, you 
start to make the burden very arduous for the State to power up 
jet aircraft to do surveillance or helicopter and rotary wing.
    I wouldn't categorize it as that there was a change. But 
when you read it to someone who is not familiar with it--there 
was a comment made about it is very complex--it doesn't 
specifically say in there, sure, the Governor can always go VFR 
direct.
    I think that was intentionally written in the language so 
that it didn't say that. Does that make sense? That is my 
opinion. But I wasn't part of that DOD panel that created it. I 
can certainly look into it more and get back to you in more 
detail.
    [The information follows:]

    Historically, Governors have communicated directly with the 
Secretary of Defense (SECDEF), the Chief of National Guard Bureau 
(CNGB), and even the White House to request Title 32 authorization for 
National Guard DSCA missions. As recognized by the National Response 
Framework, Governors are the individuals that possess the greatest 
situational awareness in a State-based disaster and the Constitutional 
and statutory responsibility for public safety and welfare within their 
sovereign States.\1\ Title 32 status has traditionally been used in 
preparing for and responding to domestic emergencies, such as Hurricane 
Katrina in 2005 and Hurricanes Ike & Gustav in 2008, and for National 
Special Security Events such as the Democratic and Republican National 
Conventions.
---------------------------------------------------------------------------
    \1\ Department of Homeland Security, National Response Framework, 
Second Edition (May 2013) 13, available at http://www.fema.gov/
national-response-framework.
---------------------------------------------------------------------------
    The authors of DODI 3025.22, however, all but eliminated the 
Governor from the process. For example, Paragraph 3(f) of DODI 3025.22 
states: ``The use of the National Guard for DSCA will not be approved 
to: (1) Perform DSCA operations or missions at the direct request to 
DOD of a State or local civil authority . . . '' (emphasis added). 
Instead of the Governor of the affected State, DODI 3025.22 vests the 
authority to recommend the use of National Guard forces in Title 32 
status in ``the Assistant Secretary of Defense for Homeland Defense and 
America's Security Affairs (ASD(HD&ASA)), as the principal civilian 
advisor for DSCA . . . ''. This constitutes an unprecedented doctrinal 
shift of authority from the Governors, i.e. the commanders-in-chief of 
the States to non-military DOD appointees. The Governors of the 
sovereign States are now relegated to simply providing their 
``concurrence'' to the use of their National Guard forces. Of course, 
it is inconceivable that any Governor faced with a disaster in his or 
her State would withhold his or her concurrence and the Governor's 
authority to concur is, therefore, merely symbolic in practice. DODI 
3025.22 improperly removes the well-established role of the State's 
Governor in this critical dialogue with the Federal Government.
    There are other areas of concern in DODI 3025.22. For example, 
paragraph 3(a) should be amended to recognize the CNGB's role as the 
principal military advisor for National Guard DSCA, instead of vesting 
all advisory authority in the ASD(HD&ASA)--a Federal civilian 
appointee. Paragraph 3(c) also suggests that Title 32 funding for 
National Guard troops responding to an emergency or disaster must be 
reimbursed by the State in all instances. This paragraph should include 
a brief statement recognizing that non-reimbursable support may be 
provided in certain situations, such as when required by law or when 
authorized by law and approved by SECDEF.

    Mr. Loudermilk. In effect, have there been some changes in 
the way that Governors request Title 32?
    General McGuire. I don't know that it was codified in a 
DODI, a DOD instruction, previously. But it was informally 
understood that the Governor always had the ability to go 
through the adjutant general right to the Secretary of Defense 
and say, ``We need additional Title 32 authorization.''
    Mr. Loudermilk. Currently what are they proposing?
    General McGuire. Currently that procedure still exists, but 
the DODI says it needs to make sure that it is going to rise to 
the level of the Stafford Act and that there is a clear Federal 
nexus.
    An example of 502(f) that is being executed right this 
minute in Arizona is our Southwest Border mission, where we 
have Guardsmen serving in 502(f) because of--Title 32 because 
of the law enforcement piece and the counter-narcotics 
incidents that occur down there and the collection of evidence.
    It is the right status to use those National Guard forces 
in. So it would be disingenuous to say that status isn't used. 
It is used currently today on the Southwest Border and could be 
used in an emergent response at any time.
    Mr. Loudermilk. Now, do you know if Governors were 
consulted with these changes?
    General McGuire. I do not know what level of consultation 
that Governors were on. We--I say Arizona--was previously a 
member of the Council of Governors, working with the National 
Governors Association on that collaboration.
    When Governor Ducey was elected, the seat went with the 
actual individual. So we have not been a member of that Council 
since January. So I haven't been familiar with current 
negotiations. I can follow up with more information after the 
hearing.
    [The information follows:]

    As I mentioned during my oral testimony before the subcommittee, 
the Governor of Arizona is no longer a member of the Council of 
Governors and I therefore cannot speak on the Council's behalf. My 
understanding after speaking with representatives of the Council of 
Governors, however, is that the authors of DODI 3025.22 did not seek 
input from the Council before implementing these unprecedented changes 
to established policy and procedures. In fact, it appears that the 
authors ignored repeated requests from the Council of Governors to 
meet, confer, and exchange views and information regarding the DODI 
3025.22 when it was still in draft form.
    For further information and an official response from the Council 
of Governors, I recommend the subcommittee contact the National 
Governors Association.

    Mr. Loudermilk. Okay. I appreciate that. To the best of 
your knowledge do the Nation's Governors still object to these 
changes?
    General McGuire. I can tell you the Council of Governors 
advocates for all 50 Governors, the 3 territorial Governors, 
and there has been no communication about concurrence or 
nonconcurrence on that. Let me check on that more thoroughly 
and get back to you.
    [The information follows:]

    It is my understanding from speaking with representatives of the 
Council of Governors that the Nation's Governors are adamantly opposed 
to these unilateral changes to long-standing policy; changes that 
interfere with the Governors' right to engage in direct communications 
with the Secretary of Defense, the Chief of the National Guard Bureau, 
and even the White House if necessary. Again, I respectfully refer the 
subcommittee to the Council of Governors through the National Governors 
Association.

    Mr. Loudermilk. Thank you. I yield back.
    Ms. McSally. The Chair now recognizes Mr. Langevin from 
Rhode Island.
    Mr. Langevin. Thank you, Madam Chair.
    Again to our panel of witnesses, thank you for being here, 
for being on the front lines, EMA, and all that you do to keep 
our people safe.
    If I could begin with our witness from Rhode Island, Mr. 
Gaynor, again I want to thank you for coming down to testify 
today, especially on short notice.
    Continuing on the cyber domain, you know, clearly, when you 
think of cyber, this is a new concept to really think of this 
potentially as an EMA-related issue for emergency preparedness 
and response.
    But can you talk about Rhode Island EMA's role in convening 
stakeholders to protect critical infrastructure in the State 
from cyber attack and, at least as importantly, help ensure 
that the State is able to quickly recover from a disaster.
    Mr. Gaynor. Thank you, Congressman.
    For a couple years now, the State, in partnership both 
within the State, State government, and within the region of 
New England, have been partnering on some planning efforts to 
bolster our cybersecurity effort.
    The first thing that we actually did, again, as a region, 
was develop these teams called cyber disruption teams that 
consist of emergency managers, law enforcement, private 
industry, public industry, IT professionals, that can help both 
State and local jurisdictions deal with a low-level cyber 
incident.
    As we have moved through the past couple years, we have 
matured. We have written a cyber protection plan. We have 
written a cyber incident action plan. Most recently, Governor 
Raimondo of Rhode Island instituted an Executive order 
establishing the Cybersecurity Commission to look at two basic 
things to ensure that the State is ready should it be the 
recipient of a significant cyber attack.
    So, first, we want to make sure that we improve State 
cybersecurity practices in order to protect both Government, 
businesses, and citizens of Rhode Island. The second part of 
that is, because there is a significant deficit of cyber 
experts these days, to accelerate the growth of Rhode Island's 
cybersecurity industry in order to bring jobs and opportunity 
to Rhode Island.
    So two phases: Let's get our house in order and then let's 
kind-of build a home-grown cybersecurity expertise within the 
State.
    Parallel with all those efforts we have been exercising 
with numerous critical infrastructure, key resource sectors, in 
cyber table-tops, from the banking sector to the wastewater 
sector, to the electrical sector, and trying to get everyone to 
understand what is at stake and what the consequences could be 
should Rhode Island have a cyber attack.
    Mr. Langevin. Very good. Thank you for that update.
    If I could follow up, the 102nd Information Warfare 
Squadron of the Rhode Island Air National Guard based in North 
Kingstown is obviously an important State resource.
    As someone who is on the ground and the front lines as an 
emergency manager, can you share some thoughts about the 
specific opportunities that the presence of the National Guard 
cyber capabilities provides both proactively and reactively in 
the cyber domain?
    Mr. Gaynor. So in my opening statement I talked about the 
uniqueness of the Rhode Island National Guard and National 
Guard in general. In Rhode Island, as you referenced, the 102nd 
Network Warfare Squadron is a unique capability resident in 
Rhode Island, made up, again, of our National Guardsmen. In 
their uniform they are part of the squadron and in their 
civilian attire they work for cybersecurity companies. It is a 
resource that we have tapped for numerous training and 
exercises.
    If you ask some of my partner agencies within the State, 
like the Rhode Island State Police Cyber Crimes Unit, there is 
a daily need for cyber experts that we don't have, whether it 
be in a local jurisdiction or even in the State.
    So, again, just like you would call a guardsman to help 
with a hurricane or a blizzard, those neighbors coming to help 
you, some of the friction that we have had in, again, tapping 
these unique neighbors, our cyber experts, to help locals and 
State in a cyber attack has been difficult. Again, we are 
pressing the envelope in every way. So for the most part the 
102nd is helping us with training and assist and technical 
support.
    Mr. Langevin. Very good. Thank you.
    Well, I have other questions, but my time has expired, so I 
will yield back.
    Ms. McSally. We could either do another round, or I could 
give you a couple more minutes.
    Mr. Langevin. Okay. That would be great. Just one. Thank 
you then.
    On those particular issues, what limitations do you face 
that prevent you from realizing the vision where you would like 
to see it be more effective, and is it a problem of resources, 
authorities, or lack of experience in working together through 
exercises?
    Mr. Gaynor. I think our gap is the legal justification to 
use cyber forces, National Guard cyber forces, and again in a 
State event, whether it be local or a State event, because the 
cyber threat is unique, and it is much different than a 
hurricane or a winter storm. In the hurricane season, you can 
see that hurricane coming days and days ahead of time, and you 
kind of know what is going to happen when the hurricane comes 
by, you know the effects of that, and then it is gone. Most 
communities, both local and State, are prepared for a 
hurricane, so they have some resources.
    When it comes to a cyber attack or a cyber incident, again, 
it is happening right now. You don't see it. It is hard to 
describe. You may not know it has happened even after it has 
happened. Local and State for the most part does not have 
enough bandwidth to deal with a cyber incident, cyber crime. 
Again, being able to tap into that unique capability, again, is 
one of those things that as the State emergency manager, I want 
to use all resources at my disposal.
    So whether it is from Department of Transportation, I am 
looking for a plow, or it is from the National Guard, I am 
looking for a cyber expert on a particular threat, I think it 
is one of these, again, I will say emerging threat, but it has 
been with us for a while, but it is a growing threat that will 
only get worse. If we don't figure out how to instantaneously 
deploy those guardsmen, again, in support of their home State, 
then I think we are going to fall short.
    Mr. Langevin. Sure. On those authorities in the National 
Defense Authorization Act, I am actually asking for some more 
clarification on those so that we are thinking these things 
through more proactively and we will have some answers 
hopefully within the year.
    But, General McGuire, did you want to comment on anything? 
I know that you obviously are on the front lines.
    General McGuire. Well, I would say that the legal 
authorities as they--so I am not very good at cyber, like I 
turn on the computer and things are working.
    Mr. Langevin. You are like most Americans.
    General McGuire. But I understand this part of it, that 
that is how all of our SCADA systems and critical 
infrastructure is managed right now. So the kinetic effect that 
it can have can be tremendous.
    So I in some ways say let's just keep this simple. We have 
a National response framework. That National response 
framework, if you had listened to the previous panel, means 
that it is a National requirement. No, the National response 
framework is something that we all agree to Nationally that 
would be how we would respond, and it would start at the local 
level.
    So in any incident there is a point of impact. In this case 
it could be the banking industry or whatever it might be. 
Typically we find with these incidents that our partners in 
many of these areas are private industry or not Governmental 
agencies that run some of these critical infrastructure 
networks for us.
    So they have to have a motive to come to the table, and we 
have tried to make sure that we reach out to them and 
understand that we are there, especially in the National Guard, 
to be, as I mentioned, restorative--so that requires manpower--
and defensive. We are not outward-looking trying to 
counterattack a nation-state, were that to be the responder. 
That clearly I think falls in the domain of U.S. Cyber Command.
    But the problem is we are having a hard time defining where 
that line lies, which is why I believe that the National Guard 
is the right force to be trained with the technical skills so 
that they are more capable than I am at cyber, and that they 
can deploy under legal authorities, either State Active-Duty or 
Title 32, not unlike Southwest Border, where we don't run into 
these evidentiary collection issues that would be evident under 
Posse Comitatus.
    So that is kind of how I view the National Guard's role in 
cyber, is that we are always going to be defensive and 
restorative and that we are the correct first choice for that 
for the same reason I made in my opening statement. We are the 
right first choice when local first responders are overwhelmed 
because we are there, we are knowledgeable, we have tactical 
understanding of even the local banks, and we have 
relationships there in each of those organizations.
    Mr. Langevin. Completely agree. As having had interaction 
with our 102nd Network Warfare Squadron, I think that the 
National Guard in some ways, in many ways, is an 
underappreciated resource in that we have people that are in 
the National Guard and that also in their private lives are 
day-to-day at work in these fields developing and using this 
expertise on a day-to-day basis. So we could make better use of 
that, I think, and appreciate it more.
    General McGuire. Yes, sir. The synergy gained between your 
commercial industry point of employment--let's say you are a 
software writer for Microsoft and you are also a drill status 
guardsman--boy, while we train them at U.S. Cyber Command, many 
of the skills that they have learned at Microsoft are going to 
be just as valuable in these kind of responses, not unlike a 
plumber or a carpenter or a law enforcement officer or a 
contracting attorney when we have a big disaster.
    Mr. Langevin. Without a doubt.
    So, Madam Chair, thank you for the extra time.
    I would just mention that on the preparedness side of it, 
one of the things I am very proud of in what we are doing in 
Rhode Island, and Mr. Gaynor mentioned it, is developing the 
Cyber Disruption Team--this actually happened under the 
previous administration, under Governor Chafee--and the Rhode 
Island State Police taking the lead, along with the EMA, and 
working with the private sector went out and identified our 
elements of critical infrastructure that could be affected by a 
cyber-related event.
    Then they work to determine how they would both prepare 
against it from happening in the first place, but then also 
developing a recovery plan for resilience purposes as well. So 
it is a good model, and I know we are going to continue to 
learn a lot from it.
    So thank you, and I yield back.
    Ms. McSally. Thank you.
    Okay. Last round for myself, I guess, for a couple more 
questions.
    Mr. Gianato, you have got vast experience in emergency 
response, and a lot of these procedures and things, as we have 
talked about in both panels, have been getting better over the 
years. In your current position, have you recently had to use 
the National Guard, or has the National Guard responded in 
either of their capacities? Specifically, last year's chemical 
spill that was impacting 30,000 residents. What is your 
perspective on the benefits of using the National Guard in this 
role?
    Mr. Gianato. To answer your question on the chemical spill, 
the National Guard was actively involved and played a major 
role in the response to that. I think it coupled, to build upon 
what General McGuire was saying, we utilized the CST teams. One 
of those teams that was developed in each State is the primary 
resource for doing a lot of the base chemical analysis on the 
product that was in the river. That CST team then became the 
focal point of the collection of all the samples that were done 
throughout that entire water system.
    That was just one aspect. They also were instrumental in 
helping with the logistics. That was one of the largest water 
logistics missions that not only has West Virginia run, but 
that FEMA has run, when you had that many people without water 
for that duration of time.
    But another thing, and just a couple of points with the 
Guard and the cyber piece, that we had concerns with is the 
SCADA system that ran the water facility. So we had built the 
capability during the Boy Scout Jamboree and the intelligence 
unit of the Guard that did monitoring of social media. So we 
utilized that capability to pay attention to what was being 
said, where we were seeing issues, and also to see if there was 
anybody out there that was planning to try to take advantage of 
the situation to do further harm.
    We were also concerned of making sure that the plant 
systems were functional. But then as we started to recover from 
this event, the water company used a GIS-based application to 
let people know when the water was safe. As they cleared 
different zones of the water system and turned the systems back 
on for public use, we had a concern that someone could hack 
into that system and change those, so you would have people in 
zones that weren't safe drinking the water. So we used the 
Guard for that capability, to monitor that, and to work with 
the water company on monitoring their SCADA systems as well.
    The second point, we had a phishing attack on the State 
network in West Virginia, and it was what appeared to be a 
fairly benign attack but turned into a little bit more. But we 
used some of the capabilities that the Guard has developed to 
help us go in and look at the systems, identify that, collect 
some of the, again, the evidence that was used by the FBI to 
try to track this down. Then in the recovery phase, to actually 
come in, we had about 4,000 or so computers that were infected, 
and help our State technology office go in and literally clean 
those machines and get them back on-line.
    One of our concerns with that is building the depth of the 
pool of people that can maintain this capability going forward. 
We are very fortunate, several years ago the West Virginia 
Legislature passed a piece of legislation that provides college 
tuition if you join the National Guard. So they will pay for a 
4-year college education if you join the Guard, or if you 
already have a college degree, they will pay for up to a 
master's degree. So our Guard, working with some of the local 
colleges, is building a cyber capability or a cyber program 
with one of those colleges to help build that depth that they 
are going to need moving forward.
    So I think the Guard is an integral part of all of our 
emergency response. It is directly under the control of the 
Governor. It keeps that response local. But yet if that 
response still needs to be broadened out to other States, we 
are still maintaining that control by the Governor using the 
EMAC process. I don't know what we would do in West Virginia 
without those capabilities.
    Ms. McSally. Great. Thank you. Were there any 
interoperability issues in the response to the chemical spill 
as far as just basic communication?
    Mr. Gianato. In West Virginia we have a State-wide trunked 
radio system that everybody shares, including the National 
Guard, so we were all on the same system. We purposely provided 
the Guard with those types of radios so that they can interact 
with us.
    Ms. McSally. Great. Thank you.
    General McGuire, I have just a couple of wrap-up questions 
here. The first is related to the dual-status commanders. In 
Sandy, all the dual-status commanders were Guard and not Title 
10, so a guardsman leader taking on responsibility of Title 10 
is one model, right, so that they have got both of those, but 
the other model is you bring in an Active-Duty leader who is 
then responsible for Title 10 and Title 32.
    Based on your comments of Capstone and just our experiences 
of the Active-Duty and their understanding of these roles and 
responsibilities, are you aware of any Title 10 generals that 
have been trained for this role, and what are your thoughts and 
concerns about that?
    General McGuire. So the statute--I don't know if it is a 
statute or a DOD regulation instruction--says that the dual-
status commander will be a guardsman by exception, so unless 
there is a reason not to. So an example that I gave was if the 
incident occurred on Davis-Monthan, the dual-status commander 
in that case would be a Title 10 officer. The reason for that 
legally was there is no way to revert a Title 10 officer and 
put him under Title 32 or State Active-Duty. Where I currently 
am serving as the Adjutant General, but I also hold a Major 
General authorization in the Air Force Reserve where I could be 
called to duty and go----
    Ms. McSally. Right. It is easier to go that way than the 
other way.
    General McGuire. Right. So there is no revision clause. So 
by and large, all your dual-status commanders. I have been 
through that NORTHCOM course. We did have Title 10 deputies. 
The purpose of that is that that Title 10 deputy is to be the 
guy that really handles what I will call the block and the 
tackle.
    Should you have any kind of significant requirement for 
legal, Article 15, judicial action, any of that kind of stuff, 
that they all, ADCON, OPCON, TACON, during the time of that 
event through this dual-status commander, but you have a Title 
32 and a Title 10 deputy that are dealing with that.
    But we are synching effort, unity of effort, so mission 
assignments are going to the right places. We are not sending 
two engineering battalions to one location and an area where we 
need an engineering battalion is uncovered once the resources 
are exhausted.
    That said, I will go back to your comment about education 
and the training piece in the previous hearing. I think there 
is probably a need for at least some National discussion about 
the idea that maybe we have, require some of our senior 
officers to serve a Title 10 duty, not in a command element, 
but as a 04, 05, 06, kind of like we do in the joint world, in 
the National Guard so that when they arrive to be the J-5 or 
the NORTHCOM commander or the NORTHCOM J-3, they are not 
shocked and surprised by these crazy adjutants general they 
have to deal with.
    That is how Goldwater-Nichols evolved in 1986, and I think 
some of these events like Katrina and Sandy have kind of led us 
to the idea that maybe--and that would come from you as a 
Federal body--to decide that maybe you want to modify statutory 
language that says something to that effect.
    Ms. McSally. Great. Thanks.
    My last question is related to the mission you mentioned of 
using our guardsmen on the Southwest Border. First of all, just 
for the record, what is the current role that our guardsmen are 
serving on the Southern Border, and your perspectives of the 
best roles that they could and should be serving in related to 
the Southern Border?
    Obviously steady-state in a perfect world, DHS has got a 
better strategy and is securing the Southern Border. We are 
often calling up the Guard sort of in an emergency, but we seem 
to have lots of emergencies. If we were just actually to fix 
the problem, then maybe we wouldn't need to be continuing to 
call you all to duty.
    So what are the best roles, and is it the best use of our 
guardsmen to be serving in that capacity, both from a 
capabilities and talents, and then also resources?
    General McGuire. Well, I don't know that I can quantify if 
it is best use. So let me talk about the roles.
    In the supported and supporting, we are supporting in this 
case DHS is the lead Federal agent, not unlike we would support 
FEMA as the lead Federal agent in a response if we were 
providing forces.
    We have two separate missions that are going in Arizona, 
primarily focused geographically on the Southwest Border under 
different authorities. One is the Joint Counter Narcotics Task 
Force and very clearly-defined rules for use of force, as well 
as authorities under Title 32, Federally-resourced, Posse 
Comitatus. Those people are working with and support of the war 
on drugs, the counternarcotics piece.
    Separate and independent, we have a Southwest Border Task 
Force that was an outgrowth of the 2007 Operation Jump Start 
that continues today. Operation Guardian Eye is the name of 
that. Those roles are unique and distinct, so there is no 
commingling of your rules for use of force and the rest.
    In the former you have guardsmen uniquely designed to help 
with support of aviation, rotary wing assets, moving people 
around, moving Customs and Border Enforcement agents around, 
not really getting on the pointy end of doing the arresting, 
but helping with logistic support, movement, administration, 
all kind of things that they need.
    But ultimately I think that once DHS says that they are on 
their feet and ready to go, that is a mission that is very 
clearly the purview of the Department of Justice and the 
Department of Homeland Security.
    Separately, the Southwest Border mission, big issues there 
for us are issues like supporting engineering, supporting, 
again, all of the things with movement of, in this case, 
Customs and Border Patrol is the lead Federal agent, moving 
their forces around, helping them with the logistical piece.
    As you know, in Arizona we have nearly 400 miles of border. 
Only 35 miles of it is private land. The balance of it is 
Federal or State land. So we have a lot of public entities and 
equities, it is a lot of ground to cover in relatively unpaved 
terrain. So rotary wing assets is where we primarily focus in 
the logistical piece. Because we have large rotary wing assets 
in the Guard it is a great place to do that down in southern 
Arizona.
    Ms. McSally. Thanks. Just one quick follow-up. Do you see 
is there any role for any ISR assets that are in the Air 
National Guard as they are doing their training missions for 
them to actually be communicating and just providing ad hoc 
support?
    General McGuire. I would say our greatest strength would be 
to help Customs and Border Patrol put up more aircraft in the 
launch and recovery element that we just stood up down in Fort 
Huachuca as the National Guard. We could gain great training 
benefit to our airmen, hand those aircraft off to trained and 
qualified enforcement agents so we don't trespass the intel 
oversight rules on citizens inside this country and let law 
enforcement agents deal with that.
    But that would relieve a huge amount of stress on them 
because, truthfully, having been qualified as an MQ-1 guy, it 
is much easier to just drive in a straight line than take off 
and land. So we do all the take off and landings, and they go 
out and send out. So we could increase capacity significantly 
in that area.
    That mission though, that mission set where we talk about 
incident awareness, the IAA kind of thing, I think that is a 
good example of even in emergency response, your question 
earlier about the FAA, I think that that is going to be a huge 
force multiplier and a seam that needs to be explored as to 
where the statutory limitations are, because as we get ready 
for wildfire season, I would much prefer to have one of our 
crews, Guard or DHS, utilizing an overhead asset to prevent 
something like what happened on Yarnell Hill, where we could 
have greater situational awareness on changing weather 
patterns, where the fire is at, those types of things.
    Ms. McSally. Great. Thanks. I look forward to following up. 
Maybe we can connect with CBP on the integration related to the 
ISR assets. I think that is a great increased capacity as well, 
so I look forward to following up with you on that.
    Okay. Well, thank you, everybody, for your time and your 
participation today. I really appreciate your valuable insights 
and experience. I thank the Members for their questions.
    The Members of the subcommittee may have some additional 
questions for the witnesses. We just ask that you respond to 
those in writing. Pursuant to Committee Rule VII(E), the 
hearing record will be held open for 10 days.
    The subcommittee stands adjourned.
    [Whereupon, at 12:30 p.m., the subcommittee was adjourned.]



                            A P P E N D I X

                              ----------                              

 Statement of the California Governor's Office of Emergency Services, 
               National Emergency Management Association
      california's standardized emergency management system (sems)
    The breadth and magnitude of emergencies that face the State of 
California are unique in scope and resulted in the development of the 
Standardized Emergency Management System (SEMS). SEMS is a systematic 
approach that coordinates the resources of all Californian agencies and 
departments, from the local level up to larger jurisdictions, to 
prevent, protect against, respond to, recover from, and mitigate the 
effects of a disaster. SEMS has been tested, and proven to be effective 
in response to disasters, regardless of cause, size, complexity, or 
location and many of its tenets were included in the National Incident 
Management System (NIMS).
    SEMS and NIMS were designed to seamlessly integrate the 
capabilities of local, State, and Federal Government entities as well 
as non-Governmental and volunteer organizations, to provide a rapid and 
effective response to a disaster. It is imperative that any entity that 
provides resources in response to a disaster do so within the framework 
of SEMS/NIMS in order to ensure unity of effort, synchronization, and 
prioritization of resources.
           defense support of civil authorities in california
    In addition to the California National Guard (CNG) under Title 32, 
Defense Support of Civil Authorities (DSCA) under Title 10 is utilized 
on a daily basis in coordination with the State, and has prescribed 
roles within the State's regional catastrophic plans. The CNG is a key 
partner in Wildland Search and Rescue (SAR) and provides capabilities 
within SEMS that largely include aviation support when local assets are 
unavailable or not capable of supporting the mission. Within the 
State's catastrophic plans and in coordination with the Unified 
Coordination Group (UCG), CNG provides assistance under the designation 
of dual-status command.
    The most widely-used CNG asset within Wildland SAR are the UH60 
Blackhawk and CH47 Chinook airframes. Both of these platforms combine 
high-altitude performance, heavy-lift capacity and hoist capabilities 
that facilitate the insertion and extraction of SAR personnel and 
equipment into remote areas. Fires in California are expected to 
increase to an unprecedented number in 2015, due to the severity of 
California's on-going drought. To meet the demands of this volatile 
scenario, the CNG provides essential support for fire missions, with a 
requirement to deploy and maintain over a dozen helicopters and be 
prepared to surge beyond that for a short duration. The National Guard 
also supports homeland security within the State by participating in 
regional and State-wide exercises supporting cybersecurity efforts and 
providing aviation support for local efforts to eradicate illicit 
drugs.
    The CNG and the Department of Defense (DOD) all play vital DSCA 
roles to support the State's three catastrophic plans for Southern 
California, the Bay Area, and the Cascadia Subduction Zone. These plans 
identify the resources and capabilities needed during a catastrophic 
incident within one construct, and facilitate integration across all 
levels of government. In some of these scenarios, the shortfalls that 
cannot be filled using the mutual aid system will be forwarded to the 
UCG to be filled by Federal assets, which connects the State to DOD 
resources. In the catastrophic plans, CNG and DOD support under the 
dual-status commander, a CNG officer, includes supplying emergency 
water and sanitation needs for response operations, establishing and 
maintaining functional and interoperable communications for responders, 
implementing and directing acute care medical response in support of 
Operational Areas, and operating the DOD Mortuary Affairs Team.
                   dsca and dual-status command (dsc)
    The California National Guard and other Title 32 Guard forces 
available through the Emergency Management Assistance Compact are 
integral components of California's disaster management capability set. 
To meet the challenges of catastrophic scenarios, the DOD has developed 
standing Joint Task Forces (JTFs) under U.S. Northern Command 
(USNORTHCOM) to roll up multiple capabilities under a single command 
structure to provide mutual aid support during emergencies.
    Historically, these JTFs have not effectively integrated into SEMS 
without being placed under the responsibility of the dual-status 
command (DSC), giving the Governor effective control over their 
activities. In its current state, DSCA doctrine and procedures lack 
connectivity to SEMS, resulting in disordered response trainings and 
exercises in California.
    The DOD's overly broad interpretation of ``Immediate Response'' 
during emergency scenarios effectively circumvents, and at times, 
undermines the dual-status command structure. This runs counter to the 
principles of unified command and hinders resource allocation, 
protocols, and other vital elements of emergency response operations, 
as well as processes already established and agreed to in our 
catastrophic plans. In the absence of DSC control over T-10 assets 
deployed in operational support to a catastrophic scenario, SEMS' 
effectiveness in prioritizing response across a wide area and multiple 
jurisdictions is jeopardized.
                  looking forward: dsca and sems/nims
    DSCA must integrate into SEMS/NIMS if it is to effectively 
contribute to catastrophic incidents in California. When DSCA's 
policies contradict California law, or violate its civil authority 
framework, the integrity of SEMS is compromised. There must be greater 
DOD recognition of, and adherence to, SEMS prior to incidents, during 
trainings, exercises, and other preparatory activities to ensure that 
DOD's ``Immediate Response'' activities are consistent with SEMS. The 
California Governor's Office of Emergency Services is committed to 
working with the DOD to ensure there is clarity on the tactical and 
legal guidelines that need to be factored into a response in 
California, and it is critical that these issues are addressed before 
California experiences its next large-scale catastrophe.

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
